APPENDIX A

Petersen v. State, --- So.3d ---- (2019)

2019 WL 181145
Only the Westlaw citation is currently available.
NOT YET RELEASED FOR PUBLICATION.
Court of Criminal Appeals of Alabama.

Ryan Clark PETERSEN
v.
STATE of Alabama
CR-16-0652
|
January 11, 2019
Synopsis
Background: Defendant was convicted in the Houston
Circuit Court, Nos. CC-12-878; CC-12-879; CC-12-880;
CC-12-881; and CC-12-882, of one count of murder made
capital because two or more persons were murdered by one
act, scheme, or course of conduct, three counts of murder
made capital because three people were killed during the
course of a burglary, and one count of attempted murder,
and was sentenced to death for his capital-murder convictions
and to life imprisonment for his attempted-murder conviction,
based on incident in which defendant shot and killed three
people, and shot and seriously wounded a fourth, at a
nightclub. Defendant appealed.

Holdings: The Court of Criminal Appeals, Joiner, J., held
that:
trial court's errors, if any, during jury selection were harmless;
State did not act with racially discriminatory purposes
during jury selection when it requested removal of AfricanAmerican prospective jurors;
State's use of 14 of its 18 peremptory strikes to remove women
from venire did not establish prima facie case of gender
discrimination in violation of J.E.B. v. Alabama, 114 S.Ct.
1419;
defendant's purported invocations of his right to
counsel during interviews with police investigator were
not unequivocal, for purposes of determining whether
investigation violated defendant's right to counsel;

evidence was sufficient to support finding that defendant
caused death of victim while defendant remained unlawfully
on club's premises, as required for conviction for murder
made capital because it was committed during commission of
second-degree burglary;
trial court acted within its discretion during penalty phase
when it declined to give any weight to statutory mitigating
circumstance regarding impairment of defendant's capacity to
appreciate criminality of his conduct or conform it to law; and
death sentence was appropriate.
Affirmed.
Windom, P.J., and Kellum, J., concurred in result.
Appeal from Houston Circuit Court (CC-12-878;
CC-12-879; CC-12-880; CC-12-881; and CC-12-882)
Opinion
JOINER, Judge.
*1 Ryan Clark Petersen was convicted of one count of
murder made capital because two or more persons were
murdered by one act, scheme, or course of conduct, see §
13A-5-40(a)(10), Ala. Code 1975; three counts of murder
made capital because three people were killed during the
course of a burglary, see § 13A-5-40(a)(4) Ala. Code 1975;
and one count of attempted murder, see §§ 13A-6-2 and
13A-4-2, Ala. Code 1975. During the penalty phase of
Petersen's trial, the jury recommended by a vote of 10
to 2 that Peterson be sentenced to death on the capitalmurder convictions. The circuit court then sentenced Petersen
to death for his capital-murder convictions and to life
imprisonment for his attempted-murder conviction. This
appeal, which is automatic in a case involving the death
penalty, followed.1 See § 13A-5-53, Ala. Code 1975.

Facts and Procedural History
In its sentencing order, the circuit court recited the following
facts underlying Petersen's convictions and sentences:

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

1

Petersen v. State, --- So.3d ---- (2019)

“On August 9, 2012, Ryan Clark Petersen shot and killed
Cameron Paul Eubanks, Tiffany Paige Grissett and Thomas
Robins, and seriously wounded Scotty Russell at Teasers
nightclub in rural Houston County. Petersen used a Glock
[brand] 9mm pistol he purchased approximately one month
earlier, and had been issued a concealed carry pistol permit
by the Coffee County sheriff's department a few days
before the shootings.
“Teasers is a lawfully operated nightclub, licensed to sell
alcoholic beverages, and features scantily clothed women
dancers, also referred to as performers, as entertainers
for patrons. Teasers is located on U.S. highway 84 in
the rural unincorporated area of Wicksburg in western
Houston County. Typically, Teasers requires a ‘coverage
charge’ for entry. But, the evening of August 9, 2012,
the nightclub offered a special discount it called ‘Tattoo
Thursday.’ Customers could show their personal tattoo
and gain entry for free without paying a cover charge.
Teasers and the dancers typically make money by either
the customers paying the dancers for dances or customers
purchasing drinks for the dancers. Either way, the proceeds
are shared between the club and the dancers. Teasers does
not accept any form of payment other than cash, and an
ATM machine is on the premises. The building is divided
into two areas for customers: a larger room that holds a bar,
a DJ booth, numerous tables and chairs and dance stages for
the dancers, and a smaller room with couches for ‘private
dances,’ also referred to as ‘lap dances.’ During normal
business operation the public areas are dimly lit and feature
recorded music and strobe lighting. Teasers has a ‘no touch’
policy, meaning patrons are not permitted any physical
contact with the dancers. Also, state licensing regulations
require the dancers to have at least minimal coverage of the
breasts [and] pelvic areas. Firearms are not permitted inside
the nightclub. Teasers is operated as a private membership
club under Alabama law.
*2 “Petersen, an Enterprise resident, traveled alone in
his car to Teasers, about fifteen miles east of Enterprise,
the evening of August 9, 2012. Petersen entered the club
by showing his tattoo and was not charged a fee. He
had approximately three-hundred dollars in United States
currency with him. Holly Lowery was a waitress who
served Petersen. She testified Petersen was served beer
and other drinks, and he purchased drinks for the dancers.
Petersen remained in the larger dance room. Lowery stated
that Petersen was not intoxicated, but that he was ‘buzzed.’
She also described Petersen as ‘rude.’ Crystal Sellers was

a dancer that night and testified that Petersen was ‘drunk’
and was talking to everyone and touching other people.
She stated he was stumbling, he was referring to himself as
‘Clark Kent’ and people were laughing at him.
“Bruce Middleton is a co-owner of Teasers (along with
Paul Eubanks, Cameron's father). Middleton was working
at Teasers on the night of August 9, 2012. An employee
came to Middleton in his office and reported that Paige,
one of the dancers, was having problems with Petersen.
Middleton had Petersen brought to his office. Middleton
testified that Petersen did not appear intoxicated, but he was
upset over a dispute with a dancer about a ‘dollar dance.’
Middleton stated that Petersen told him he gave Paige a
twenty dollar bill and he was being ‘ripped off.’ Middleton
offered to refund twenty dollars to Petersen, who became
belligerent. At this point, Middleton told Petersen he had
to leave the club since he had been warned twice earlier
in the evening about ‘groping’ dancers. Middleton stated
Petersen began cursing and refused to leave.
“When Petersen refused to leave the office, Middleton and
Joe Glow (an employee) grabbed Petersen's wrists and
arms and began to forcibly remove him. Cameron Eubanks,
also an employee, who was working the entry area,
aided the physical removal of Petersen. James Williams,
the DJ, came and followed the men removing Petersen.
William Gaines, the bartender, testified that Petersen was
resisting the men and was ‘flailing’ and grabbing the door
frame in resistance. However, Petersen [was] successfully
physically removed with no injury to anyone, including
Petersen. A portion of Petersen's removal [was] recorded
on video by the nightclub's video surveillance system.
“Lorainne Peacock was in her vehicle in the Teasers
parking lot and saw Petersen being forcibly removed
through the front door. She testified that she witnessed
Petersen calmly walk to his Ford Taurus automobile in the
parking lot, and enter the front passenger door. Petersen
then got out of the car with a pistol and walked back to the
front door of Teasers. Cameron Eubanks was still standing
just outside the front door. Petersen approached Eubanks
and shot him with the pistol six times: twice in the chest,
twice in the abdomen, once in the pelvic region and once
in the head.
“Petersen then entered the front door by either stepping
over Eubanks's body or around him. As Petersen made
entry, a patron, Scotty Russell, was in the club and
proceeding towards the front door exit. Russell was not

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

2

Petersen v. State, --- So.3d ---- (2019)

aware of the murder that just occurred. Russell was
suddenly and unexpectedly confronted by Petersen in the
narrow hallway just inside the front door. Upon seeing ...
Petersen with a handgun Russell instinctively threw his
right arm up towards his head and Petersen shot him in
the arm. Russell testified that he ‘played dead’ and heard
Petersen say to someone else ‘alright bitch it's your turn
now’ and he heard more shooting. Russell was able to exit
the club. Russell spent three days in the hospital for his
injury. The gunshot shattered the bone in his right arm,
requiring the installation of a rod, plate and three pins in
surgery, along with one hundred and thirty (130) stitches
and physical therapy. Russell spent five months undergoing
physical rehabilitation, and testified his right arm is eightyeight (88) percent functional and shrapnel remains in his
arm. Russell subsequently filed a lawsuit against Teasers in
which he alleged, through his attorney, that Petersen was
‘visibly intoxicated.’
*3 “Petersen, in the main room of the club, then shot
Tiffany Paige Grissett, a dancer, twice in the back, causing
her death. Both bullets passed through Grissett's body
and at least one lodged in a wall. Petersen then entered
the smaller private dance room and fatally shot Thomas
Robins, a customer, in the chest. Petersen's gun had ten
bullets, and at this point he has used each one in a deadly
manner on another human being (eight in the torso, one in
the head, one in an arm blocking the head).
“Petersen then left Teasers through the front door into the
parking lot. He went around to the rear of the building. By
this time, Paul Eubanks, who lived in a home immediately
behind Teasers was aware of the shooting in the club. Paul
Eubanks [saw] Petersen fleeing to the west behind the club
and fire[d] three shots with his own pistol at Petersen, but
[did] not hit him. Petersen successfully scale[d] a fence into
an adjoining field in the darkness.
“The Houston County sheriff and deputies responded to the
club, but [were] unable to locate Petersen during the night.
In the early dawn of August 10, 2012, Petersen voluntarily
[came] out of the field and [was] arrested. Petersen had
visible scrapes and scratches from fleeing into the field.
Petersen [was] immediately taken to the Houston County
jail. As part of the booking process the jail's physician's
assistant, Jason Smoak, examine[d] Petersen for physical
injuries and [found] none, other than the scrapes and
scratches from the field where he fled after the murders.
When Smoak ask[ed] Petersen how he fe[lt], Petersen
answer[ed] by saying ‘I feel like I just shot three people.’

Smoak further stated that Petersen did not appear to be
under the influence of any substance, his speech was not
slurred, and he responded appropriately to questions.
“Thereafter, on August 10, 2012, Bill Rafferty, an
investigator with the Houston County sheriff's department
interview[ed] Petersen. Petersen [told] Rafferty that he
[was] bipolar and [was] prescribed Seroquel, Klonopin and
Zoloft for his mental health condition. Petersen state[d]
he was drinking at Teasers and ran out of money, but
the dancer nevertheless ordered a drink and wanted him
to pay. Petersen also state[d] he was taken to an office
and was ‘manhandled’ out the front door by three men.
Petersen [told] Rafferty he then did something ‘crazy’ and
‘without thinking I did something I can't take back’ out of
anger. Petersen [got] the gun from his car's glove box and
admit[ted] to shooting someone, and having gunshots fired
at him. He discusse[d] the circumstances of his purchase
of the pistol and obtaining a pistol permit. Petersen state[d]
he [did] not remember shooting in the club and describe[d]
his conduct as ‘like an out of body experience.’ At one
point, Petersen ask[ed] Investigator Rafferty if he shot a
girl. Petersen state[d] that it ‘drives me crazy’ to be touched
the way he was by the owner and employees and that he was
‘disrespected.’ He [went] on to make statements to Rafferty
that ‘I can't believe I did this shit over that’ and ‘I don't
remember firing in the building’ or going to the smaller
private dance room. Petersen state[d] that he ‘blacked out’
and denie[d] wanting or intend[ing] to kill anyone. He
state[d] he only remember[ed] killing Eubanks, but not the
shooting of Russell, Grissett, and Robins.
“Dr. Alfredo Parades, a state medical examiner of the
Alabama Department of Forensic Sciences, performed the
postmortem examination of Tiffany Paige Grissett. She was
shot twice in the back, with one shot entering her left lower
back and exiting through her left side below her breast
and the other entering her right middle back and existing
through her right upper abdomen. Both gunshots were fatal
and struck internally the bottom of her lung, her thoracic
aorta and her stomach. Grissett suffered massive internal
hemorrhaging. Dr. Parades found gunpowder stippling on
her skin, which indicate[d] Petersen was at close range
when he shot her, approximately eighteen or twenty-four
inches away. Dr. Parades stated Grissett survived long
enough to feel pain from her injuries.
*4 “Dr. Steven Denton, a state medical examiner of the
Alabama Department of Forensic Sciences, performed a
postmortem examination of Thomas Robins and Cameron

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

3

Petersen v. State, --- So.3d ---- (2019)

Eubanks. Robins was shot once in the lower left chest. The
bullet struck Robins's ribs, diaphragm, colon, thoracic aorta
and spine, and he lost over half of his body's blood. Dr.
Denton recovered the bullet just under the skin of Robins's
back. Dr. Denton stated Robins survived for a few minutes
before dying.
“Dr. Denton found six bullet wounds in his postmortem
examination of Cameron Eubanks. Dr. Denton [could] state
the order of the wounds. The gunshots [were] as follows:
(1) left chest; no damage to internal organs; bullet exited
the body (2) upper abdomen/lower chest; internal wounds
to diaphragm, liver, ribs, lower lung, with a large amount
of blood loss; no exit wound (3) outer right side of the
abdomen; exit right back (4) lower right abdomen; small
intestine wounded; bullet penetrated and stopped in the
lumbar spine (5) right pelvic-thigh area; exit left buttocks
(6) head wound; top of head, with a sharp downward
trajectory into and through the brain; immediate loss of
consciousness.
“Adam Zeh, an investigator with the Houston County
sheriff's department, testified regarding the crime scene
at Teasers. Petersen's car was found with the glove box
open and the keys were recovered in the front passenger
floor. The gun case for the Glock pistol and another
clip with ten bullets for the pistol were also found in
Petersen's car. A receipt from Publix grocery store in
Enterprise for two bottles of cough syrup containing
DXM [ (‘dextromethorphan’] was recovered. Zeh testified
he recovered a video surveillance system from Teasers
nightclub which recorded portions of the events. His
investigation determined that Petersen was in Teasers for
about three hours and forty-five minutes before he was
removed. Petersen began shooting between 11:30 p.m. and
11:35 p.m. Zeh determined Petersen bought the pistol on
July 5, 2012, at the Ordnance Depot (a licensed gun dealer)
in Daleville, Alabama, for $499.00. Petersen only had
some coins and foreign currency in his possession when
he was arrested. Also, Petersen's pistol permit expired
on August 6, 2013. Zeh also found that Petersen was
treated by South Central Mental Health on August 8,
2012, the day before the shooting, and he had mentalhealth appointments scheduled for September 5, 2012, and
September 13, 2012.
“The evidence at trial establishe[d] that Petersen had a
variety of mental health issues. At various times prior to
the homicides, he was diagnosed with bipolar disorder,
depression, anxiety, and mood disorder. On September 30,

2011, Petersen was diagnosed by the South Central Mental
Health Board as meeting the criteria of ‘seriously mentally
ill’ and consequently disabled due to mental illness. In
March 2012, the Social Security Administration approved
Petersen for disability benefits due to his mental-health
disability. Evidence at trial indicate[d] Petersen may have
used lump sum back payment from the Social Security
Administration to purchase his automobile and the Glock 9
mm pistol. Petersen volunteered and was inducted into the
United States Navy, but later was involuntarily discharged
based on his failure to disclose his mental health condition.
“Petersen was arrested in 2012 for misdemeanor theft of
property third degree and placed in the Coffee County
sheriff's jail. While in the jail he appeared suicidal and
homicidal to jail officers and the commander on February
1, 2012, filed a petition in the Coffee County probate
court against Petersen for involuntary commitment. The
probate court ordered Petersen committed to the in-patient
behavioral medicine unit (BMU) at the Southeast Alabama
Medical Center (SAMC) in Dothan for evaluation.
*5 “During his hospitalization at the SAMC a
psychiatrist, Dr. Waggoner, diagnosed Petersen as bipolar
with psychotic features and polysubstance abuse. Dr.
Waggoner found Petersen to pose a danger to himself and to
others and recommended to the probate court that Petersen
be involuntarily committed to the State of Alabama for
long-term psychiatric treatment at Searcy State Hospital.
At the final hearing before the Coffee County probate
court, with all parties represented by lawyers, an employee
of the South Central Mental health Board opposed Dr.
Waggoner's recommendation, and instead recommended
to the court that Petersen be released to the care of his
mother and receive outpatient treatment for his mental
illness. The probate court entered judgment denying longterm involuntary commitment to the State of Alabama and
released Petersen to his mother with orders that he receive
out-patient treatment for his mental illness. On the morning
of August 9, 2012, Petersen attended a mental health
group meeting, where he was described as irritable, having
difficulty with anger control and impulse control, that he
‘will snap easily’ and has limited family support. Petersen
also indicated that he needed more Klonopin. Patricia
Huckabee, a therapy group member, testified Petersen was
crying at the meeting and stated that he needed to see a
doctor.
“Dr. Mark Cunningham is a clinical and forensic
psychologist who testified for the defense. He conducted

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

4

Petersen v. State, --- So.3d ---- (2019)

a thorough and exhaustive review of Petersen's mental
health history. Dr. Cunningham gave his opinion that
at the time of the shootings Petersen was experiencing
Klonopin withdrawal and he was abusing DXM (cough
medicine), which can create euphoria, hallucination and a
‘high’ experience. Dr. Cunningham also gave his opinion
that Petersen suffers from a mood disorder with autism
spectrum features. Dr. Cunningham testified that at the time
of the crimes Petersen was intoxicated. The evidence also
showed that Petersen received a psychiatric evaluation of
social phobia from Dr. Handal on December 14, 2006,
a psychological evaluation from Dr. Fred George on
December 29, 2006, diagnosis of social isolation and
alienation from Dr. Melanie Cotter on February 5, 2007,
and a psychological assessment from Bradford Mental
Health on January 12, 2009.
“Dr. Doug McKeown is a clinical and forensic psychologist
who conducted an examination of Petersen pursuant to
Rule 11.3, Alabama Rules of Criminal Procedure, to
render an opinion regarding Petersen's mental state at the
time of the crimes and his competency to stand trial.
Dr. McKeown testified that Petersen suffers from mood
disorder, substance abuse and he is bi-polar. Dr. McKeown
also testified that in his opinion there is no evidence
Petersen was suffering from severe mental disease or defect
at the time of the crimes or any mental disease or defect that
would render him unable to appreciate the wrongfulness
of his acts. Dr. McKeown stated that Petersen admitted to
consuming ‘six drinks’ at Teasers prior to the murders.”
(C. 538-46.)2
On December 22, 2016, the jury found Petersen guilty as
charged in the indictment. During the penalty phase, the jury
found by special verdict forms that the State had established
three aggravating factors beyond a reasonable doubt: (1) that
Petersen created a great risk of death to many persons; (2)
that the capital offense was committed while Petersen was
engaged in the commission of, or an attempt to commit, a
burglary; and (3) that Petersen intentionally caused the deaths
of two or more persons by one act, scheme, or course of
conduct. On January 5, 2017, the jury recommended by a vote
of 10 to 2 that Petersen be sentenced to death.3
*6 On March 24, 2017, the circuit court sentenced
Petersen to death for his capital-murder convictions and
to life imprisonment for his attempted-murder conviction.
In sentencing Petersen to death, the court found that
the mitigating circumstances4 in Petersen's case were

substantially outweighed by the aggravating circumstances.
Thereafter, Petersen filed a timely notice of appeal.

Standard of Review
On appeal from his convictions and sentence, Petersen
raises numerous issues, including some not raised in the
circuit court. Because Petersen has been sentenced to death,
however, this Court must review the circuit court proceedings
under the plain-error doctrine. See Rule 45A, Ala. R. App. P.
“ ‘ “Plain error is defined as error that has ‘adversely
affected the substantial right of the appellant.’ The
standard of review in reviewing a claim under the
plain-error doctrine is stricter than the standard used in
reviewing an issue that was properly raised in the trial
court or on appeal. As the United States Supreme Court
stated in United States v. Young, 470 U.S. 1, 105 S.
Ct. 1038, 84 L.Ed. 2d 1 (1985), the plain-error doctrine
applies only if the error is ‘particularly egregious’ and
if it ‘seriously affect[s] the fairness, integrity or public
reputation of judicial proceedings.’ See Ex parte Price,
725 So. 2d 1063 (Ala. 1998), cert. denied, 526 U.S. 1133,
119 S. Ct. 1809, 143 L.Ed. 2d 1012 (1999).” ’
“Ex parte Brown, 11 So. 3d 933, 935-36 (Ala.
2008)(quoting Hall v. State, 820 So. 2d 113, 121-22 (Ala.
Crim. App. 1999) ). See also Ex parte Walker, 972 So.
2d 737, 742 (Ala. 2007); Ex parte Trawick, 698 So. 2d
162, 167 (Ala. 1997); Harris v. State, 2 So. 3d 880, 896
(Ala. Crim. App. 2007); and Hyde v. State, 778 So. 2d
199, 209 (Ala. Crim. App. 1998)(‘To rise to the level of
plain error, the claimed error must not only seriously affect
a defendant's “substantial rights,” but it must also have
an unfair prejudicial impact on the jury's deliberations.’).
Although the failure to object in the trial court will not
preclude this Court from reviewing an issue under Rule
45A, Ala. R. App. P., it will weigh against any claim
of prejudice made on appeal. See Dotch v. State, 67 So.
3d 936, 965 (Ala. Crim. App. 2010)(citing Dill v. State,
600 So. 2d 343 (Ala. Crim. App. 1991) ). Additionally,
application of the plain-error rule
“ ‘ “ ‘is to be “used sparingly, solely in those
circumstances in which a miscarriage of justice would
otherwise result.” ’ ” Whitehead v. State, [777 So. 2d
781], at 794 [ (Ala. Crim. App. 1999], quoting Burton v.
State, 651 So. 2d 641, 645 (Ala. Crim. App. 1993), aff'd,

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

5

Petersen v. State, --- So.3d ---- (2019)

651 So. 2d 659 (Ala. 1994), cert. denied, 514 U.S. 1115,
115 S. Ct. 1973, 131 L.Ed. 2d 862 (1995).’
*7 “Centobie v. State, 861 So. 2d 1111, 1118 (Ala. Crim.
App. 2001).”
Phillips v. State, [Ms. CR-12-0197, December 18, 2015]
––– So. 3d ––––, –––– (Ala. Crim. App. 2015), aff'd, [Ms.
1160403, October 19, 2018] ––– So. 3d –––– (Ala. 2018).
With these principles in mind, we address Petersen's claims
on appeal.

Discussion
Pre-Trial Issues
I.5
Petersen argues that he was deprived of his right to an
impartial jury as a result of the circuit court's failure to remove
certain jurors who, he says, were “unfit to serve.” (Petersen's
brief, p. 24.) It is well settled that
“ ‘[t]o justify a challenge for cause, there must be
a proper statutory ground or “ ‘some matter which
imports absolute bias or favor, and leaves nothing to
the discretion of the trial court.’ ” Clark v. State, 621
So. 2d 309, 321 (Ala. Cr. App. 1992) (quoting Nettles
v. State, 435 So. 2d 146, 149 (Ala. Cr. App. 1983) ).
This Court has held that “once a juror indicates initially
that he or she is biased or prejudiced or has deep-seated
impressions” about a case, the juror should be removed
for cause. Knop v. McCain, 561 So. 2d 229, 234 (Ala.
1989). The test to be applied in determining whether
a juror should be removed for cause is whether the
juror can eliminate the influence of his previous feelings
and render a verdict according to the evidence and the
law. Ex parte Taylor, 666 So. 2d 73, 82 (Ala. 1995). A
juror “need not be excused merely because [the juror]
knows something of the case to be tried or because [the
juror] has formed some opinions regarding it.” Kinder
v. State, 515 So. 2d 55, 61 (Ala. Cr. App. 1986). Even
in cases where a potential juror has expressed some
preconceived opinion as to the guilt of the accused,
the juror is sufficiently impartial if he or she can set
aside that opinion and render a verdict based upon the
evidence in the case. Kinder, at 60–61. In order to justify
disqualification, a juror “ ‘must have more than a bias, or

fixed opinion, as to the guilt or innocence of the accused’
”; “ ‘[s]uch opinion must be so fixed ... that it would
bias the verdict a juror would be required to render.’
” Oryang v. State, 642 So. 2d 979, 987 (Ala. Cr. App.
1993) (quoting Siebert v. State, 562 So. 2d 586, 595 (Ala.
Cr. App. 1989) ).’
“Ex parte Davis, 718 So. 2d 1166, 1171–72 (Ala. 1998).
“ ‘ “The qualification of prospective jurors rests within
the sound discretion of the trial judge.” Morrison v. State,
601 So. 2d 165, 168 (Ala. Crim. App. 1992); Ex parte
Cochran, 500 So. 2d 1179, 1183 (Ala. 1985). This Court
will not disturb the trial court's decision “unless there
is a clear showing of an abuse of discretion.” Ex parte
Rutledge, 523 So. 2d 1118, 1120 (Ala. 1988). “This
court must look to the questions propounded to, and the
answers given by, the prospective juror to see if this
discretion was properly exercised.” Knop [v. McCain],
561 So. 2d [229] at 232 [ (Ala. 1989) ]. We must consider
the entire voir dire examination of the juror “in full
context and as a whole.” Ex parte Beam, 512 So. 2d 723,
724 (Ala. 1987); Ex parte Rutledge, 523 So. 2d at 1120.’
*8 “Ex parte Burgess, 827 So. 2d 193, 198 (Ala. 2000).
“ ‘Even though a prospective juror may initially admit to
a potential for bias, the trial court's denial of a motion to
strike that person for cause will not be considered error
by an appellate court if, upon further questioning, it is
ultimately determined that the person can set aside his
or her opinions and try the case fairly and impartially,
based on the evidence and the law.’
“Ex parte Land, 678 So. 2d 224, 240 (Ala. 1996).
“ ‘A trial judge is in a decidedly better position than
an appellate court to assess the credibility of the jurors
during voir dire questioning. See Ford v. State, 628 So.
2d 1068 (Ala. Crim. App. 1993). For that reason, we give
great deference to a trial judge's ruling on challenges for
cause. Baker v. State, 906 So. 2d 210 (Ala. Crim. App.
2001).’
“Turner v. State, 924 So. 2d 737, 754 (Ala. Crim. App.
2002).”
Bohannon v. State, 222 So. 3d 457, 473–74 (Ala. Crim. App.
2015).

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

6

Petersen v. State, --- So.3d ---- (2019)

A.
First, Petersen argues that prospective juror R.D., a former
sheriff's deputy, should have been removed for cause because,
he says, it was revealed that R.D.: (1) was a convicted
felon; (2) “would prefer the defendant to testify”; (3) was
“pro death sentence” and believed in a “life for a life”; (4)
believed that a person that killed another “should forfeit
his life upon conviction”; (5) indicated that he would credit
law-enforcement testimony with more importance than other
testimony; and (6) did not disclose during voir dire that he had
“discussed the case” and “seen local news coverage” before
reporting for jury duty. (Petersen's brief, pp. 24-25.) Petersen
did not move to remove R.D. for cause; therefore, we review
this claim for plain error. See Rule 45A, Ala. R. App. P.
During voir dire examination, R.D. was asked to appear
before the circuit court separately to answer questions about
the responses he had given on his juror questionnaire. During
that time, the following occurred:
“[R.D.:] Yesterday, when the defense attorney asked do you
know anybody, I didn't raise my hand because I would have
had to keep it up.
“THE COURT: Right. Yeah.
“[R.D.:] I know everybody.

“THE COURT: And if you are on the jury and the jury
does find him guilty of a capital offense, based on your
knowledge of the sheriff's employees as well as your
background in law enforcement, could you still follow the
law in determining whether to vote for death or life without
parole?
*9 “[R.D.:] Yes.
“THE COURT: In other words, you wouldn't--it wouldn't
influence you to be more likely to vote for death because
the State, through the D.A., through the sheriff and his
deputies, are seeking the death penalty? You wouldn't be
more likely to lean for death in that circumstance?
“[R.D.:] No.
“THE COURT: And if the evidence and the law supports a
verdict of life without parole, you would have no problem
returning a verdict of life without parole?
“[R.D.:] No.
“THE COURT: Any questions, [prosecutor]?
“[PROSECUTOR:] No. I saw his response in his thing. I'm
satisfied.
“THE COURT: [Defense counsel,] briefly?

“THE COURT: You probably know all the sheriff's
employees.

“[DEFENSE COUNSEL:] [R.D.], in reference to a couple
of things in your questionnaire, first of all, you're a retired
police officer?

“[R.D.:] I know them all.

“[R.D.:] Uh-huh.

“THE COURT: Let me ask you this. The fact that you know
them, could you still give both sides a fair trial, or do you
think it would be a problem for you?

“[DEFENSE COUNSEL:] For, I'm assuming, a number of
years, a good long time.

“[R.D.:] No. I would listen to the evidence.
“THE COURT: So, again, if you think the State has proven
guilt beyond a reasonable doubt, would you have any
problem voting guilty?
“[R.D.:] No.
“THE COURT: And then, likewise, if you think the State
has not proven guilt beyond a reasonable doubt, would you
have any problem voting not guilty?

“[R.D.:] Yeah.
“[DEFENSE COUNSEL:] I mean, you have a working
knowledge of criminal laws.
“[R.D.:] Yes.
“[DEFENSE COUNSEL:] Do you understand that some
deaths, depending on the circumstances, aren't capital
murder?
“[R.D.:] Yeah.

“[R.D.:] No.

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

7

Petersen v. State, --- So.3d ---- (2019)

“[DEFENSE COUNSEL:] There are other charges like
manslaughter and things like that.
“[R.D.:] Uh-huh.
“[DEFENSE COUNSEL:] And so, just because someone
dies, there's not a capital offense that we could put someone
to death for. You already know that? Right?
“[R.D.:] Yes.
“[DEFENSE COUNSEL:] But, in your questionnaire--you
know, we were talking about the death penalty--you put in
here a life for a life. That kind of implies, you know, if
you kill somebody, you must be put to death. Is that your
personal feeling on it?
“[R.D.:] I'll listen to the evidence. But, you know, I'm pro
death sentence. I mean, I believe in the death sentence.
“[DEFENSE COUNSEL:] But, do you also--are you
able to follow the law and consider the mitigating
circumstances, the reasons that we get to where we are, and
if those mitigating reasons outweigh death, could you vote
for life without?
“[R.D.] Yes.
“[DEFENSE COUNSEL:] Even if convicted of capital
murder, can you vote for life without?
“[R.D.:] Yes.
“[DEFENSE COUNSEL:] Okay. In another answer, you
said when a person takes the life of another and he's found
guilty of capital murder, he should forfeit his life upon
conviction. And I guess that's what I'm asking. You can
amend--are you saying you can amend that belief-“[R.D.:] I mean, I'll listen to-“[DEFENSE COUNSEL:] --and consider-“[R.D.:] I'll consider it and listen to the evidence. But I
believe in the death penalty. I'm not going to stand here and
tell you I don't.
“[DEFENSE COUNSEL:] Right. And I'm not going to sit
here and tell you that I don't, necessarily. But you must
agree there are some cases that it's appropriate and some
that are not.

“[DEFENSE COUNSEL:] You understand that?
“[R.D.:] Yes.
“[DEFENSE COUNSEL:] And I guess that's all I'm asking,
is that you would consider the facts of the case and
determine whether it's appropriate, not just blanket rule-“[R.D.:] Yeah.
“[DEFENSE COUNSEL:] --got to have it.
“[R.D.:] Uh-huh.
“THE COURT: That's fine. Thanks.”
*10 (R. 860-65.)
R.D. could have been removed for cause under §
12-16-150(5), Ala. Code 1975, because, according to his juror
questionnaire, he was convicted of a felony--theft of property;
nothing in the excerpts from his voir dire examination quoted
above, however, indicate that the court should have sua
sponte removed him for cause. Although R.D. did state that
he supported the death penalty, he did not indicate that he
would automatically vote to impose the death penalty in every
capital case. Rather, he indicated that he would consider and
would be able to impose a sentence of imprisonment for
life without the possibility of parole in an appropriate case.
Regardless, because Petersen used one of his peremptory
strikes to remove R.D. from the venire, any error in the failure
of the court to sua sponte remove R.D. is harmless. See
McMillan v. State, 139 So. 3d 184, 258 (Ala. Crim. App.
2010)(citing Bethea v. Springhill Mem'l Hosp., 833 So. 2d 1
(Ala. 2002) )(noting that the “the Alabama Supreme Court has
held that the failure to remove a juror for cause is harmless
when that juror is removed by the use of a peremptory strike”).
To the extent that Petersen is arguing that he should not have
been forced to use one of his peremptory strikes to remove
R.D. from the venire, this Court has found that the failure of
a court to sua sponte remove a juror from the venire does not
rise to the level of plain error where there is no indication in
the record that the juror could not be fair and impartial. See
Lee v. State, 898 So. 2d 790, 845 n.11 (Ala. Crim. App. 2001)
(finding that, where there was no indication in the record that
the prospective juror could not be fair and impartial, no plain
error occurs when a defendant uses a peremptory strike to
remove that prospective juror from the venire). Thus, Petersen
is due no relief on this claim.

“[R.D.:] Yeah.
© 2021 Thomson Reuters. No claim to original U.S. Government Works.

8

Petersen v. State, --- So.3d ---- (2019)

B.
Next, Petersen contends that the circuit court erred in failing
to sua sponte remove certain veniremembers--S.D., G.D.,
and D.G.--who, he says, had “personal and professional
relationships with the prosecution.” (Petersen's brief, p. 26.)
Although it appears from the record that Petersen moved to
remove S.D. for cause (R. 952), Petersen did not move to
remove either G.D. or D.G. for cause; thus, we review this
claim as to G.D. and D.G. for plain error. See Rule 45A, Ala.
R. App. P.
First, with regard to S.D., Petersen contends that S.D.'s job
as a software engineer for a company contracted by the
district attorney's office meant that his “financial well being
is associated with his job working” with that office and,
thus, that the court should have removed him from the jury.
(Petersen's brief, p. 26.) During voir dire, however, S.D. stated
that he did not interact with the district attorney and affirmed
that he could fair to both sides. (R. 852-55, 858.) He also
stated that he did not believe his “financial well-being” would
bias his verdict. (R. 857.)
This Court has previously recognized that, where there is no
proof that a veniremember would not render a fair, just, and
impartial verdict, the fact that he or she was employed by
the district attorney's office does not alone impute bias as a
matter of law warranting removal. See, e.g., Lowe v. State,
384 So. 2d 1164, 1171 (Ala. Crim. App. 1980). Thus, the court
committed no error in failing to remove prospective juror S.D.
for cause.
*11 Next, Petersen argues that the court should have sua
sponte removed prospective juror G.D. for cause because,
during voir dire and on his questionnaire, G.D. indicated that
he was related to Captain William Rafferty with the Houston
County Sheriff's Department, the primary investigator in
this case. (Petersen's brief, p. 27.) The record indicates that
G.D.'s niece was married to Cpt. Rafferty. (R. 611.) G.D.
was later called back into the courtroom along with a few
other veniremembers and asked whether he could set aside
any personal beliefs and follow Alabama law concerning the
death penalty and whether he could consider recommending
a life-imprisonment-without-parole sentence if the evidence
supported such a finding. (R. 916-17.) G.D., along with
the other veniremembers, indicated that he could. Id. When
Petersen's defense counsel was given an opportunity to further
question G.D. about his relationship with Cpt. Rafferty,

counsel failed to do so. (R. 917-18.) Later on, however,
Petersen used one of his peremptory strikes to remove G.D.
from the venire; thus, any error in the failure of the court to
sua sponte remove G.D. is harmless. See McMillan v. State,
139 So. 3d 184, 258 (Ala. Crim. App. 2010)(citing Bethea
v. Springhill Mem'l Hosp., 833 So. 2d 1 (Ala. 2002) )(noting
that the “the Alabama Supreme Court has held that the failure
to remove a juror for cause is harmless when that juror is
removed by the use of a peremptory strike”). Thus, Petersen
is due no relief on this claim.
Finally, Petersen contends that the court should have sua
sponte dismissed prospective juror D.G. because, during voir
dire, he admitted that he had a “personal and professional
relationship” with one of the State's key witnesses--former
Houston County Sheriff Andy Hughes. (Petersen's brief, pp.
27-28.) According to Petersen, although D.G. stated that he
could be fair and impartial, that affirmation was not enough
to absolve D.G. of what Petersen says was his “probable
prejudice” against his case. (Petersen's brief, p. 28.) Because
Petersen used one of his peremptory strikes to remove D.G.
from the venire, however, any error in the failure of the court
to sua sponte remove D.G. is harmless. See McMillan v. State,
139 So. 3d 184, 258 (Ala. Crim. App. 2010)(citing Bethea
v. Springhill Mem'l Hosp., 833 So. 2d 1 (Ala. 2002) )(noting
that the “the Alabama Supreme Court has held that the failure
to remove a juror for cause is harmless when that juror is
removed by the use of a peremptory strike”). Thus, Petersen
is due no relief on this claim.

C.
Petersen also asserts that the circuit court erroneously failed
to remove prospective jurors who, he says, were “disqualified
from service” because they indicated that they would credit
the testimony of law enforcement with “more importance than
all other testimony.” (Petersen's brief, p. 28.) Specifically,
Petersen challenges seven veniremembers, each of whom, he
says, indicated that he or she would give the testimony of law
enforcement more weight than other testimony.6 (Petersen's
brief, p. 29.) Petersen did not move to remove those seven
veniremembers for cause below; thus, we review this claim
for plain error. See Rule 45A, Ala. R. App. P.7
After reviewing the questionnaires of those seven prospective
jurors, we note that Petersen is correct that they all indicated
that they would give “more importance” to the testimony
of a law-enforcement officer than any other witness. The

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

9

Petersen v. State, --- So.3d ---- (2019)

record indicates that A.D. and W.H. served on Petersen's jury.
This Court has previously stated, however, that, even when a
juror responds that he or she would give more importance to
the testimony of a law-enforcement officer, such a response
does not indicate that a juror has “an opinion about law
enforcement testimony so fixed that he [or she] could not
fairly and impartially return a verdict based on the evidence”
that would require that juror to be removed from the venire.
See Living v. State, 796 So. 2d 1121, 1135 (Ala. Crim. App.
2000). Additionally, Petersen did not explore the alleged
biases of A.D. and W.H. during voir dire. This Court does not
find plain error to exist as to the circuit court's failure to sua
sponte remove A.D. and W.H. for cause on the basis asserted
by Petersen.
*12 As to the remaining five prospective jurors, Petersen
used his peremptory strikes to remove R.D., J. Bas., R.E.,
R.G., and D.G., from the venire. The Alabama Supreme Court
has previously recognized that forcing a defendant to use his
or her peremptory strikes to remove multiple jurors might not
be harmless error. In Ex parte Colby, 41 So. 3d 1 (Ala. 2009),
the defendant argued that the trial court erred in denying her
challenges for cause as to several jurors, forcing her to use 9
of her 17 peremptory strikes to remove those jurors from the
venire. 41 So. 3d at 4. The Alabama Supreme Court reversed
the judgment after finding that, under its precedent in General
Motors v. Jernigan, 883 So. 2d 646 (Ala. 2003), multiple
errors by the trial court in denying Colby's challenges for case
were not harmless. 41 So. 3d at 5. Specifically, the Alabama
Supreme Court found that the jury in that case included “
‘jurors who would likely have been the subject of peremptory
challenge[s] had such challenges been available’ ” to Colby.
Id. For example, according to the Court, the record indicated
that the seated jury included “jurors who knew witnesses for
the State, jurors who expressed strong support for the death
penalty, and jurors who felt that it was defense counsel's job
to prove the defendant's innocence.” Id.
When Colby made separate motions for the removal of three
of those jurors from the jury, the trial court denied each
motion separately. 41 So. 3d at 7. The Alabama Supreme
Court found that each of those denials was error based on
responses given by those jurors during voir dire that clearly
showed they should have been removed from the venire. Id.
Although the State argued that those errors were harmless, the
Court disagreed and stated “ ‘[i]n each instance in which we
have applied the harmless error rule, we have been presented
with only one erroneous ruling on a challenge for cause.’ ” Id.
(quoting General Motors, 883 So. 2d at 672). Therefore, the

Court held that the errors committed by the trial court were
not harmless.
The present case, however, is distinguishable from Colby.
First, unlike the defendant in Colby, Petersen did not move
to remove any of the jurors at issue. Second, none of the
prospective jurors struck by Petersen was a juror who clearly
should have been removed. Thus, we see no plain error in
the circuit court's failure to sua sponte remove the challenged
veniremembers. Petersen is due no relief on this claim.

D.
Petersen argues that the circuit court erred by failing to
remove prospective jurors A.D. and D.H. from the venire
and allowing them to serve on his jury. (Petersen's brief, pp.
29-30.) Petersen did not challenge either veniremember for
cause; thus, his claim is reviewed for plain error. See Rule
45A, Ala. R. App. P.
During voir dire, A.D. disclosed that the Houston County
District Attorney's office prosecuted three men in connection
with the murder of her brother. (R. 428.) She was not asked
any follow-up questions. D.H. disclosed that she had been the
victim in a sexual-harassment case when she was 15 years old
and that the prosecutors in Petersen's case handled her case.
(R. 835.) When asked if this would impact her ability to serve
as a juror, D.H. stated that this experience would not prevent
her from “giving both sides a fair trial.” (R. 835.)
This Court has previously stated:
“ ‘To justify a challenge of a juror for cause there must be
a statutory ground (Ala. Code Section 12–16–150 (1975)
), or some matter which imports absolute bias or favor,
and leaves nothing to the discretion of the trial court.’
Nettles v. State, 435 So. 2d 146, 149 (Ala. Crim. App.),
aff'd, 435 So. 2d 151 (Ala. 1983). Section 12–16–150 sets
out the grounds for removal of veniremembers for cause
in criminal cases .... In addition to the statutory grounds,
there are other common-law grounds for challenging
veniremembers for cause where those grounds are not
inconsistent with the statute. Smith v. State, 213 So. 3d
108 (Ala. Crim. App. 2000), aff'd in pertinent part, rev'd
in part, 213 So. 3d 214 (Ala. 2003); Kinder v. State,
515 So. 2d 55, 60 (Ala. Crim. App. 1986). Here, we
are dealing with the common-law ground for challenge
of suspicion of bias or partiality. See discussion of the

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

10

Petersen v. State, --- So.3d ---- (2019)

common-law grounds for challenge in Tomlin v. State,
909 So. 2d 213 (Ala. Crim. App. 2002), remanded for
resentencing, 909 So. 2d 283 (Ala. 2003). Ultimately, the
test to be applied is whether the veniremember can set
aside his or her opinions, prejudices, or biases, and try
the case fairly and impartially, according to the law and
the evidence. Smith v. State, supra. This determination of
a veniremember's absolute bias or favor is based on the
veniremember's answers and demeanor and is within the
discretion of the trial court; however, that discretion is
not unlimited. Rule 18.4(e), Ala. R. Crim. P., provides, in
part: ‘When a prospective juror is subject to challenge for
cause or it reasonably appears that the prospective juror
cannot or will not render a fair and impartial verdict, the
court, on its own initiative or on motion of any party, shall
excuse that juror from service in the case.’ Even proof that
a veniremember has a bias or fixed opinion is insufficient
to support a challenge for cause. A prospective juror should
not be disqualified for prejudice or bias if it appears from
his or her answers and demeanor that the influence of that
prejudice or bias can be eliminated and that, if chosen as a
juror, the veniremember would render a verdict according
to the law and the evidence. Mann v. State, 581 So. 2d 22,
25 (Ala. Crim. App. 1991); Minshew v. State, 542 So. 2d
307 (Ala. Crim. App. 1988).”
*13 McGowan v. State, 990 So. 2d 931, 951 (Ala. Crim.
App. 2003). After reviewing the voir dire proceedings in the
present case, we conclude that the circuit court did not err
in failing to sua sponte remove these jurors from the venire.
Although we acknowledge that both A.D. and D.H. had past
relationships with the Houston County District Attorney's
office, nothing in the record before us indicates that this
prevented either of them from serving as a fair and impartial
juror. Thus, Petersen is not entitled to relief.

E.
Finally, Petersen asserts that the circuit court erred in failing
to remove 10 veniremembers8 who, he says, indicated that
they would automatically impose the death penalty without
considering any mitigating circumstances or evidence.
(Petersen's brief, p. 31.) According to Petersen, as a result of
their responses, those veniremembers were not qualified to
serve and should have been removed for cause. Id. Petersen
did not move to remove those veniremembers for cause in the
court below; thus, we review this claim for plain error. See
Rule 45A, Ala. R. App. P.

The record indicates that Petersen used his peremptory strikes
to remove those 10 prospective jurors from the venire. To the
extent that Petersen is arguing that he should not have been
forced to use his peremptory strikes to remove those jurors,
in light of our discussion of Ex parte Colby in Section I.B.
of this opinion, supra, no error occurred in the present case.
Thus, Petersen is due no relief on this claim.

II.
Petersen contends that the State used its peremptory strikes
in a racially discriminatory manner in violation of Batson
v. Kentucky, 476 U.S. 79, 106 S. Ct. 1712, 90 L.Ed. 2d 69
(1986).9 (Petersen's brief, pp. 33-46.) Petersen also contends
that the State used its peremptory strikes against women in
violation of J.E.B. v. Alabama, 511 U.S. 127 (1994), and that
this Court should remand the case for a hearing to determine
whether the State can offer gender-neutral reasons for those
strikes. (Petersen's brief, pp. 46-51.)
This Court has previously stated:
“In evaluating a Batson or J.E.B. claim, a three-step process
must be followed. As explained by the United States
Supreme Court in Miller-El v. Cockrell, 537 U.S. 322, 123
S. Ct. 1029, 154 L.Ed. 2d 931 (2003):
“ ‘First, a defendant must make a prima facie showing
that a peremptory challenge has been exercised on the
basis of race [or gender]. [Batson v. Kentucky,] 476
U.S. [79,] 96-97[, 106 S. Ct. 1712, 1723 (1986) ].
Second, if that showing has been made, the prosecution
must offer a race-neutral [or gender-neutral] basis for
striking the juror in question. Id., at 97-98. Third, in
light of the parties' submissions, the trial court must
determine whether the defendant has shown purposeful
discrimination. Id., at 98.’
*14 “537 U.S. at 328-29.
“With respect to the first step of the process ... ‘[t]he
party alleging discriminatory use of a peremptory strike
bears the burden of establishing a prima facie case of
discrimination.’ Ex parte Brooks, 695 So. 2d 184, 190
(Ala. 1997)(citing Ex parte Branch, 526 So. 2d 609, 622
(Ala. 1987) ). ‘A defendant makes out a prima facie case
of discriminatory jury selection by “the totality of the
relevant facts” surrounding a prosecutor's conduct during
the defendant's trial.’ Lewis v. State, 24 So. 3d 480, 489

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

11

Petersen v. State, --- So.3d ---- (2019)

(Ala. Crim. App. 2006)(quoting Batson, 476 U.S. at 94,
aff'd, 24 So. 3d 540 (Ala. 2009). ‘In determining whether
there is a prima facie case, the court is to consider “all
relevant circumstances” which could lead to an inference
of discrimination.’ Ex parte Branch, 526 So. 2d at 622
(citing Batson, 476 U.S. at 93, citing in turn Washington
v. Davis, 426 U.S. 229, 96 S. Ct. 2040, 48 L.Ed. 2d 597
(1976) ). In Ex parte Branch, the Alabama Supreme Court
specifically set forth a number of ‘relevant circumstances’
to consider in determining whether a prima facie case of
race discrimination has been established:
“ ‘The following are illustrative of the types of evidence
that can be used to raise the inference of discrimination:
“ ‘1. Evidence that the “jurors in question share[d]
only this one characteristic–-their membership in the
group–-and that in all other respects they [were] as
heterogeneous as the community as a whole.” [People v.]
Wheeler, 22 Cal. 3d [258] at 280, 583 P.2d [748] at 764,
148 Cal. Rptr. [890] at 905 [ (1978) ]. For instance, “it
may be significant that the persons challenged, although
all black, include both men and women and are a
variety of ages, occupations, and social or economic
conditions,” Wheeler, 22 Cal. 3d at 280, 583 P.2d at 764,
148 Cal. Rptr. At 905, n.27, indicating that race was the
deciding factor.
“ ‘2. A pattern of strikes against black [or female]
jurors on the particular venire; e.g., 4 of 6 peremptory
challenges were used to strike black jurors. Batson, 476
U.S. at 97, 106 S. Ct. At 1723.
“ ‘3. The past conduct of the state's attorney in using
peremptory challenges to strike all blacks [or females]
from the jury venire. Swain [v. Alabama, 380 U.S. 202,
85 S. Ct. 824, 13 L.Ed. 2d 759 (1965) ].
“ ‘4. The type and manner of the state's attorney's
questions and statements during voir dire, including
nothing more than desultory voir dire. Batson, 476 U.S.
at 97, 106 S. Ct. at 1723; Wheeler, 22 Cal. 3d at 281, 583
P.2d at 764, 148 Cal. Rptr. at 905.
“ ‘5. The type and manner of questions directed to the
challenged juror, including a lack of questions, or a lack
of meaningful questions. Slappy v. State, 503 So. 2d 350,
355 (Fla. Dist. Ct. App. 1987); People v. Turner, 42 Cal.
3d 711, 726 P.2d 102, 230 Cal. Rptr. 656 (1986); People
v. Wheeler, 22 Cal. 3d 258, 583 P.2d 748, 764, 148 Cal.
Rptr. 890 (1978).

“ ‘6. Disparate treatment of members of the jury venire
with the same characteristics, or who answer a question
in the same or similar manner; e.g., in Slappy, a
black elementary school teacher was struck as being
potentially too liberal because of his job, but a white
elementary school teacher was not challenged. Slappy,
503 So. 2d at 355.
*15 “ ‘7. Disparate examination of members of the
venire; e.g., in Slappy, a question designed to provoke
a certain response that is likely to disqualify a juror was
asked to black jurors, but not to white jurors. Slappy, 503
So. 2d at 355.
“ ‘8. Circumstantial evidence of intent may be proven by
disparate impact where all or most of the challenges were
used to strike blacks [or females] from the jury. Batson,
476 U.S. at 93, 106 S. Ct. At 1721; Washington v. Davis,
426 U.S. [229] at 242, 96 S. Ct. [2040] at 2049 [ (1976) ].
“ ‘9. The state used peremptory challenges to dismiss all
or most black [or female] jurors. See Slappy, 503 So. 2d
at 354, Turner, supra.’
“Id. at 622-23.”
White v. State, 179 So. 3d 170, 198-99 (Ala. Crim. App.
2013).
Additionally, this Court has previously recognized:
“ ‘While disparate treatment is strong evidence of
discriminatory intent, it is not necessarily dispositive of
discriminatory treatment. Lynch [v. State], 877 So. 2d
[1254] at 1274 [ (Miss. 2004) ] (citing Berry v. State, 802
So. 2d 1033, 1039 (Miss. 2001) ); see also Chamberlin
v. State, 55 So. 3d 1046, 1050–51 (Miss. 2011). “Where
multiple reasons lead to a peremptory strike, the fact that
other jurors may have some of the individual characteristics
of the challenged juror does not demonstrate that the
reasons assigned are pretextual.” Lynch, 877 So. 2d at 1274
(quoting Berry [v. State], 802 So. 2d [1033] at 1040 [ (Miss.
2001) ] ).
“Hughes v. State, 90 So. 3d 613, 626 (Miss. 2012).
“ ‘ “As recently noted by the Court of Criminal
Appeals, ‘disparate treatment’ cannot automatically be
imputed in every situation where one of the State's bases
for striking a venireperson would technically apply to
another venireperson whom the State found acceptable.

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

12

Petersen v. State, --- So.3d ---- (2019)

Cantu v. State, 842 S.W.2d 667, 689 (Tex. Crim. App.
1992). The State's use of its peremptory challenges is
not subject to rigid quantification. Id. Potential jurors
may possess the same objectionable characteristics, yet
in varying degrees. Id. The fact that jurors remaining on
the panel possess one of more of the same characteristics
as a juror that was stricken, does not establish disparate
treatment.”
“ ‘Barnes v. State, 855 S.W.2d 173, 174 (Tex. App. 1993).
“ ‘ “[W]e must also look to the entire record to determine
if, despite a similarity, there are any significant
differences between the characteristics and responses of
the veniremembers that would, under the facts of this
case, justify the prosecutor treating them differently as
potential members of the jury. See Miller–El [v. Dretke],
545 U.S. [231] at 247, 125 S. Ct. [2317] at 2329 [162
L.Ed. 2d 196 (2005) ].”
“ ‘Leadon v. State, 332 S.W.3d 600, 612 (Tex. App. 2010).
“ ‘ “Potential jurors may possess the same objectionable
characteristics, but in varying degrees. Additionally,
prospective jurors may share a negative feature, but that
feature may be outweighed by characteristics that are
favorable from the State's perspective. Such distinctions
may properly cause the State to challenge one potential
juror and not another.”
“ ‘Johnson v. State, 959 S.W.2d 284, 292 (Tex. App. 1997).
“This Court has recognized that for disparate treatment
to exist, the persons being compared must be ‘otherwise
similarly situated.’ ” Sharp v. State, 151 So. 3d 308, 342
(Ala. Crim. App. 2013) (on rehearing).
*16 “ ‘ “The prosecutor's failure to strike similarly
situated jurors is not pretextual ... ‘where there are
relevant differences between the struck jurors and the
comparator jurors.’ United States v. Novaton, 271 F.3d
968, 1004 (11th Cir. 2001). The prosecutor's explanation
‘does not demand an explanation that is persuasive, or
even plausible; so long as the reason is not inherently
discriminatory, it suffices.’ Rice v. Collins, 546 U.S. 333,
338, 126 S. Ct. 969, 973–74, 163 L.Ed. 2d 824 (2006)
(quotation marks and citation omitted).”
“ ‘Parker v. Allen, 565 F.3d 1258, 1271 (11th Cir. 2009).’ ”
“Wiggins v. State, 193 So. 3d 765, 790 (Ala. Crim. App.
2014).”

Luong v. State, 199 So. 3d 173 at 191-92 (Ala. Crim. App.
2015). With these principles in mind, we will address each of
Petersen's claims in turn.

A.10
First, Petersen argues that the State used its peremptory strikes
in a racially discriminatory manner in violation of Batson
v. Kentucky, 476 U.S. 79, 106 S. Ct. 1712, 90 L.Ed. 2d 69
(1986). (Petersen's brief, pp. 33-46.) Specifically, Petersen
claims that the State's reasons for striking seven prospective
African-American jurors were pretextual. Id.
After several veniremembers were disqualified, excused,
deferred, or stricken for cause, 47 qualified veniremembers
remained--38 were Caucasian and 9 were African-American.
The 9 African-American veniremembers constituted 19% of
the venire.
The State used 7 of its 18 peremptory strikes to remove
African-American veniremembers from the jury panel.
Petersen used 1 of his 17 peremptory strikes to remove an
African-American veniremember from the panel. As best we
can discern, Petersen's jury consisted of 11 Caucasians and 1
African-American. Before the jury was struck, the State made
the following statement to the court:
“[PROSECUTOR:] Can I just ask a question for the record?
I'm telling the Court right now, if they put ‘no’ on the death
penalty on their questionnaire, this is my position. It doesn't
matter what they say. I'm striking them. If they come in
here-“THE COURT: So, you don't want to make a challenge for
cause on them?
“[PROSECUTOR:] Well, I would. I'm just making, for
the record, protection. If they sit in the box--and I'm not
talking about these, but the ones I want in--and they sit there
and don't say, ‘I can do the death penalty,’ I'm not going
to ask the Court, but I'm going to say, ‘You put on your
questionnaire you can't do it. So, when are you telling the
truth?’ I'm not going to put them--but I'm going to strike
them. And I don't care what color, what race, man, woman.
“And if there's a Batson challenge, then the question I'm
asking the Court, you're going to bring them down, do like
you said. So, if they raise that, you're going to say there's

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

13

Petersen v. State, --- So.3d ---- (2019)

enough for them to strike race neutral. Would you agree?
I just want to be sure.
“THE COURT: I don't like to prejudge issues.
“[PROSECUTOR:] I'm not asking you to prejudge.
“THE COURT: I tend to think that anything anybody wrote
on a questionnaire would support a peremptory challenge
by either side-“[PROSECUTOR:] That's good. Thank you.”
(R. 919-20.)
Later, prior to the jury being sworn, Petersen's counsel made
a motion indicating that a Batson violation had occurred. (R.
967.) After hearing the defense's reasons in support of its
motion, the circuit court determined that there was a prima
facie case of discrimination and asked the State to give its
reasons for striking certain African-American jurors from the
venire. (R. 970.)11
*17 The following exchange then occurred:
“[PROSECUTOR:] Yes, Your Honor. If you would
remember in reference to juror number 28, Ms. [K.
Ca.], she came up and spoke on two main points. First,
that she's on bond pending action of the grand jury in
Henry County, Alabama, our corresponding county within
the 20th Judicial Circuit, our jurisdiction, for unlawful
possession of a controlled substance. She also gave a
response that she suffers from bipolar, which is one mental
illness that we expect will be raised by the defense in this
case.

based off the information obtained through voir dire, she
stated that her ... sister in law's husband suffers from
bipolar.
“THE COURT: Anything else?
“....
“[PROSECUTOR:] Also, on question number 53 in the
juror questionnaire, she stated that--she further referenced
the mental illness.
“THE COURT: Next juror.
“[PROSECUTOR:] The next is number 47, [K. Cr.] She
was one of the four jurors brought up and addressed by
the Court about her position on the death penalty. On the
questionnaire, she stated that life without parole was a
severe enough penalty. And given the consideration that
the death--if the jury comes back guilty, that death will
be on the table for that, her response indicated that she's
pro life without parole, because imprisonment and loss of
freedom forever is punishment enough. That's on question
52. Also, she stated that her cousin was violent when not
taking medicines and that her family has been untreated-has been treated unfairly by the cops.
“THE COURT: Is that from the questionnaire?
“[PROSECUTOR:] Yes, sir.
“....

“THE COURT: Anything else on 28?

“[PROSECUTOR:] [She wrote:] ‘The way the officers
chose to engage with the citizens in minor issues. Example,
an officer made my mother cry by talking to her harshly
during a minor traffic stop. It was completely unnecessary.’

“....

“....

“[PROSECUTOR:] No. And then, going to--the next State
strike was 107. 107, [Ms. T.H.], which is marked out and
her new last name is [M.], number 107. She also gave a
response about mental illness.

“THE COURT: Next juror.

“....
“[PROSECUTOR:] That she's also bipolar ... or knew
somebody who was bipolar. So, corresponding with juror
number 28. His mental illness is at issue in this case.
Specifically, the defense has affirmatively pled not guilty
and not guilty by mental disease or defect. Given the
closeness of her relationship to bipolar disorder, which,

“[PROSECUTOR:] The next juror is number 4, Your
Honor, [J. Bar.] He initially, on his questionnaire, or raised
his hand on voir dire, stated that he was not for the death
penalty. And he was in the group that we asked the court to
individually bring up of the four jurors that sat in the box.
So, based off of his initial responses, that led us to request
that of the Court.
“And on question number 42 of the Court, in reference to
how he feels about the death penalty, he said, ‘Well, I feel

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

14

Petersen v. State, --- So.3d ---- (2019)

I didn't give a life, so I don't have the authority to judge for
no one--for one to be taken.’
“....
“Also, on question number 52, he stated that there is no
punishment by taking a life.
*18 “....
“THE COURT: Okay. Next strike that's at issue.
“[PROSECUTOR:] The next one is number 49, which
is Ms. [M.C.]. And if the Court will remember, that on
individual voir dire, she came up. And she's actually been
at a different nightclub on a previous occasion, many years
ago, where there was a shooting. Two individuals were
shot. She didn't see who the shooter was. But it was very
traumatizing to ... her. She got very upset at your bench
describing the details of that.
“She received psychiatric treatment for a number of years
thereafter and was on medication. She stated it would be
on her mind if she sat through the trial and it would cause
her to be emotional.
“....

“....
“[PROSECUTOR:] She was. Based off her initial response
regarding the death penalty on her questionnaire or with the
general voir dire.
“....
“Question number 53, she answered--this is what she says.
She disagreed when it comes to whether a person should
be sentenced to death for intentionally committing a capital
murder, their background and circumstances of the crime
do not matter. We understand the jury has a right to
consider those things. But her response is, ‘Some people
are mentally ill. Mental illness is real and debilitating.
Mental illness can play a role in some instances. So, I
believe mental illnesses should be considered in’--I can't
tell you what that says.
“....
“She's also employed in the medical field. And we also
struck [people] in the medical field ... [white people, too].
“....
“THE COURT: Okay. Last one, number 5.

“She also said, in reference to number four, if answered
‘yes,’ to explain your relationship to the person or
circumstances that led to seeking help, whether the help
was successful, ‘Myself. Help was successful until today.’
Remember she related to the Court, because of the pressure
of this case--

“[PROSECUTOR:] Number 5.... Number 5 has served on
a previous jury and rendered a verdict of not guilty. He's a
black male. We also struck, in removing persons who had
rendered verdicts of not guilty before, number 31, [R.C.],
who was a white male.

“THE COURT: Right.

“....

“[PROSECUTOR:] We need someone that can keep their
mind on the case.
“....
“THE COURT: I will note for the record, as well, on
my notes from--I guess it was Monday, maybe, when
we initially talked with her, I made the notations in my
own handwriting on my personal notes, ‘Sobbing, crying,
Wicksburg shooting, hyperventilating as she spoke with
us.’ All right. Next strike at issue.
“[PROSECUTOR:] The next one was the State's eleventh
strike, which was number 37, J.C.
“THE COURT: She was in the group, also, that came up.

“If I could point out, Judge, on number 5, that on 25, his
answers, previous experiences [as a juror], [he said] yes,
and the case was a Houston County assault, not guilty.
Clearly, these kind of cases are shootings, once again. And
we struck another white male for the same reason.”
(R. 970-78, 980-81.) After hearing the above from the State,
the circuit court determined that the State's reasons for
striking the above veniremembers were sufficiently raceneutral. (R. 981.)
*19 On appeal, Petersen argues that the State's reasons
for striking seven African-American veniremembers were
pretextual and resulted in only one African-American
veniremember serving on his final jury. (Petersen's brief,
p. 37-46.) Specifically, he argues (1) that the Houston

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

15

Petersen v. State, --- So.3d ---- (2019)

County District Attorney's office has a history of removing
African-American veniremembers from death-penalty cases
and that the same is true in this case, thereby establishing a
prima facie case of racial discrimination; (2) that similarly
situated African-American and Caucasian veniremembers
were treated differently; and (3) that the State's request to
remove J. Bar., an African-American, was based on racial
discrimination. Id. We address each in turn.

1.
First, Petersen contends that the statistical evidence
concerning removal by the Houston County District
Attorney's office of African-American veniremembers in
death-penalty cases shows a history of discrimination and
supports such a finding in the present case. As noted
above, African-American veniremembers constituted 19%
of the venire. After the State and Petersen exercised their
peremptory strikes, 1 African-American juror remained,
constituting 8% of the final jury. Finally, the State used 7 of its
18 peremptory strikes to remove 7 of the 9 African-Americans
remaining on the venire after excusals and challenges for
cause. We note that numbers and statistics do not, alone,
establish a prima facie case of racial discrimination. See
Johnson v. State, 823 So. 2d 1 (Ala. Crim. App. 2001)(holding
State's use of six peremptory strikes to remove six of nine
African-American veniremembers insufficient to establish a
prima facie case of racial discrimination); Scheuing v. State,
161 So. 3d 245, 260 (Ala. Crim. App. 2003)(“Here, the
State's use of peremptory strikes to remove 8 of 12 AfricanAmerican veniremembers does not raise an inference of racial
discrimination.”). Even so, the circuit court acted within its
discretion in determining that a prima facie case of racial
discrimination existed, thereby shifting the burden to the State
to offer race-neutral reasons for the strikes.

2.
Petersen next argues that similarly situated African-American
and Caucasian veniremembers were treated differently by the
State. Specifically, he argues that the State struck prospective
jurors M.B., K. Cr., M.C., J.C., T.M., and K. Ca., all of
whom were African-American, but did not strike Caucasian
prospective jurors who he alleges were similarly situated in a
variety of ways. As demonstrated by the excerpts of the State's
reasons quoted above, however--and as the circuit court
found--those veniremembers were struck for race-neutral

reasons. Additionally, review of the juror questionnaires and
the transcript of voir dire examination does not demonstrate
that the prosecutor engaged in disparate treatment when he
struck those African-American veniremembers.
For example, the State struck M.B., an African-American
male, because he had served on a previous jury that rendered
a verdict of not guilty. (R. 980.) The State also struck R.C., a
Caucasian male, for the same reason. (R. 980.) This Court has
previously stated that “a black veniremember's prior service
on a jury in which a not guilty verdict was rendered is a
facially race-neutral reason for striking the veniremember.”
Lyde v. State, 605 So. 2d 1255, 1257 (Ala. Crim. App. 1992).

3.
Finally, Petersen argues that the State's request for J. Bar.,
an African-American, to be removed was made for racially
discriminatory purposes. The record in this case indicates that
J. Bar. was among a group of four veniremembers who were
brought back into the courtroom for further questioning based
on their opposition to the death penalty. (R. 934-37.) The
circuit court asked whether they could follow the law as to
sentencing, and each of them, including J. Bar., responded in
the affirmative. (R. 936-37.)
*20 Petersen contends that since the State failed to ask J.
Bar. any additional questions on the matter, it must have
struck him for racially discriminatory purposes. We note,
however, that, in addressing its reasons for striking J. Bar.,
the State noted his response on his questionnaire not only
that he did not support the death penalty, but also that he was
not sure there was a punishment for taking a life. (R. 974.)
Under these circumstances, Petersen has failed to demonstrate
that the State acted with racially discriminatory purposes
when it moved to remove J. Bar. See Mashburn v. State,
7 So. 3d 453, 461-62 (Ala. Crim. App. 2007)(holding that
striking African-American veniremember for his opposition
to the death penalty and hesitation to consider it a proper
punishment at all was not pretextual).
Based on our review of the voir dire examination and
the juror questionnaires, we find no evidence that the
prosecutor engaged in purposeful discrimination toward
African-American veniremembers. Therefore, Petersen is not
entitled to relief on this Batson claim.

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

16

Petersen v. State, --- So.3d ---- (2019)

B.12
Petersen next argues that the State used its peremptory strikes
against women in violation of J.E.B. v. Alabama, 511 U.S.
127 (1994), and that this Court should remand the case for
a hearing to determine whether the State can offer genderneutral reasons for those strikes. (Petersen's brief, pp. 46-51.)
Because Petersen did not raise this claim at trial, we question
whether it is properly before this Court.
Initially, we note that a plurality of the Alabama Supreme
Court has recently stated that Alabama appellate courts
should no longer include such claims in plain-error review
under circumstances like those present in Petersen's case.
See Ex parte Phillips, [Ms. 1160403, October 19, 2018]
––– So. 3d ––––, –––– (Ala. 2018) (Stuart, C.J., concurring
specially, joined by Main and Wise, JJ.) (“Simply, (1)
plain error should not be available for a Batson [or J.E.B.]
issue raised for the first time on appeal because the failure
to timely make a Batson inquiry is not an error of the
trial court; (2) the defendant should be required to timely
request a Batson hearing to determine whether there was
purposeful discrimination because, under the plain-error rule,
the circumstances giving rise to purposeful discrimination
must be so obvious that failure to notice them seriously affects
the integrity of the judicial proceeding ....”); see also id. at
–––– (Sellers, J., concurring specially) (“I also concur with
Justice Stuart's discussion of the Batson v. Kentucky, 476 U.S.
79, 106 S. Ct. 1712, 90 L.Ed. 2d 69 (1986), issue, which
aligns our jurisprudence with what I believe is persuasive
jurisprudence from federal courts. A Batson claim is a unique
type of constitutional claim that, for the reasons set out in
Justice Stuart's opinion, should be deemed waived even in
capital cases if not timely made. Batson claims are forfeited
if there is no objection to the composition of the jury before
the commencement of a trial.”). For the reasons stated in that
opinion, plain-error review should likewise no longer apply
to J.E.B. claims in circumstances like Petersen's.
Even if, however, the J.E.B. issue raised by Petersen
was subject to plain-error review, Petersen is not entitled
to relief. Here, as noted in Part III.A., supra, after a
number of veniremembers were disqualified, excused, or
stricken for cause, 47 veniremembers remained. Of those 47
veniremembers, 22 were female and 25 were male. Therefore,
the 22 female veniremembers constituted 47% of the venire.
The State used 14 of its 18 peremptory strikes to remove
female veniremembers. Petersen used 3 of his 17 peremptory

strikes to remove female veniremembers. Females constituted
42% of Petersen's final jury. At the conclusion of the juryselection process, neither Petersen's defense counsel nor the
circuit court indicated that a J.E.B. violation had occurred.
*21 On appeal, Petersen argues that the State's use of 14 of
its 18 peremptory strikes to remove women from the venire
along with the prosecutor's comment that he “wanted to keep
men on the jury” and that he “[d]idn't want a jury of all
women” supports an inference of discrimination. (Petersen's
brief, p. 48.) He further argues that the female veniremembers
the State struck were a variety of ages and gave various
answers during voir dire and, thus, that the only common
characteristic among them was their gender. (Petersen's
brief, p. 49.) Finally, Petersen argues that similarly situated
male and female veniremembers were treated differently.
(Petersen's brief, pp. 50-51.) We address each argument in
turn.

1.
First, we disagree with Petersen's contention that the State's
use of 14 of its 18 peremptory strikes to remove women
from the venire supports an inference of discrimination. As
noted above, the female veniremembers constituted 47% of
the venire, and, after the State and Petersen exercised their
peremptory strikes, women constituted 42% of Petersen's
final jury. Although the State used 14 of its 18 peremptory
strikes to remove 14 of the 22 women remaining on the venire
after excuses and challenges for cause, this fact does not
establish a prima facie case of gender discrimination, and
we do not think a prima facie case has been established in
this case. See Largin v. State, 233 So. 3d 374, 403 (Ala.
Crim. App. 2015) (holding that State's use of 22 of 29 strikes
against female veniremembers did not raise an inference
of discrimination). Even so, we will nevertheless consider
Petersen's remaining arguments.

2.
Second, Petersen argues that, because the female
veniremembers the State struck were a variety of ages and
gave various answers during voir dire, the only common
characteristic among them was their gender. (Petersen's brief,
p. 49.) This Court recognized in McCray v. State, 88 So. 3d
1, 20 (Ala. Crim. App. 2010), that

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

17

Petersen v. State, --- So.3d ---- (2019)

“there is almost always going to be some variance among
prospective jurors who are struck; therefore, this alone does
not establish heterogeneity of the struck veniremembers so
as to support an inference of discrimination. The question,
as noted in both Ex parte Branch[, 526 So. 2d 609 (Ala.
1997) ] and Ex parte Trawick[, 698 So. 2d 162 (Ala. 1997)
], is whether the struck jurors shared only the characteristic
at issue, in this case, gender.”
Review of the juror questionnaires and the transcript of voir
dire examination reflects that many of the women struck
shared characteristics other than gender.
For example, Petersen identifies K. Cr. and E.E. as being
improperly struck even though they both answered that they
have purchased weapons. (Petersen's brief, p. 49.) The record
reveals that K. Cr. indicated that she was opposed to the death
penalty. (R. 972-73.) This Court has noted that, at the very
least, opposition to the death penalty is a valid reason for the
State to strike veniremembers. See Scheuing v. State, 161 So.
3d 245, 286 (Ala. Crim. App. 2013). Additionally, the record
shows that E.E. revealed that her son had been in prison but
she indicated that she could be fair and impartial. (R. 913.) We
note, however, that, in her juror questionnaire, E.E. indicated
that “[a]ttorneys and the [district attorney] manipulate the
system.” Because E.E. demonstrated a potential bias toward
the State in her juror questionnaire, the State's decision to
remove her from the jury does not demonstrate purposeful
discrimination.

3.
Finally, we disagree with Petersen's argument that similarly
situated male and female veniremembers were treated
differently to an extent that indicates that discrimination
occurred. Petersen argues that the State struck certain female
prospective jurors but did not strike male jury members who
provided similar answers to certain questions either during
voir dire or on the jury questionnaires. Based on our review
of the voir dire examination and the juror questionnaires,
however, we find no evidence that the prosecutor engaged in
purposeful discrimination toward female veniremembers.
*22 For example, the record indicates that the State struck
female veniremember K.E. who, like male jury member
B.E., had never purchased a firearm. (R. 484.) During voir
dire, however, K.E. indicated that she did not believe that
someone's background should be considered mitigating and

she indicated that she would not accept mitigating factors of
someone's social background. (R. 711-12.) This Court has
previously recognized that a juror may not arbitrarily ignore
any applicable mitigating or aggravating circumstance. See
Whisenhant v. State, 482 So. 2d 1225 (Ala. Crim. App. 1983),
affirmed in part and remanded, 482 So. 2d 1241 (Ala. 1985).
Based on K.E.'s response, it appears that her removal from
the venire was in Petersen's best interest because she may not
have followed the law. See generally Tomlin v. State, 909 So.
2d 213 (Ala. Crim. App. 2002)(holding that the challenged
jurors were stricken for nondiscriminatory reasons, including
a stated inability to follow the law), rev'd on other grounds,
909 So. 2d 283 (Ala. 2003). Thus, we find no plain error, and
Petersen is not entitled to relief.

III.13
Petersen contends that the circuit court erroneously limited
voir dire by refusing to let his defense counsel further
question nine veniremembers about their views on the
death penalty after, he says, they indicated that they would
automatically impose the death penalty without considering
mitigating evidence. (Petersen's brief, pp. 85-87.) Although
he acknowledges that the court questioned those nine
veniremembers individually, Petersen argues that he should
have been permitted to question those veniremembers about
their contradictory responses on the issue. (Petersen's brief,
pp. 85-86.) Petersen did not raise this issue in the circuit court;
thus, it will be reviewed for plain error. See Rule 45A, Ala.
R. App. P.
The record on appeal reveals that, after questioning the full
venire during voir dire, Petersen's defense counsel identified
nine veniremembers for further questioning who, he says,
indicated on their juror questionnaires that they would
automatically impose the death penalty without considering
any mitigating evidence. Those veniremembers were J. Bas.,
B. El., T.B., C.D., G.D., K.E., E.G., C.G., and J.G. (R.
896, 898-908.)14 The circuit court then brought in those
nine veniremembers for further questioning. (R. 915.) The
following exchange occurred:
“THE COURT: Let the record reflect that we've called
down in a group--I'll call the names out one more time. Let
me know if I don't call your name. [J. Bas.], [T.B.], [C.D.],
[G.D.], [K.E.], [B. El.], [E.G.], [C.G.], and [J.G.]. Is that
everybody?

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

18

Petersen v. State, --- So.3d ---- (2019)

“(No response.)
“THE COURT: This is, again, the death penalty question.
I know that a lot of question[s] have been asked and
the questionnaires, as well. And, certainly, all of us, as
Americans, are entitled to our beliefs--we can call them
political, religious, whatever--over any multitude of issues.
And you don't surrender those beliefs because you serve on
a jury.
“But always when you serve on a jury or if you serve
as a judge, your first obligation has to be able to, when
necessary, set aside political, religious or other such beliefs
and go by what the law says, whether you may otherwise
agree or disagree with it. Okay?
“So, in regard to the death penalty, is there any of you
that cannot follow the law of Alabama regarding the death
penalty, whatever that law may be? I won't spend 30
minutes going over it with you. But, is there anyone who
could not follow the law of Alabama on the death penalty?
“(No response.)
“THE COURT: Yes? No? I guess what I'll do, I'll point to
each of you. And tell me, yes, you can follow the evidence
and the law, or, no, you cannot. And I'll start down there
at the end.
“(Whereupon, the prospective jurors were polled and gave
affirmative responses.)
*23 “THE COURT: And if you believe, after hearing the
case, that the evidence and the law supports a verdict of
life without parole, can all of you impose a sentence of life
without parole?
“PROSPECTIVE JURORS: Yes.
“THE COURT: Yes? Tell me ‘no’ if you cannot, anyone
cannot.
“(No response.)
“....
“THE COURT: Anything else from the defense for these
jurors?
“....

“[DEFENSE COUNSEL:] Other than just--aside from
asking them about the questionnaire, why did you put on
here that you're not open to these things.
“THE COURT: Well, that would be an issue for a
peremptory strike, in my opinion. And they've answered it
on their questionnaire.”
(R. 915-18.) Thereafter, Petersen did not move to question the
veniremembers individually.
This Court has previously recognized that
“Rule 18.4(c), Ala. R. Crim. P., provides that ‘[t]he court
shall permit the parties or their attorneys to conduct a
reasonable examination of prospective jurors.’ In Morgan
[v. Illinois, 504 U.S. 719, 112 S. Ct. 2222, 119 L.Ed. 2d
492 (1992) ], ... the United States Supreme Court held that
a capital defendant is entitled to question prospective jurors
about their views on the death penalty and to strike for
cause those prospective jurors who would automatically
impose the death penalty if the defendant is found guilty
of the capital charge. However, ‘[t]he right to question
veniremembers regarding their qualifications to serve on
the jury or their interest or bias is limited by propriety
and pertinence and is to be exercised within the sound
discretion of the trial court, and the questions must be
reasonable under the circumstances of the case.’ Smith v.
State, 698 So. 2d 189, 198 (Ala. Crim. App. 1996), aff'd,
698 So. 2d 219 (Ala. 1997). See also Rule 18.4(d), Ala. R.
Crim. P. (‘Voir dire examination of prospective jurors shall
be limited to inquiries directed to basis for challenge for
cause or for obtaining information enabling the parties to
knowledgeably exercise their strikes.’). ‘In selecting a jury
for a particular case, “the nature, variety, and extent of the
questions that should be asked prospective jurors” must be
left largely within the sound discretion of the trial court.’
Bracewell v. State, 447 So. 2d 815, 821 (Ala. Crim. App.
1983), aff'd, 447 So. 2d 827 (Ala. 1984) (quoting Peoples
v. State, 375 So. 2d 561, 562 (Ala. Crim. App. 1979) ).
‘A trial court is vested with great discretion in determining
how voir dire examination will be conducted, and the
court's decision as to the extent of voir dire examination
required will not be overturned except for an abuse of that
discretion.’ Travis v. State, 776 So. 2d 819, 835 (Ala. Crim.
App. 1997), aff'd, 776 So. 2d 874 (Ala. 2000).”
*24 Floyd v. State, [Ms. CR-13-0623, July 7, 2017) ––– So.
3d ––––, –––– (Ala. Crim. App. 2017). Here, defense counsel
was given an opportunity through a written questionnaire to
ask the nine identified veniremembers about their views on

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

19

Petersen v. State, --- So.3d ---- (2019)

the death penalty. Based on their responses to a question on
the juror questionnaire, Petersen's defense counsel told the
court that they believed that those nine veniremembers should
be questioned further about their views on the death penalty
and mitigating evidence. The court agreed and, without
hesitation, called those prospective jurors back and asked
them additional questions based on those concerns. Under
those circumstances, contrary to Petersen's argument, the
court did not “limit voir dire” in any meaningful way. The fact
that the court did not seek to allow Petersen's defense counsel
to ask those veniremembers even more questions does not
constitute an abuse of discretion under Floyd, supra. Thus,
Petersen is not entitled to relief on this claim.

IV.15
Petersen argues that the circuit court erred by removing
veniremember B.C. from the venire. (Petersen's brief, pp.
87-88.) According to Petersen, although B.C. initially
indicated during voir dire that she might not be able to vote
in favor of sentencing Petersen to death, because she later
indicated that she would be able to do so in response to further
questioning from the State and defense counsel, the court
should not have removed her. Id.
The following is well settled law:
“ ‘ “A trial judge's finding on whether or not a particular
juror is biased ‘is based upon determination of demeanor
and credibility that are peculiarly within a trial judge's
province.’ [Wainwright v.] Witt, 469 U.S. [412] 429, 105
S. Ct. [844] 855 [ (1985) ]. That finding must be accorded
proper deference on appeal. Id. ‘A trial court's rulings on
challenges for cause based on bias [are] entitled to great
weight and will not be disturbed on appeal unless clearly
shown to be an abuse of discretion.’ Nobis v. State, 401
So. 2d 191, 198 (Ala. Cr. App.), cert. denied, Ex parte
Nobis, 401 So. 2d 204 (Ala. 1981).” ’
“Boyle v. State, 154 So. 3d 171, 196 (Ala. Crim. App. 2013)
(quoting Martin v. State, 548 So. 2d 488, 490–91 (Ala.
Crim. App. 1988) ).
“ ‘ “ ‘In a capital case, a prospective juror may not
be excluded for cause unless the juror's views would
prevent or substantially impair the performance of his
duties as a juror in accordance with his instructions
and oath.’ Drew v. Collins, 964 F.2d 411, 416 (5th Cir.
1992), cert. denied, 509 U.S. 925, 113 S. Ct. 3044,

125 L.Ed. 2d 730 (1993) (quotations omitted). ‘[T]his
standard likewise does not require that a juror's bias
be proved with unmistakable clarity. This is because
determinations of juror bias cannot be reduced to
question-and-answer sessions which obtain results in the
manner of a catechism.’ [Wainwright v.] Witt, 469 U.S.
[412,] 425–26, 105 S. Ct. [844,] 852–53 [ (1985) ].” ’
“Boyle, 154 So. 3d at 196–97 (quoting Parr v. Thaler, 481
Fed. App'x 872, 876 (5th Cir. 2012) ).”
Townes v. State, 253 So. 3d 447, 471 (Ala. Crim. App. 2015).
The record on appeal indicates that, during voir dire,
veniremember B.C. initially indicated that she may have
difficulty imposing the death penalty because she did not
believe in the death penalty. (R. 255.) The following exchange
then occurred:
“THE COURT: Okay. I want to ask you about that. Are
there any other issues that you need to discuss with me or
just that one?
“[B.C.:] No. Just that.
“THE COURT: Okay. I need to ask you this way. The
law of Alabama permits the death penalty in certain
circumstances. Okay. So, the first issue, if you sit on the
jury, will be whether he's guilty or not guilty of the crime.
It has nothing to do with punishment-“[B.C.:] Okay.
“THE COURT: --because he's presumed innocent of the
charge. So, we don't even think about punishment unless or
until a jury tells us that he's guilty. So, the lawyers, myself,
no one will talk about the death penalty when they present
their cases to you. If he's found not guilty, then he's free to
go. The jury is discharged. The case is over. We never get
to penalty.
*25 “[B.C.:] Right.
“THE COURT: If he is found guilty of a capital offense,
a jury nor a judge is free to then simply impose the death
penalty. Our law has laws and procedures that would then
have to be followed to determine whether the death penalty
is appropriate or life without parole. There will only be two
options if he's found guilty, death penalty or life without
parole.
“And probably everybody has an opinion about the death
penalty. It's just one of those issues, like a few others,

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

20

Petersen v. State, --- So.3d ---- (2019)

that everyone has some opinion, one way or the other
about. And it's okay to have those opinions. But the issue
becomes, in the case, is whether you could follow the law
or is your opinion of such a nature that you could not follow
the law. Okay?
“So, if you were to sit on the jury, the jury finds him guilty
beyond a reasonable doubt, we go through the sentencing
part of the case, you hear the evidence, I give you the law,
and you do believe, based on the evidence and the law,
that the death penalty is appropriate, would you be able to
set aside your personal belief and consider and impose the
death penalty or would you-“[B.C.:] To be honest with you, I don't know. Because I
know that, you know, a person can be guilty and, you know,
he has taken another life, but, you know, I just don't believe
that he could--you know, you could take--that we have-even though it's law, that we could choose to terminate
that person's life. You know. I mean, he should get the
punishment that he deserves.
“But, in my own personal opinion and my belief, you know,
I don't think that we get to choose to terminate someone's
life, even if he had taken someone else's life.
“THE COURT: Right. And I don't want to put words in
your mouth.

opinion that the State, the jury, as no right to terminate his
life? I can vote life without parole, but I can't vote death.
“[B.C.:] Yeah.
“[PROSECUTOR:] Okay. And I respect that.
“[B.C.:] Yeah.
“[PROSECUTOR:] And my question--I need to ask you
this way. Your opinion and your belief is what I heard
you were talking about. No matter what, your opinion
and your belief is you won't vote death no matter what?
You'll automatically do life without parole under any
circumstance? Is that fair?
“[B.C.:] Yeah.
“[PROSECUTOR:] Okay. Well, like the judge says, we
have to prove he's guilty at the guilt phase. And then,
at the penalty phase, the burden is still on the State. So,
my question, are you telling the judge I can listen to the
evidence, and if the State convinces me, then I can vote
to put him to death, or, no, my belief--I don't believe we
have a right to terminate a man's life or woman? I can send
him to prison for life without parole to die there, but I don't
believe I can ever vote to terminate his life, no matter what.
*26 “[B.C.:] I wouldn't be able to.

“[B.C.:] Right.

“[PROSECUTOR:] 100 percent, you could not do that?

“THE COURT: So, you tell me. Do I understand that you're
telling me that even if you think, under the law and the
evidence, the death penalty would be appropriate, that you
still would not be able to vote for the death penalty?

“[B.C.:] 100 percent, I wouldn't be able to.

“[B.C.:] I don't--I wouldn't--like, I would be undecided to
choose that. I don't know.
“THE COURT: But, if you do think the evidence and the
law warrants the death penalty, would you be able to vote
for death?
“[B.C.:] Of course. Yeah.
“THE COURT: Any questions, [prosecutor]?
“[PROSECUTOR:] Yes. Ms. [B.C.], I appreciate your
honesty. I just want to discuss two things. I heard what
you said, even though if I found him guilty--and I'll ask it
this way--I could consider the death penalty. But, is it your

“[PROSECUTOR:] Thank you for your honesty.
“THE COURT: [Defense counsel]?
“[DEFENSE COUNSEL:] Yes. Now, you seem to have
given this issue some thought-“[B.C.:] Uh-huh.
“[DEFENSE COUNSEL:] --obviously.
“[B.C.:] That's why I stayed. I was going to just walk out,
but then I was, like, wait.
“[DEFENSE COUNSEL:] You've given it some thought.
And that's what we want. We want people who think. We
want thoughtful people to be on the jury-“[B.C.:] Right.

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

21

Petersen v. State, --- So.3d ---- (2019)

“[DEFENSE COUNSEL:] --to get a fair trial. We need
open-minded people to listen to the evidence and make
their conclusions after they've heard it. You understand?

“THE COURT: And we really shouldn't be assuming that--

“[B.C.:] Right.

“THE COURT: --but we just have to for these questions.
So, assuming he's been convicted of capital murder, and
you listen to then the evidence at what we call the
sentencing trial and the additional law that I give you about
the death penalty, and you think, under the evidence and
the law, the death penalty is appropriate, would you be able
to vote for the death penalty?

“[DEFENSE COUNSEL:] Now, a minute ago, when Judge
asked you if you could follow the law, you said that you
could. And I know that there's probably some conflict.
You've never been involved as a juror-“[B.C.:] No. This is my first time.
“[DEFENSE COUNSEL:] --on a capital-murder case, have
you?
“[B.C.:] No. This is my first time being called as a juror.
“[DEFENSE COUNSEL:] So, you've never been exposed
to-“[B.C.:] No.
“[DEFENSE COUNSEL:] --what you're going to be
exposed to here. Right?

“[B.C.:] Okay.

“[B.C.:] If the evidence shows that he was--or that they
were guilty? Are you asking that?
“THE COURT: We're assuming he's guilty.
“[B.C.:] Okay.
“THE COURT: And then the sentencing will open up new
issues and so forth that the attorneys will present to you.
“[B.C.:] So, you're saying would I be able to choose the
death penalty if it went to-“THE COURT: Only if you think the evidence and the law
supports it.

“[B.C.:] No.
“[DEFENSE COUNSEL:] Are you open to the fact that
maybe, once exposed to this, you may have a different
opinion?

“[B.C.:] Evidence and the law supports.

“[B.C.:] Different opinion about the death penalty?

“[B.C.:] Okay.

“[DEFENSE COUNSEL:] About whether or not there
could be some circumstance where it could be warranted
as opposed to just never.

“THE COURT: --in any case. All right? But the evidence
and the law, both of those two things that you hear in the
courtroom--the attorneys will give you the evidence. I'll
give you the law. And then you have to determine, as a
juror, is the death penalty appropriate or not.

“[B.C.:] I don't think I could ever be in that position to-“[DEFENSE COUNSEL:] Well, I guess what I'm asking is,
are you open--are you open to considering-“[B.C.:] Considering-“[DEFENSE COUNSEL:] --both sides?
“[B.C.:] Yes, of course.
“THE COURT: So, if you listen to the evidence-again,
we're assuming he's been convicted.
“[B.C.:] Okay.

“THE COURT: The death penalty is never automatic--

*27 “[B.C.:] Maybe. I wouldn't be able to decide.
“THE COURT: All right. That's fine. I appreciate it.”
(R. 255-64.)
Later on during voir dire, the circuit court mentioned the
above exchange with B.C. concerning her beliefs regarding
the death penalty and indicated that it appeared that “she will
not be able to follow the law and the Court's instruction on
the death penalty.” (R. 305-06.) The State agreed with the
court's assessment and moved to remove B.C. for cause. (R.

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

22

Petersen v. State, --- So.3d ---- (2019)

306.) Defense counsel objected and the following exchange
occurred:
“[DEFENSE COUNSEL:] She indicated to you and to
me that she would be open. And then, obviously, [the
prosecutor], when he was questioning her, she changed
her mind. I think she's conflicted, which is okay. But she
did indicate the ability to weigh the circumstances and the
evidence.
“THE COURT: My recollection was that, initially when I
asked that--what I call the standard question, very sort of
academic question, not trying to bias a juror one way or the
other, she indicated that she could follow the evidence and
the law and then impose the death penalty.
“Then, under, respectfully, cross-examination by [the
prosecutor], she indicated no. I think you followed up with
some more questions. And then I followed up again with
her on what I call my standard question. She indicated that
she could not. She, in fact, changed her opinion. That's my
memory. I don't mind if you all want me to--my final call
being in my second colloquy with her, she indicated that
she could not.
“[DEFENSE COUNSEL:] And I think that that's--I would
stipulate that that's probably an accurate recollection of
what she said. But my opinion--and I guess our objection is
that she seemed as if she could--she was not completely set
in one fashion. She was able to be manipulated both ways,
which is, again, what the evidence-“THE COURT: Right.
“[DEFENSE COUNSEL:] --and the trial process is.
“THE COURT: I agree she changed, it appeared, under
the district attorney's questioning. And that was why I
specifically went back a second time. If she stood by her
initial response to me, I would not have granted it based
on the district attorney's examination of her. But if she did
seem honest and sincere in her answers to me finally.
“So, it is my judgment from all the available evidence and
all of her responses, as well as her demeanor in front of me,
that she is not able to set aside her personal opposition to the
death penalty and follow the law should it be appropriate.
So, over objection, I will grant challenge for cause. [B.C.]
is removed.”
(R. 305-08.)

On appeal, Petersen argues that, even though B.C. expressed
reservations about her ability to impose the death penalty,
those reservations “did not warrant removal as they would
not ‘prevent or substantially impair' her ability to serve.
(Petersen's brief, p. 87 (citations omitted).) Based on the
excerpts from the record quoted above, however, the circuit
court did not abuse its broad discretion by removing
prospective juror B.C. for cause. Initially, B.C. indicated
that she could not impose a sentence of death. When later
questioned about her views by the prosecution, defense, and
the court, she continued to express hesitation about whether
she could impose the death penalty even after being instructed
to do so by the court. Because there were clear indications
that B.C. would not follow the law, Petersen is not entitled to
relief on this claim.

V.16
*28 Petersen also argues that the circuit court erred when it
death-qualified the jury. (Petersen's brief, p. 97.) Specifically,
Petersen asserts that death-qualifying the jury produces
a conviction-prone jury and disproportionately excludes
minorities and women in violation of the Fifth, Sixth,
Eighth, and Fourteenth Amendments to the United States
Constitution. Petersen did not object to voir dire questions
focused on the jurors' views about capital punishment.
Accordingly, this issue is reviewed for plain error only. See
Rule 45A, Ala. R. App. P.
This Court has repeatedly rejected such arguments.
Specifically, this Court has stated:
“ ‘In Davis v. State, 718 So. 2d 1148 (Ala. Crim. App.
1995)(opinion on return to remand), aff'd, 718 So. 2d 1166
(Ala. 1998), cert. denied, 525 U.S. 1179, 119 S. Ct. 1117,
143 L.Ed. 2d 112 (1999), we stated:
“ ‘ “A jury composed exclusively of jurors who
have been death-qualified in accordance with the test
established in Wainwright v. Witt, 469 U.S. 412, 105
S. Ct. 844, 83 L.Ed. 2d 841 (1985), is considered to
be impartial even though it may be more conviction
prone than a non-death-qualified jury. Williams v. State,
710 So. 2d 1276 (Ala. Cr. App. 1996). See Lockhart v.
McCree, 476 U.S. 162, 106 S. Ct. 1758, 90 L.Ed. 2d
137 (1986). Neither the federal nor the state constitution
prohibits the state from ... death-qualifying jurors in
capital cases. Id.; Williams; Haney v. State, 603 So. 2d

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

23

Petersen v. State, --- So.3d ---- (2019)

368, 391-92 (Ala. Cr. App. 1991), aff'd, 603 So. 2d 412
(Ala. 1992), cert. denied, 507 U.S. 925, 113 S. Ct. 1297,
122 L.Ed. 2d 687 (1993).”
“ ‘718 So. 2d at 1157. There was no error in allowing the
State to death qualify the prospective jurors.’ ”
Phillips v. State, [Ms. CR-12-0197, December 18, 2015] –––
So. 3d ––––, –––– (Ala. Crim. App. 2015) (quoting Brown v.
State, 11 So. 3d 866, 891 (Ala. Crim. App. 2007) ).
The trial court did not commit any error–-plain or otherwise–in death-qualifying the prospective jurors. Accordingly,
Petersen's claim is without merit, and he is not entitled to relief
on this issue.

VI.17
Petersen argues that the circuit court erred in denying his
motion to suppress the statements he gave to law-enforcement
officers on August 10, 2012, and August 14, 2012. (Petersen's
brief, pp. 64-72.) According to Petersen, admission of his
inculpatory statements violated his Fifth Amendment right
against self-incrimination and his Sixth Amendment right to
counsel under the United States Constitution.

A.
First, Petersen argues that the circuit court erred by denying
his motion to suppress because the interviews did not cease
after he had, he says, “unequivocally” invoked his right to
counsel. Petersen argues he is entitled to relief under the
principles announced in Edwards v. Arizona, 451 U.S. 477
(1981). (Petersen's brief, pp. 65-67.)
On August 10, 2012, Petersen was arrested for the shooting
that occurred at Teasers on August 9, 2012. The same day that
he was arrested, Petersen was questioned about the shooting
by Captain William Rafferty. (C. 979.) Before he began
asking Petersen questions about the shooting, Cpt. Rafferty
informed him of his Miranda rights and asked Petersen if he
understood those rights. (C. 983-84.) After Petersen indicated
that he understood those rights, Cpt. Rafferty began asking
Petersen about what had happened at Teasers the night before.
Petersen told Cpt. Rafferty about the events that led up to the
shooting and then told him that “without thinking [he] did
something [he] can't take back because [he] was angry” and
that he was “upset [with] the way they treated [him].” (C.

991.) When Cpt. Rafferty asked Petersen to tell him exactly
what he did, Petersen said:
*29 “Probably should talk to my mom and lawyer before
I go into or know what the charges are I don't know ... I
already ... police officers when they arrested me uh said you
like killing people you[ ] think you're bad ass so I supposed
passed away and I don't know if I shot anybody else but I
didn't mean to.”
(C. 991.) Despite mentioning talking to his lawyer, however,
Petersen continued to give Cpt. Rafferty information about
what had happened.
Following a break, the interview resumed at 10:11 a.m. that
morning. Cpt. Rafferty again reminded Petersen of his right to
counsel, and Petersen indicated that he understood that right.
(C. 1021-23.) After answering a few more questions from Cpt.
Rafferty, Petersen made the following statement:
“I would like to talk to my mother and I guess I have to talk
to my lawyer too so 'cause I told you everything I know.
“....
“And I'm probably going to tell them the same thing to be
perfectly honest with you.”
(C. 1024.) Cpt. Rafferty then asked: “So at some point you
want--you're gonna want to talk to your mother and some
point you're gonna want to talk to your--any attorney?” (C.
1024.) Petersen then replied:
“Maybe, I don't know I'm not--attorney--apparently I did-I don't know--I don't know how to tell it to my mother I
just like someone to call my mother or go to her house
she's probably gonna have a mental break down. That's
understandable apparently fucking four--eight more other
people are gonna have one too all because of what I did I
hate (inaudible) and if I recall any more information I'll let
you know, if it like pops in my head like a memory lost.”
(C. 1024.) After asking Petersen a few more questions, Cpt.
Rafferty concluded the interview and confirmed with Petersen
that he knew he could have asked for an attorney but that he
chose to talk to Cpt. Rafferty without one. (C. 1027.)
On August 14, 2012, Cpt. Rafferty conducted another
interview with Petersen and, once again, advised Petersen
of his Miranda rights. (C. 1029.) During that interview, Cpt.
Rafferty began asking Petersen questions about what had
happened on the night of the shooting. At one point during
their conversation, the following exchange occurred:

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

24

Petersen v. State, --- So.3d ---- (2019)

“[PETERSEN:] So uh ... if I say something disrespectful I
honestly don't mean it (inaudible).
“[CPT. RAFFERTY:] I just want you to talk like you
regularly talk, ok.
“[PETERSEN:] And you just ask me questions -“[CPT. RAFFERTY:] Sure.
“[PETERSEN:] --I'll try telling you if I'm feeling
comfortable (inaudible).
“[CPT. RAFFERTY:] Ok, that's fine that's your right.
“[PETERSEN:] Need a lawyer (inaudible) this is my
lawyer (inaudible) phone call or anything, he wasn't any
attorney he was some dude that uh ... laid it all down for
me basically but (inaudible) of course (inaudible). Why the
fuck am I talking to you (inaudible). I'm not going to put
myself in the situation. I'm not gonna lie I'm not gonna
(inaudible) whatever.
“[CPT. RAFFERTY:] And you're here talking to me; we
brought you down here-“[PETERSEN:] (Inaudible) legitimate question I mean
there's no problem with me answering it.
“[CPT. RAFFERTY:] Right and you're talking at your own
free will, no one's forcing you to talk to us and your rights
have been read to you?
“[PETERSEN:] Yeah so this can all be played back in court
later at my dismay or something like that (inaudible) I don't
know maybe it's all (inaudible) no one's pointing a gun to
my head.”
*30 (C. 1053-54.)
On November 22, 2016, Petersen filed a pretrial motion
asking the circuit court to suppress the two statements he had
made to police on August 10, 2012, and August 14, 2012.
(C. 389.) On December 5, 2016, the court held a suppression
hearing and heard undisputed testimony from Cpt. Rafferty
that Peterson was advised of his Miranda rights, that Petersen
acknowledged that he understood those rights, and that he
waived them. Cpt. Rafferty also testified that Petersen did not,
at any point during either interview, refuse to speak with him
or make an unequivocal assertion of his right to counsel. The
following day, the court denied Petersen's motion.

In Alabama, it is well settled that “[t]his Court reviews
de novo a circuit court's decision on a motion to suppress
evidence when the facts are not in dispute.” Jones v. State, 217
So. 3d 947, 954 (Ala. Crim. App. 2016) (internal quotations
and citations omitted). In the instant case, the facts are
uncontested. The only issue is the circuit court's application
of the law to those facts. Therefore, the circuit court's ruling
is afforded no presumption of correctness.
This Court has previously stated:
“In determining whether a suspect's statement was an
unequivocal invocation of his right to counsel, we are
guided by the following principles:
“ ‘ “The applicability of the ‘ “rigid” prophylactic
rule’ of Edwards[ v. Arizona, 451 U.S. 477, 101 S.
Ct. 1880 (1981) ] requires courts to ‘determine whether
the accused actually invoked his right to counsel.’
Smith v. Illinois, [469 U.S. 91, 95, 105 S. Ct. 490,
492, 83 L.Ed. 2d 488 (1984) ] (emphasis added),
quoting Fare v. Michael C., 442 U.S. 707, 719 [99 S.
Ct. 2560, 2569, 61 L.Ed. 2d 197] (1979). To avoid
difficulties of proof and to provide guidance to officers
conducting interrogations, this is an objective inquiry.
See Connecticut v. Barrett, supra, 479 U.S. [523], at
529 [107 S. Ct. [828] at 832 (1987) ]. Invocation of
the Miranda right to counsel ‘requires, at a minimum,
some statement that can reasonably be construed to be an
expression of a desire for the assistance of an attorney.’
McNeilv. Wisconsin, 501 U.S. [171] at 178 [111 S. Ct.
[2204] at 2209 (1991).] ...
“ ‘ “... As we have observed, ‘a statement either
is such an assertion of the right to counsel or it is
not.’ Smith v. Illinois, 469 U.S., at 97–98 [105 S.
Ct., at 494] (brackets and internal quotation marks
omitted). Although a suspect need not ‘speak with the
discrimination of an Oxford don,’ post, at 476, 114
S. Ct., at 2364 (Souter, J., concurring in judgment),
he must articulate his desire to have counsel present
sufficiently clearly that a reasonable police officer in the
circumstances would understand the statement to be a
request for an attorney.” ’
“Ex parte Cothren, 705 So. 2d 861, 864 (Ala. 1997)
(quoting Davis [v. United States], 512 U.S. [452] at 458–
59 [ (1994) ]).
“Furthermore, a suspect's reference to an attorney is
equivocal if ‘ “a reasonable officer in light of the

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

25

Petersen v. State, --- So.3d ---- (2019)

circumstances would have understood only that the
suspect might be invoking the right to counsel.” ’
Cothren, 705 So. 2d at 864 (quoting Davis, 512 U.S.
at 459). ‘[T]he proper standard to be used in resolving
this issue is an objective one --whether a police officer
in the field reasonably could have concluded from the
circumstances that a suspect was not absolutely refusing
to talk without the assistance of an attorney.’ Cothren,
705 So. 2d at 866–67.
*31 “Equivocal has been defined as:
“ ‘ “ ‘Having different significations equally appropriate
or plausible; capable of double interpretation;
ambiguous,’ 5 Oxford English Dictionary 359 (2d
ed., J.A. Simpson & E.S.C. Weiner, eds., 1989); and
as: ‘Having two or more significations; capable of
more than one interpretation; of doubtful meaning;
ambiguous,’ Webster's Third International Unabridged
Dictionary 769 (1986).” ’
“Cothren, 705 So. 2d at 866 (quoting Coleman v.
Singletary, 30 F.3d 1420, 1425 (11th Cir. 1994) ).”
Thompson v. State, 97 So. 3d 800, 807–08 (Ala. Crim. App.
2011).
In the present case, Petersen's invocation of his right
to counsel in both interviews was not unequivocal. In
fact, during the suppression hearing, his defense counsel
acknowledged that it was ambiguous. (R. 404-05.)
During his first interview with Cpt. Rafferty on August 10,
2012, Petersen stated: “Probably should talk to my mom and
lawyer before I go into or know what the charges are I don't
know ....” (C. 991) (emphasis added). During the second
portion of his first interview on August 10, 2012, Petersen
stated: “I would like to talk to my mother and I guess I have
to talk to my lawyer too so ‘cause I told you everything I
know.... And I'm probably going to tell them the same thing
to be perfectly honest with you.” (C. 1024) (emphasis added).
When Cpt. Rafferty attempted to clarify whether he wanted
to talk to an attorney, Petersen said, “Maybe, I don't know I'm
not--attorney--apparently I did--I don't know--I don't know
how to tell it to my mother I just like someone to call my
mother or go to her house she's probably gonna have a mental
break down.” (C. 1024) (emphasis added). Petersen, however,
continued to tell Cpt. Rafferty about what happened the night
of the shooting and Cpt. Rafferty confirmed that he wanted to
talk without the presence of counsel. (C. 1027.)

Petersen's use of the words “probably should,” “guess” and
“maybe” could have reasonably led Cpt. Rafferty to conclude
that Petersen was not certain whether he wished to speak to
an attorney before continuing to answer questions. See Ex
parte Cothren, 705 So. 2d 861, 866 (Ala. 1997) (holding that
the phrase “I think I want to talk to an attorney” was not
an unequivocal request for an attorney because the “use of
the word ‘think’ could have led [the interrogating officer]
to conclude that [the suspect] was not certain as to what he
should do”).
Finally, during another interview with Cpt. Rafferty on
August 14, 2012, Petersen stated: “Need a lawyer (inaudible)
this is my lawyer (inaudible) phone call or anything, he wasn't
any attorney he was some dude that uh ... laid it all down
for me basically but (inaudible) of course (inaudible). Why
the fuck am I talking to you (inaudible). I'm not going to
put myself in the situation. I'm not gonna lie I'm not gonna
(inaudible) whatever.” (C. 1054) (emphasis added).
Petersen's use of the phrase “need an attorney” lacks any
indication of an absolute present desire to consult with an
attorney. Instead, that phrase indicates that Petersen might
desire counsel if he determines that he needs counsel. See
Thompson, 97 So. 3d at 808 (holding that the suspect's
statement “ ‘I might need one. If I need one,’ was at best
an ambiguous and equivocal statement regarding his desire
to assert his right to counsel”)(citing Henry v. State, 265 Ga.
732, 735–36, 462 S.E.2d 737, 743 (1995) ).
*32 Based on the objective standard set forth in Davis and
Cothren as presented in Thompson, supra, a reasonable officer
in Cpt. Rafferty's position would have understood only that
Petersen might desire to invoke his right to counsel if he
deemed that he needed counsel. It was reasonable for Cpt.
Rafferty to conclude from the circumstances that Petersen
was not refusing to talk without the assistance of an attorney.
Under these circumstances, Petersen's reference to an attorney
was, at best, an equivocal assertion regarding his right to
counsel.
The second half of our inquiry requires determining whether
Cpt. Rafferty fulfilled his duty to ask questions to clarify
Petersen's reference to an attorney before asking him
questions concerning the shooting. As demonstrated by the
portions of the record quoted above, Cpt. Rafferty reminded
Petersen of his right to have a lawyer present, but Petersen
continued to give him information about what had happened
on the night of the shooting. Cpt. Rafferty adequately fulfilled

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

26

Petersen v. State, --- So.3d ---- (2019)

his duty to clarify Petersen's invocation of his right to counsel
before proceeding with the interrogation. Thus, Petersen is
not entitled to relief on this claim.

B.
Next, Petersen argues that the statement he made to police on
August 14, 2012, should have been suppressed because, he
says, his Sixth Amendment right to counsel had attached and
he did not waive the presence of counsel. (Petersen's brief,
pp. 67-69.) He further argues that, because he was not told
that his right to counsel had already attached, he could not
possibly have validly waived a right that he did not even know
he had. Id. This claim was not presented to the circuit court
below; thus, it is reviewed for plain error. See Rule 45A, Ala.
R. App. P.
The Sixth Amendment to the United States Constitution
provides, in relevant part, that “[i]n all criminal prosecutions,
the accused shall enjoy the right ... to have the Assistance
of Counsel for his defense.” U.S. Const. amend. VI. In
addressing the right to counsel, the Alabama Supreme Court
has instructed:
“A criminal defendant has a right to counsel at any ‘critical
stage’ in the proceedings in which he or she is prosecuted
and sentenced, e.g., United States v. Wade, 388 U.S. 218,
224, 87 S. Ct. 1926, 18 L.Ed. 2d 1149 (1967), that is, at
any stage at which a substantial right of the accused may
be affected, Mempa v. Rhay, 389 U.S. 128, 134–36, 88 S.
Ct. 254, 19 L.Ed. 2d 336 (1967).”
Ex parte Pritchett, 117 So. 3d 356, 358 (Ala. 2012). In Ex
parte Cooper, 43 So. 3d 547, 549 (Ala. 2009), the Alabama
Supreme Court, applying the holding in Rothgery v. Gillespie
County, Texas, 554 U.S. 191, 128 S. Ct. 2578, 171 L.Ed.
2d 366 (2008), provided guidance as to when the Sixth
Amendment right to counsel attaches. Because “the United
States Supreme Court [has] unequivocally defined the point
at which a defendant's right to counsel attaches in criminal
proceedings” as the start of adversarial judicial proceedings,
the Court “[held] that a defendant's Sixth Amendment right to
counsel attaches at the initial appearance.” Ex parte Cooper,
43 So. 3d at 549.
At the time of his second statement to police on August
14, 2012, Petersen had already had an initial appearance.
According to the record on appeal, just hours after his first
interrogation on August 10, 2012, Petersen was charged with

three counts of capital murder and one count of attempted
murder and was then apprised of his rights, including his right
to have counsel appointed, at his initial appearance before
District Court Judge Benjamin Lewis. (C. 62, 66.) During his
initial appearance, Petersen did not request court-appointed
counsel. (C. 74-77.) After a hearing on August 15, 2012-one day after his second statement to police on August 14,
2012--counsel was appointed for Petersen. (C. 78.) Under
these circumstances and based on the legal principles quoted
above, we agree with Petersen that his Sixth Amendment right
to counsel had attached.
*33 This does not mean, however, that Petersen is entitled
to relief on this claim. In Ex parte Cooper, the Alabama
Supreme Court, in discussing the United States Supreme
Court's decision in Montejo v. Louisiana, 556 U.S. 778, 129
S. Ct. 2079, 173 L.Ed. 2d 955 (2009), stated:
“[A]fter the right to counsel has attached, ‘a defendant who
does not want to speak to the police without counsel present
need only say as much when he is first approached and
given the Miranda warnings.’ Montejo, 556 U.S. at 794,
129 S. Ct. at 2089. Thus, a court must no longer presume
a waiver of a right to counsel executed after the right to
counsel has attached is invalid. A defendant must invoke
his or her right to counsel, even if the right to counsel
has attached and counsel has been appointed, and lawenforcement officers must have ignored that invocation to
warrant consideration of the issue whether the defendant's
waiver of his or her right to counsel is invalid.”
Cooper, 43 So. 3d at 551.
As demonstrated in Part VI.A., supra, there is no evidence
indicating that Petersen made a clear assertion invoking his
right to counsel. Despite Cpt. Rafferty's reiterations that he
had the right to the assistance of counsel, Petersen continued
to divulge information about what had happened on the night
of the shooting and at no point indicated that he refused to
speak with law-enforcement officers on August 14, 2012,
without having his counsel there. Thus, Petersen is not
entitled to relief on this claim.

C.
Petersen also argues that he did not knowingly and voluntarily
waive his Miranda rights when he was questioned by Cpt.
Rafferty for the first time on August 10, 2012. (Petersen's
brief, p. 69.) Specifically, Petersen argues that merely reading

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

27

Petersen v. State, --- So.3d ---- (2019)

a paragraph from the Miranda waiver form for Cpt. Rafferty
while he was intoxicated, “shackled,” and “half-dressed” does
not constitute a valid waiver of his Miranda rights. (Petersen's
brief, p. 70.)18
During the hearing on Petersen's motion to suppress, Cpt.
Rafferty testified about what occurred during his August 10,
2012, interview with Petersen. According to Cpt. Rafferty,
after he got some basic background information from
Petersen, he advised him of his Miranda rights. (R. 330.)
Specifically, Cpt. Rafferty testified that Petersen understood
his rights and that he did not threaten Petersen or promise
him anything in exchange for his statements. (R. 330.)
That testimony is supported by the transcript from that
interview, which was included in the record on appeal.
The transcript indicates that, before Cpt. Rafferty began
asking Petersen questions about the shooting, the following
exchange occurred:
*34 “[CPT. RAFFERTY:] Ok. Before I ask you any
questions you must understand your rights. You have the
right to remain silent. Anything you say can be used against
you in a court of law. You have the right to talk to an
attorney and have an attorney present with you while being
questioned. If you cannot afford to hire an attorney one will
be appointed to represent you before any questioning if you
wish, you can decide at any time to exercise these rights;
not answer any questions [or] make any statements. You
understand what I've ex--your rights as I've explained to
you?
“[PETERSEN:] Yes, [Captain].
“[CPT. RAFFERTY:] Ok ... and uh today's date is uh
August 10th, 2012 and the time's 9:18 a.m. Ok. Can you
read this for me out loud?
“[PETERSEN:] I have read or been read this statement of
my rights and understand why my rights --what my rights
are. I'm willing to answer questions. No promises or threats
have been used against me.
“[CPT. RAFFERTY:] Ok, you understand what your rights
are?
“[PETERSEN:] Yes, sir.”
(C. 983-84.) Following that exchange, Cpt. Rafferty began
asking Petersen about what had happened the night before,
and Petersen cooperated. (C. 984-1021.)

Following a break, the interview resumed at 10:11 a.m. that
morning, and the following exchange occurred:
“[CPT. RAFFERTY:] Ok Ryan, uh ... we just got back
from taking a break. Uh time is 10:11 a.m. Want you to
understand that you still have the right to your attorney,
you still have the right to talk to your attorney before you
answer any questions and you--you can stop answering
anytime. Your same rights that I read to you a few minutes
ago, ok. The same rights that I read to you at 9:18 a.m.; and
I'm going to put the a.m. on there because I didn't. Ok Ryan,
uh, now the statement that you give me a little bit ago was
of your own free will is that correct? I didn't force you to
give me a statement?
“[PETERSEN:] No, you did not.
“[CPT. RAFFERTY:] I didn't twist your arm, anything like
that. You [gave] me the statement-“[PETERSEN:] No sir you didn't (inaudible).
“[CPT. RAFFERTY:] --of your own free will.
“[PETERSEN:] Yes.
“[CPT. RAFFERTY:] You made also, also made a
statement that uh ... you might want to talk to your mother
at some point and you also made a statement that you might
need to talk to your attorney, but you kept talking didn't
you; you kept talking to me didn't you? Look at me Ryan.
“[PETERSEN:] Yeah.
“[CPT. RAFFERTY:] Ok, I never forced you to talk to me
did I?
“[PETERSEN:] Nope (inaudible).
“[CPT. RAFFERTY:] Ok, all right and you [gave] me that
statement of your own free will and you understand what
your rights were.
“[PETERSEN:] I ... yeah ... I get ... I get that-“[CPT. RAFFERTY:] Ok.
“[PETERSEN:] I understand that.
“[CPT. RAFFERTY:] All right, I just wanted-wanted to
clarify that you understood what your rights were and at
any time that you say I want an attorney, I don't want to talk

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

28

Petersen v. State, --- So.3d ---- (2019)

no more; the interview's over until you talk to an attorney,
you understand that?
“[PETERSEN:] Ok--ok yes.
“[CPT. RAFFERTY:] You understood that?
“[PETERSEN:] I understood that yes.”
(C. 1021-23.) Petersen then continued to answer Cpt.
Rafferty's questions about what had happened at Teasers. (C.
1023-28.) After asking Petersen a few more questions, Cpt.
Rafferty concluded the interview and confirmed with Petersen
that he knew he could have asked for an attorney but that he
chose to talk to Cpt. Rafferty without one being present. (C.
1027.)
In addressing a similar claim, this Court has recently stated:
“In evaluating a circuit court's ruling admitting into
evidence a defendant's statement to law enforcement, we
apply the standard articulated by the Alabama Supreme
Court in McLeod v. State, 718 So. 2d 727 (Ala. 1998):
*35 “ ‘For a confession, or an inculpatory statement, to
be admissible, the State must prove by a preponderance
of the evidence that it was voluntary. Ex parte
Singleton, 465 So. 2d 443, 445 (Ala. 1985). The initial
determination is made by the trial court. Singleton, 465
So. 2d at 445. The trial court's determination will not be
disturbed unless it is contrary to the great weight of the
evidence or is manifestly wrong. Marschke v. State, 450
So. 2d 177 (Ala. Crim. App. 1984) ....
“ ‘The Fifth Amendment to the Constitution of the
United States provides in pertinent part: “No person ...
shall be compelled in any criminal case to be a witness
against himself ....” Similarly, § 6 of the Alabama
Constitution of 1901 provides that “in all criminal
prosecutions, the accused ... shall not be compelled
to give evidence against himself.” These constitutional
guarantees ensure that no involuntary confession, or
other inculpatory statement, is admissible to convict the
accused of a criminal offense. Culombe v. Connecticut,
367 U.S. 568, 81 S. Ct. 1860, 6 L.Ed. 2d 1037 (1961);
Hubbard v. State, 283 Ala. 183, 215 So. 2d 261 (1968).
“ ‘It has long been held that a confession, or any
inculpatory statement, is involuntary if it is either
coerced through force or induced through an express
or implied promise of leniency. Bram v. United States,
168 U.S. 532, 18 S. Ct. 183, 42 L.Ed. 568 (1897). In

Culombe, 367 U.S. at 602, 81 S. Ct. at 1879, the Supreme
Court of the United States explained that for a confession
to be voluntary, the defendant must have the capacity
to exercise his own free will in choosing to confess. If
his capacity has been impaired, that is, “if his will has
been overborne” by coercion or inducement, then the
confession is involuntary and cannot be admitted into
evidence. Id. (emphasis added).
“ ‘The Supreme Court has stated that when a court is
determining whether a confession was given voluntarily
it must consider the “totality of the circumstances.”
Boulden v. Holman, 394 U.S. 478, 480, 89 S. Ct.
1138, 1139–40, 22 L.Ed. 2d 433 (1969); Greenwald v.
Wisconsin, 390 U.S. 519, 521, 88 S. Ct. 1152, 1154,
20 L.Ed. 2d 77 (1968); see Beecher v. Alabama, 389
U.S. 35, 38, 88 S. Ct. 189, 191, 19 L.Ed. 2d 35
(1967). Alabama courts have also held that a court must
consider the totality of the circumstances to determine
if the defendant's will was overborne by coercion or
inducement. See Ex parte Matthews, 601 So. 2d 52, 54
(Ala.) (stating that a court must analyze a confession
by looking at the totality of the circumstances), cert.
denied, 505 U.S. 1206, 112 S. Ct. 2996, 120 L.Ed.
2d 872 (1992); Jackson v. State, 562 So. 2d 1373,
1380 (Ala. Crim. App. 1990) (stating that, to admit a
confession, a court must determine that the defendant's
will was not overborne by pressures and circumstances
swirling around him); Eakes v. State, 387 So. 2d 855,
859 (Ala. Crim. App. 1978) (stating that the true test
to be employed is “whether the defendant's will was
overborne at the time he confessed”) (emphasis added).’
“718 So. 2d at 729 (footnote omitted).”
Callen v. State, [Ms. CR-13-0099, Apr. 28, 2017] ––– So. 3d
––––, –––– (Ala. Crim. App. 2017).
This Court has carefully examined the transcript of Petersen's
August 10, 2012, statement to police. There is no evidence
indicating that Petersen was induced to confess to what he
did on August 9, 2012, or that he was threatened. In fact,
it appears that, even after being told that he did not have to
talk with Cpt. Rafferty and that he could invoke his right to
counsel, he continued to speak with Cpt. Rafferty knowing
that he could stop the interview at any time. Petersen's
conduct showed a “willingness and a desire for a generalized
discussion about the investigation.” Ex parte Williams, 31 So.
3d 670, 676 (Ala. 2009). Finally, although Petersen contends
that he could not have validly waived his Miranda rights

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

29

Petersen v. State, --- So.3d ---- (2019)

because he was shackled and, he says, might have still been
intoxicated, this Court has recently stated:

28(a)(10) has been deemed a waiver of the issue presented.”
C.B.D. v. State, 90 So. 3d 227, 239 (Ala. Crim. App. 2011).

*36 “ ‘The fact that the appellant was handcuffed, was
not given anything to eat or drink, and did not make a
telephone call, while factors to consider in the totality of
the circumstances, did not render the appellant's confession
involuntary.’ Battle v. State, 645 So. 2d 344, 345 (Ala.
Crim. App. 1994).... ‘ “The fact that a defendant may suffer
from a mental impairment or low intelligence will not,
without other evidence, render a confession involuntary.”
’ Thompson v. State, 153 So. 3d 84, 110 (Ala. Crim. App.
2012), quoting Baker v. State, 557 So. 2d 851, 853 (Ala.
Crim. App. 1990). ‘The Alabama courts have recognized
that subnormal tendencies of the accused are but one factor
to review in the totality of the circumstances surrounding
the confession.’ Harkey v. State, 549 So. 2d 631, 633 (Ala.
Crim. App. 1989).”
Callen, ––– So. 3d at ––––. According to Cpt. Rafferty,
Petersen was handcuffed because he was suspected of
“killing three people by shooting them and injuring a fourth
person.” (R. 2150.) There is also no evidence in the record
on appeal suggesting that Petersen was so intoxicated that he
could not understand the meaning of his words or his rights.
Based on the foregoing, Petersen is not entitled to relief on
this claim.

Petersen's argument here is nothing more than a bare
allegation. He fails to cite to any legal authority supporting
his claim, nor does he provide any meaningful analysis
demonstrating that he is entitled to relief.
Regardless, Petersen is not entitled to relief on this claim.
Although he contends that the admitted statements were
prejudicial, the statements were relevant to show his
culpability for killing the victims in this case. See Rule 401,
Ala. R. Evid. (“ ‘Relevant evidence’ means evidence having
any tendency to make the existence of any fact that is of
consequence to the determination of the action more probable
or less probable than it would be without the evidence.”). The
statements were not unduly prejudicial because the probative
value of the statements was not “substantially outweighed”
by any prejudice, see Rule 403, Ala. R. Evid. (“Although
relevant, evidence may be excluded if its probative value is
substantially outweighed by the danger of unfair prejudice,
confusion of the issues, or misleading the jury, or by
considerations of undue delay, waste of time, or needless
presentation of cumulative evidence.”).

Guilt-Phase Issues
D.
Finally, Petersen argues that the circuit court's admission into
evidence of his statements to Cpt. Rafferty on August 10,
2012, and August 14, 2012, prejudiced him. (Petersen's brief,
pp. 70-72.) Specifically, he contends that, after the court ruled
that those statements were admissible, the State used them to
undermine his credibility and misrepresent the nature of his
statements to the jury. Id. Petersen contends that, as a result,
his constitutional rights were violated and his convictions and
sentences are due to be reversed.
This claim fails to satisfy Rule 28(a)(10), Ala. R. App. P.,
which requires that an argument contain “the contentions of
the appellant/petitioner with respect to the issues presented,
and the reasons therefor, with citations to the cases, statutes,
other authorities, and parts of the record relied on.” “[W]e
are not required to consider matters on appeal unless they
are presented and argued in brief with citations to relevant
legal authority.” Zasadil v. City of Montgomery, 594 So. 2d
231, 231 (Ala. Crim. App. 1991). Failure to comply with Rule

VII.19
*37 Next, Petersen contends that the circuit court erred
in failing to exclude certain character evidence under Rule
404(b), Ala. R. Evid. (Petersen's brief, p. 58.) Specifically,
Petersen contends that the circuit court “erroneously
permitted the State to introduce allegations of a prior
uncharged attempted murder as well as fifteen notebooks
containing a large volume of prejudicial and inflammatory
drawings, lyrics, notes, and other personal writings that were
irrelevant to any issue in dispute.” Id. According to Petersen,
the “State's reliance on this illegal evidence to support a
conviction for capital murder, without any limiting instruction
from the trial court, requires reversal.” Id. Petersen did not
raise these arguments in the circuit court below; thus, we
review them only for plain error. See Rule 45A, Ala. R. App.
P.
It is well settled that

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

30

Petersen v. State, --- So.3d ---- (2019)

“ ‘[t]he question of admissibility of evidence is generally
left to the discretion of the trial court, and the trial court's
determination on that question will not be reversed except
upon a clear showing of abuse of discretion.’ Ex parte
Loggins, 771 So. 2d 1093, 1103 (Ala. 2000). ‘A trial court
has wide discretion in determining whether to exclude
or to admit evidence, and the trial court's determination
on the admissibility of evidence will not be reversed in
the absence of an abuse of that discretion.’ Woodward
v. State, 123 So. 3d 989, 1014 (Ala. Crim. App. 2011).
Additionally, ‘[t]rial courts are vested with considerable
discretion in determining whether evidence is relevant, and
such a determination will not be reversed absent plain error
or an abuse of discretion.’ Hayes v. State, 717 So. 2d 30,
36 (Ala. Crim. App. 1997).”
Floyd, ––– So. 3d at ––––. Rule 404(b), Ala. R. Evid., states:
“Evidence of other crimes, wrongs, or acts is not admissible
to prove the character of a person in order to show action
in conformity therewith. It may, however, be admissible
for other purposes such as proof of motive, opportunity,
intent, preparation, plan, knowledge, identity, or absence
of mistake or accident, provided that upon request by the
accused, the prosecution in a criminal case shall provide
reasonable notice in advance of trial, or during trial if the
court excuses pretrial notice on good cause shown, of the
general nature of any such evidence it intends to introduce
at trial.”
In the present case, Petersen challenges a number of alleged
instances in which, he says, the State improperly used
evidence of prior bad acts in violation of Rule 404(b), Ala.
R. Evid.
First, he challenges the State's reference during its guiltphase opening statement to an alleged physical altercation
between Petersen and other people at a local bar that ended
with Petersen being arrested for driving under the influence
(“DUI”) after he had attempted to run the other people over
with his truck and then crashed into the bar. (Petersen's brief,
pp. 58-59.) Petersen also argues that the State attempted
to elicit evidence about this incident on cross-examination
of defense witness Patricia Huckabee. (Petersen's brief, p.
59.) Huckabee stated, however, that she did not have any
knowledge of that incident. (R. 3396.)
The State's reference to that incident in its opening statement
and its brief question to Huckabee did not constitute plain
error, particularly in light of Petersen's decision to introduce

evidence during his case-in-chief indicating that he had been
previously arrested for DUI. Additionally, there were repeated
references by Petersen to his prior criminal history, including
his arrest for DUI. (R. 3213, 3216, 3237, 3317.) Thus,
Petersen is not entitled to relief on that claim.
Next, Petersen contends that the State was erroneously
permitted to admit, as State's Exhibit 132, Petersen's journals
and various writings into evidence. According to Petersen,
those journals and writings contained references to prior
physical altercations Petersen had been involved in, including
one incident at a local bar during which he brandished a box
cutter; a list of drugs Petersen had tried; a statement Petersen
had written about a school shooting being “too small scale;”
and “prejudicial” song lyrics and drawings. (Petersen's brief,
p. 62.) Petersen notes that, during its closing statement and
rebuttal argument, the State told the jury to consider those
journals and even referenced them during the penalty phase
of his capital-murder trial. (Petersen's brief, pp. 62-63.)
*38 The journals and writings were admitted collectively,
without objection, as State's Exhibit 132 during Cpt.
Rafferty's testimony during the prosecution's rebuttal. The
contents of those materials were first referenced by Petersen
during the testimony of Dr. Mark Cunningham. (R. 3719.)
Once the journals and writings were referenced by Petersen,
the State was entitled to reference them, see, e.g., Scott v.
State, 163 So. 3d 389, 439 (Ala. Crim. App. 2012), and they
were offered in the State's rebuttal presumably in part to show
that they were seized as a part of Cpt. Rafferty's investigation.
Their admission did not constitute plain error.

VIII.20
Petersen contends that the circuit court erred when it denied
his request to introduce, as substantive evidence of Petersen's
intoxication, assertions from a civil complaint filed by Scotty
Russell about Petersen's level of intoxication on the night of
the shooting. (Petersen's brief, pp. 72-75.) He further contends
that the circuit court's instruction limiting the purpose for
which the jury could consider those statements was erroneous.
Id. This argument was not raised in the circuit court below
and, thus, will be reviewed for plain error. See Rule 45A, Ala.
R. App. P.
The circumstances underlying this issue are as follows.
During direct examination, Russell testified that, although
Petersen appeared “pissed off” on the night of the shooting,

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

31

Petersen v. State, --- So.3d ---- (2019)

he did not appear drunk or intoxicated. (R. 1727, 1763.) On
cross-examination, the defense sought to impeach Russell's
testimony that Petersen was not intoxicated or drunk on the
night of the shooting by offering allegations made by Russell
in a civil complaint he filed against Teasers. (R. 1763, 1766,
1785, 1788.) Russell's primary contention in that lawsuit was
that Teasers had given liquor to Petersen, whom he described
in his complaint as being a “visibly intoxicated person.” (C.
1972; R. 1777-78.)
Over the State's objection, and after an extensive discussion,
the circuit court permitted the defense to ask Russell about
paragraphs 16, 17, and 27 in his complaint. (R. 1784-85,
1787-88.) The defense also sought to question Russell about
paragraph 18 of the complaint, but the State objected,
thereby prompting the court to instruct the jury that it could
consider Russell's testimony about the complaint for the
limited purpose of weighing the credibility of his testimony.
(R. 1785-86.) Specifically, the court gave the following
instruction:
“THE COURT: Disregard the last recitation of paragraph
18. Let me be clear. This is just being admitted for a limited
purpose.... It's just offered for these statements that were
made, allegedly, that just happen to be in the context of a
lawsuit. Okay?
“But, don't concern yourself with any other respect of it,
other than the law does permit that when a witness has
testified and they have filed a lawsuit, you can consider
that in judging their credibility as a witness, whether they
may have some sort of financial advantage or disadvantage
as part of their testimony. That can be considered on the
credibility issue. But, otherwise, don't consider any of this
for any other purpose than those. Okay? Go ahead.”
(R. 1786.)
Following this instruction, Petersen's defense counsel
attempted to ask Russell to confirm the allegations in the
complaint that Petersen was “visibly intoxicated” and to
establish whether Russell had recovered in that civil lawsuit
because of that allegation:
“[DEFENSE COUNSEL:] [Please read paragraph] 27.
“[RUSSELL:] ‘Scotty B. Russell, on August 29th’ --I
mean, ‘August 9th, 2012, was injured by Ryan Clark
Petersen, who shot him after defendants furnished spiritous
liquors to Petersen, a visibly intoxicated person, contrary
to the provisions of law.’

*39 “[DEFENSE COUNSEL:] Thank you. If you can,
again, when you say--when it says what you just said, ‘The
defendants furnished spiritous liquors to Petersen, a visibly
intoxicated person, contrary to provisions of law,’ who are
the defendants?
“[RUSSELL:] I did not make--I did not say that-“[DEFENSE COUNSEL:] I'm just asking you a question.
Scotty B. Russell is plaintiff. The people you sued-“[RUSSELL:] That's me.
“[DEFENSE COUNSEL:] --are the defendants? Right?
“[RUSSELL:] Correct.
“[DEFENSE COUNSEL:] Who did you sue?
“[RUSSELL:] Paul A. Eubanks, an individual, Teasers
Rock Hard Cabaret, Teasers Show Club.
“....
“[DEFENSE COUNSEL:] [Y]ou testified that--when I
asked you, you testified that Ryan, to you, didn't seem
intoxicated. Is that what you said?
“[RUSSELL:] He wasn't when he come in the door with
the gun. No.
“[DEFENSE COUNSEL:] He didn't seem intoxicated?
Right?
“[RUSSELL:] (Witness nodding head in affirmative.)
“[DEFENSE COUNSEL:] But, isn't it true that you told
your lawyer that he was intoxicated, visibly intoxicated,
and that's why the club's responsible and you sued them?
Correct?
“[RUSSELL:] No. I said there was drinks on his table.
That's what I had told-“[DEFENSE COUNSEL:] You told a lawyer there were
drinks on his table? Right?
“[RUSSELL:] Yes. That is right.
“[DEFENSE COUNSEL:] That's all you told him?
“[RUSSELL:] Well, as far as being drunk, I didn't know if
he was drunk or--I mean, I don't know what he drank.

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

32

Petersen v. State, --- So.3d ---- (2019)

“[DEFENSE COUNSEL:] Well, this is your statement.
These are--this is your statement of facts. And I don't-listen, you've been through a lot. I'm not trying to--I'm not
trying to I'm not trying to, you know.
“[RUSSELL:] I mean, I know what-“[DEFENSE COUNSEL:] But I just want-“[RUSSELL:] When somebody's drunk, they can't hardly
walk, they're stumbling, they're wobbling around, they've
got slurred speech, they don't talk normal, they-“[DEFENSE COUNSEL:] But you understand that the
statement of facts that you said the basis of your lawsuit
is that he was visibly intoxicated and they continued
to serve him. That's what this is. You understand that?
That's what you're saying. You're saying that's what makes
them responsible. That's what you're saying in here. You
understand that?

because they could go back and say, well, certainly, he's
wanting to testify a certain way because he wants to not so
much get justice in the criminal case, but get a monetary
award in a civil case. But, if there's already been --the same
would be true, I tend to think if, say, it went to trial and
the jury ruled in the defendant's favor. How would that be
relevant? I don't think this jury could take that as meaning
that somehow your client is now not guilty of these events
or that those events are true.
*40 “But I can't--off the top of my head--I try and be
careful because of the type of case we're in. But I'm trying
to think of how it could be relevant to impeach his or affect
his credibility, how the jury could consider it in a proper
way.
“[DEFENSE COUNSEL:] I guess the only way--and I'm
just saying that language is the language that makes the
club liable. It's the only language that really makes the club
liable.

“[RUSSELL:] Those aren't my exact words. No.

“THE COURT: But, see, we can't try the civil case.

“[DEFENSE COUNSEL:] Not your exact words. But your
lawyer used those words, didn't he?

“[DEFENSE COUNSEL:] I understand.

“[RUSSELL:] Apparently.”
(R. 1787-88, 1789-91.)
The State objected and the following exchange occurred:
“THE COURT: [The complaint] can't be offered in the
theory of his testimony is structured a certain way to benefit
from the lawsuit because the lawsuit is over. If it was
pending, I mean, that would be the only relevance for the
jury, unless there's some other relevance you can think of.

“THE COURT: That's what we would end up having to do.
And then the jury is having to decide whether the club was
guilty or not under that. Which, that's not the whole purpose
that we're here for. To me, I still view it as it was simply an
out-of-court statement just as though you call the nurse at
the hospital who he purportedly made that statement to.
“....
“I'll sustain. But, if you can come up with a different theory,
I'll reconsider it. But, at this point--

“[DEFENSE COUNSEL:] Well, I mean, if he was paid, it
tends to substantiate the claim.

“[DEFENSE COUNSEL:] Okay. One more thing before I
start back. Your Honor, we anticipate moving to admit it,
the lawsuit.

“THE COURT: I know. But, as he sits here as a witness,
how does that affect his credibility?

“[PROSECUTOR:] No. They can't get it admitted.

“[DEFENSE COUNSEL:] I think it shows that he's not
being truthful in his denial.
“THE COURT: He wouldn't have to give the money back.
“[DEFENSE COUNSEL:] No. I'm just saying-“THE COURT: But that's the theory when, like, say, the
lawsuit was still pending while the jury could explore it,

“[DEFENSE COUNSEL:] Judge, we just need an objection
on the record and a ruling.
“THE COURT: Unless you can give me a theory. We can
go down that road all day of just both sides offering things
without making a legal argument as to why. And I can't
come up with a legal reason.
“[DEFENSE COUNSEL:] It impeaches his complete
credibility, because he made one statement in open

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

33

Petersen v. State, --- So.3d ---- (2019)

court and he's made other statements in various legal
proceedings.
“THE COURT: And all that's admitted to the jury.
“[DEFENSE COUNSEL:] And we would ask the lawsuit
be admitted.
“THE COURT: Even more than I anticipated being
admitted. But that's fine.
“[DEFENSE COUNSEL:] We would ask the lawsuit
be admitted into evidence as an exhibit to support our
testimony.
“THE COURT: The district attorney has not attacked the
fact that the lawsuit was filed and what's been reported is,
in fact, what's in the complaint. So, I'll, I guess, sustain any
objection to the actual lawsuit itself being admitted.”
(R. 1794-98.)
Defense counsel then continued with his cross-examination
of Russell and asked him if Petersen was visibly intoxicated
on the night of the shooting as alleged in his civil complaint.
(R. 1799.) Contrary to the allegation in his complaint, Russell
testified that Petersen “did not appear to be intoxicated when
he came in with his gun.” (R. 1800.)
Petersen argues on appeal that Russell's civil complaint
should have been admitted as substantive evidence of his
intoxication on the night of the shooting and for the purpose
of impeaching Russell. (Petersen's brief, pp. 74-75.) We
disagree.
Generally, a witness's prior inconsistent statement is
admissible to impeach the witness's credibility but is not
admissible as substantive evidence of the matter asserted.
M.L.H. v. State, 99 So. 3d 911, 913 (Ala. 2011). Rule 613(b),
Ala. R. Evid., provides, in pertinent part:
“Extrinsic evidence of a prior inconsistent statement by
a witness is not admissible unless the witness has been
confronted with the circumstances of the statement with
sufficient particularity to enable the witness to identify the
statement and is afforded an opportunity to admit or deny
having made it.”
*41 As demonstrated by the excerpts of the record quoted
above, Petersen's defense counsel questioned Russell about
Petersen's level of intoxication on the night of the shootings.
When Russell stated that he did not think that Petersen was
intoxicated, Petersen's defense counsel attempted to impeach

him by confronting him with the allegations in Russell's
civil complaint he had filed against Teasers and its owners.
Although Russell acknowledged that he had filed the lawsuit,
he emphatically stated that he did not tell his lawyer that he
thought Petersen was “visibly intoxicated” that night. Under
those circumstances, that statement was properly admitted
for the purposes of evaluating his credibility. It would not,
however, have been proper for the court to admit it as
substantive evidence of the matter asserted. Thus, Petersen is
not entitled to relief on this claim.

IX.21
Petersen argues that the circuit court erroneously permitted
the State to elicit prejudicial guilt-phase victim-impact
testimony. (Petersen's brief, pp. 79-82.) Specifically, he
argues that the testimony given by Lorraine Peacock,
Krista Sellers, Scotty Russell, James Williams, and William
Gaines was used to “inflame the passions of the jury and
urge [it] to convict based on impermissible victim impact
testimony.” (Petersen's brief, p. 81.) He also challenges
comments made during rebuttal closing argument that
allegedly “contrast[ed] the impermissible victim impact
testimony with” Petersen. (Petersen's brief, p. 81.) According
to Petersen, the court's decision to permit the State to
introduce allegedly improper victim-impact evidence violated
his Fifth, Sixth, Eighth, and Fourteenth Amendment rights
and his rights under the Alabama Constitution. (Petersen's
brief, p. 82.)
Petersen did not object to this testimony in the guilt phase
of his capital-murder trial. Thus, we are limited to evaluating
this issue under the plain-error standard found in Rule 45A,
Ala. R. App. P. See Turner v. State, 924 So. 2d 737, 767 (Ala.
Crim. App. 2002).
On appeal, Petersen first attacks two portions of testimony
given by eyewitness Lorraine Peacock. (Petersen's brief,
p. 80.) First, he argues that the following excerpt from
Peacock's testimony constituted impermissible victim-impact
testimony:
“[PROSECUTOR:] Tiffany Grissett, did she have
children?
“[PEACOCK:] I found out she had a son.
“[PROSECUTOR:] Do you see him today?

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

34

Petersen v. State, --- So.3d ---- (2019)

“[PEACOCK:] I think I see him. He's grown a little bit.”
(R. 1596.) According to Petersen, whether Grissett had any
children is “immaterial to any issue at trial and highly
inflammatory.” (Petersen's brief, p. 80.)
Petersen also argues that the following testimony given
by Peacock concerning the statements she made to victim
Cameron Eubanks's father, Paul, after Eubanks was shot
constituted inadmissible victim-impact testimony:

effect the crime has had on Grissett or her family or Eubanks
and his family. Thus, Petersen is not entitled to relief with
regard to Peacock's testimony.
*42 In addition to the above testimony given by Peacock,
Petersen argues that the following testimony given by Krista
Sellers concerning the fact that victim Tiffany Grissett was
engaged to a military firefighter and was wearing his shirt
when she was shot, also constituted impermissible victimimpact testimony:

“[PROSECUTOR:] Now, once again, if I could, did you
see what [Eubanks's] father continued to do, if anything, 'til
the paramedics and law enforcement-what did he do with
his own son?

“[PROSECUTOR:] Now, can you tell us, when you saw
her there, was she dead?

“[PEACOCK:] He held him.

“[PROSECUTOR:] Could you tell if she had been shot?

“[PROSECUTOR:] Now, tell me, if you could--you
mentioned [Eubanks's] head was in a propped-up position.
When you moved him, like you said, to get him in position,
did you see then what was on the wall, or when the body
was moved, whether there was anything on the floor?

“[SELLERS:] Yeah.

“[PEACOCK:] Yes. There-“[PROSECUTOR:] What was it?
“[PEACOCK:] Blood and brain matter. And that's when I
told him that I couldn't help him.
“[PROSECUTOR:] What did you tell his father that he
needed to do? What were the words?
“[PEACOCK:] Hold him.
“[PROSECUTOR:] Pardon me?
“[PEACOCK:] ‘Hold your baby.’
“[PROSECUTOR:] And did you see Mr. Eubanks take and
hold his son?
“[PEACOCK:] Yes, I did.”
(R. 1519-20.)
We disagree with Petersen's claim that the testimony
quoted above constituted improper victim-impact testimony.
Generally, “victim-impact statements typically ‘describe
[only] the effect of the crime on the victim and his family’ and,
although relevant to the penalty-phase, are inadmissible in the
guilt phase.” Wilson v. State, 142 So. 3d 732, 784 (Ala. Crim.
App. 2010). None of the testimony quoted above describes the

“[SELLERS:] Yeah.

“[PROSECUTOR:] What did you see around her? Blood?
“[SELLERS:] Yeah.
“[PROSECUTOR:] And do you remember--you described
her clothing. Was she wearing a white type blouse, also?
“[SELLERS:] Yeah. It was Mark's military shirt.
“[PROSECUTOR:] It was what?
“[SELLERS:] Her fiancé, a military firefighter. And she
used to wear his shirt to the club with a little fedora. It was
one of her outfits.”
(R. 4077.) Once again, this testimony does not describe the
impact the crime had on Grissett or her family and, thus, does
not constitute victim-impact testimony. Thus, Petersen is not
entitled to relief here.
Next, Petersen attacks the testimony given by victim Scotty
Russell in which Russell describes the surgeries and physical
therapy he has had to endure since the shooting as well as
the counseling and other mental-health services he has had to
seek in order to deal with the trauma from the incident:
“[PROSECUTOR:] All right. Now, tell the ladies and
gentlemen of the jury, if I could--and I know it's been
a while. But, when your wife was there caring for you,
and you were sedated, once again, was that statement ever
given to you after you got out of the hospital to see if it was
100 percent accurate and you went back over it after your
arm surgery, or, no, it was written up and I see it? You know.

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

35

Petersen v. State, --- So.3d ---- (2019)

“[RUSSELL:] I've seen it a couple of times since.
“[PROSECUTOR:] Now, can you tell the ladies and
gentlemen of the jury, if I could--you were in the hospital
three days?
“[RUSSELL:] Yes.
“[PROSECUTOR:] And then, were you discharged and
went home and everything was fine? That was the end of it?
“[RUSSELL:] No. Lord, no.
“[PROSECUTOR:] What happened after that?
“[RUSSELL:] I have went and seen psychiatrists. I have
went and seen multiple physical therapists. I've had to see
a surgeon. I had over 130 stitches in my arm that had to
come out.
“[PROSECUTOR:] Tell me, if you could, please, sir. Until
this night when you went, had you ever been shot?
“[RUSSELL:] No.
“[PROSECUTOR:] Had you ever been where other human
beings were shot?
“[RUSSELL:] No.
“[PROSECUTOR:] And did it change you from that night?
“[RUSSELL:] Yes.
“[PROSECUTOR:] And would you tell the ladies and
gentlemen of the jury, if I could, on your therapy, did you
have to continue to go to rehab for therapy for your arm?
“[RUSSELL:] Yes, I did. I had to go for a long period. I
had five months of rehab on my arm.
“[PROSECUTOR:] And, today, is your arm strength like it
was before that?
“[RUSSELL:] No.”
(R. 1744-45.)
“[PROSECUTOR:] What about your emotions?
“[RUSSELL:] They was all over the place. I didn't know if
I was going to see my family again. I didn't know--I didn't
know to the extent--how bad my arm was going to be. I
didn't know if I was going to be able to provide a living

for my family. I didn't--there was all kind of things going
through my head.”
(R. 1760-61.)
Although victim-impact testimony is generally inadmissible
during the guilt phase, it is well settled that
*43 “such statements ‘are admissible during the guilt
phase of a criminal trial ... if the statements are relevant
to a material issue of the guilt phase.’ Ex parte Crymes,
630 So. 2d 125, 126 (Ala. 1993); see also Gissendanner v.
State, 949 So. 2d 956, 965 (Ala. Crim. App. 2006) (holding
that victim-impact type evidence is admissible in the guilt
phase if it is relevant to guilt-phase issues). Rule 401, Ala.
R. Evid., provides: ‘ “Relevant evidence” [is any] evidence
having any tendency to make the existence of any fact
that is of consequence to the determination of the action
more probable or less probable than it would be without the
evidence.’ ”
Wilson, 142 So. 3d at 784. Here, Russell's testimony was
evidence of the extent of his injuries and, thus, was relevant
to a material issue of the guilt phase. Petersen is not entitled
to relief here.
In addition to the arguments made above, Petersen
also attacks what he says was the State's repeated
elicitation of “irrelevant, inflammatory” testimony from other
eyewitnesses about the impact the shooting has had on their
lives. (Petersen's brief, p. 81.) Petersen's argument here fails
to comply with the requirements of Rule 28(a)(10), Ala. R.
App. P.
In its entirety, Petersen's argument is as follows:
“Throughout its case-in-chief the State repeatedly elicited
irrelevant, inflammatory testimony from eyewitnesses,
including James Williams, Lorraine Peacock, William
Gaines, and Krista Sellers, about the lasting trauma of
having been present for the shooting. (R. 1416, 1427,
1340-41, 1661-62, 1865, 4060-61.) See Ala. R. Evid. 401,
403.”
(Petersen's brief, p. 81.) Rule 28(a)(10), Ala. R. App. P.,
requires that an argument contain “the contentions of the
appellant/petitioner with respect to the issues presented, and
the reasons therefor, with citations to the cases, statutes, other
authorities, and parts of the record relied on.” “[W]e are
not required to consider matters on appeal unless they are
presented and argued in brief with citations to relevant legal
authority.” Zasadil v. City of Montgomery, 594 So. 2d 231,
231 (Ala. Crim. App. 1991). Failure to comply with Rule

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

36

Petersen v. State, --- So.3d ---- (2019)

28(a)(10) has been deemed a waiver of the issue presented.
C.B.D. v. State, 90 So. 3d 227, 239 (Ala. Crim. App. 2011).
Petersen's argument here is nothing more than a bare
allegation. Although he cites portions of the record he claims
constitute inadmissible victim-impact testimony, he provides
no citations to any legal authority supporting his contention
or any analysis demonstrating why he is entitled to relief on
this claim. Because Petersen's argument here does not comply
with Rule 28, Ala. R. App. P., it is deemed waived.
Even if Petersen had complied with the requirements of Rule
28(a)(10), Ala. R. App. P., his argument is without merit. In
addressing a similar issue, this Court has stated:
“The Alabama Supreme Court has held that victim-impact
statements
“ ‘are admissible during the guilt phase of a criminal trial
only if the statements are relevant to a material issue of
the guilt phase. Testimony that has no probative value on
any material question of fact or inquiry is inadmissible.
See C. Gamble, McElroy's Alabama Evidence § 21.01
(4th ed. 1991), citing, inter alia, Fincher v. State, 58
Ala. 215 (1877) (a fact that is incapable of affording
any reasonable inference in reference to a material fact
or inquiry involved in the issue cannot be given in
evidence). If the statements are not material and relevant,
they are not admissible.’
“Ex parte Crymes, 630 So. 2d 125, 126 (Ala. 1993).
*44 “ ‘[T]he introduction of victim impact evidence
during the guilt phase of a capital murder trial can result
in reversible error if the record indicates that it probably
distracted the jury and kept it from performing its duty of
determining the guilt or innocence of the defendant based
on the admissible evidence and the applicable law.’ Ex
parte Rieber, 663 So. 2d 999, 1006 (Ala. 1995). The Court
in Ex parte Rieber also said:
“ ‘However, in Ex parte Crymes, 630 So. 2d 125
(Ala. 1993), a plurality of this Court held in a capital
murder case in which the defendant was sentenced to
life imprisonment without parole that a judgment of
conviction can be upheld if the record conclusively
shows that the admission of the victim impact evidence
during the guilt phase of the trial did not affect the
outcome of the trial or otherwise prejudice a substantial
right of the defendant.’

“663 So. 2d at 1005.”
Woodward v. State, 123 So. 3d 989, 1021 (Ala. Crim. App.
2011). Although a portion of the testimony cited by Petersen
above constituted improper victim-impact evidence because
it directly addressed how the shooting affected those who
witnessed it, as the Alabama Supreme Court made in clear in
Ex parte Rieber, 663 So. 2d 999 (Ala. 1995), the admission
of victim-impact evidence during the guilt phase is not a
ground for reversal “if the record conclusively shows that
the admission of the victim impact evidence during the guilt
phase of the trial did not affect the outcome of the trial or
otherwise prejudice a substantial right of the defendant.” Ex
parte Rieber, 663 So. 2d at 1005. Here, the admission of that
victim-impact evidence was undoubtedly harmless. Petersen
did not deny his involvement in the shootings at Teasers.
Moreover, in addition to the physical evidence, the State
had evidence from Petersen's statements to police and others
in which he acknowledged what he had done. This Court
concludes that, when viewed in the light of the evidence of
Petersen's guilt, the victim-impact evidence “ ‘did not affect
the outcome of the trial, that it did not prejudice [Petersen's]
substantial rights, and that it did not rise to the level of plain
error.’ ” Scheuing v. State, 161 So. 3d 264, 265 (quoting
Woodward v. State, 123 So. 3d 989, 1021 (Ala. Crim. App.
2011) ). Therefore, no plain error exists that would entitle
Petersen to relief on this issue.
Finally, Petersen contends that, after eliciting the testimony
discussed above, the State ended its rebuttal closing argument
in the guilt phase by “contrasting the impermissible victim
impact testimony with Mr. Petersen” in an effort to
“inflame the passions of the jury and urge them to convict”
based on that inadmissible testimony. (Petersen's brief, p.
81.) Specifically, he attacks the following portion of the
prosecutor's argument:
“So, here's the last thing I want to tell you. Ryan Petersen,
death and destruction, evil, wicked, inflicted death and
serious pain and suffering, emotionally and mentally and
physically on all those people.”
(R. 4398.)
Initially, we note that none of the testimony discussed above
is referenced in the prosecutor's statement. When evaluating
statements made by the State during its closing arguments,
this Court has stated that those statements “must be viewed
in the context of all of the evidence presented and in the
context of the complete closing arguments to the jury.”
Roberts v. State, 735 So. 2d 1244, 1253 (Ala. Crim. App.

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

37

Petersen v. State, --- So.3d ---- (2019)

1997). “A prosecutor may argue in closing any evidence that
was presented at trial. He may also present his impressions
from the evidence. He may [even] argue every matter of
legitimate inference and may examine, collate, sift, and treat
the evidence in his own way.” Williams v. State, 627 So.
2d 994, 995 (Ala. Crim. App. 1992). The above-quoted
statement is nothing more than the prosecutor's impression of
the evidence. Thus, Petersen is not entitled to relief on this
claim.

X.22
*45 Petersen contends that the circuit court erred in allowing
the State to introduce “irrelevant and highly prejudicial crime
scene and autopsy photographs [into evidence] in violation of
state and federal law” during the guilt phase of his capitalmurder trial. (Petersen's brief, pp. 82-83.) Specifically, he
contends that the court erred in admitting 123 “inflammatory”
photographs, each depicting the body of a deceased victim,
blood, close-ups of wounds, or some combination thereof.
According to Petersen, 37 photographs depicted the bodies of
3 deceased victims at the scene, with 27 of those photographs
showing the victims’ uncovered bodies; 31 showed closeup photographs of bullet wounds taken at the scene; 12
photographs showed blood pooling and blood spatter; and
43 “inflammatory” autopsy photographs depicted graphic
wounds of the victims. (Petersen’s brief, pp. 82-83.) Petersen
further contends that the admission of those photographs into
evidence during the penalty phase “undermined the Eighth
Amendment's requirement of heightened reliability in cases
involving the death penalty.” (Petersen's brief, p. 83.) These
arguments were not presented to the circuit court below; thus,
they will be reviewed for plain error only. See Rule 45A, Ala.
R. App. P.
It is well settled that
“ ‘[t]he question of admissibility of evidence is generally
left to the discretion of the trial court, and the trial court's
determination on that question will not be reversed except
upon a clear showing of abuse of discretion.’ Ex parte
Loggins, 771 So. 2d 1093, 1103 (Ala. 2000). ‘A trial court
has wide discretion in determining whether to exclude
or to admit evidence, and the trial court's determination
on the admissibility of evidence will not be reversed in
the absence of an abuse of that discretion.’ Woodward
v. State, 123 So. 3d 989, 1014 (Ala. Crim. App. 2011).
Additionally, ‘[t]rial courts are vested with considerable

discretion in determining whether evidence is relevant, and
such a determination will not be reversed absent plain error
or an abuse of discretion.’ Hayes v. State, 717 So. 2d 30,
36 (Ala. Crim. App. 1997).”
Floyd, ––– So. 3d at ––––. This Court has previously
addressed the argument that Petersen raises here and has
stated:
“ ‘ “Alabama courts have held on many occasions that
photographs of the crime scene and the victims are
admissible, even though they might be gruesome and
cumulative, if they shed light on an issue being tried.
E.g., Baird v. State, 849 So. 2d 223, 246 (Ala. Crim. App.
2002).” McGahee v. State, 885 So. 2d 191, 214 (Ala.
Crim. App. 2003).’
“Blackmon v. State, 7 So. 3d 397, 449 (Ala. Crim. App.
2005).
“ ‘Photographic evidence is admissible in a criminal
prosecution if it tends to prove or disprove some disputed
or material issue, to illustrate some relevant fact or
evidence, or to corroborate or dispute other evidence
in the case. Photographs that tend to shed light on, to
strengthen, or to illustrate other testimony presented may
be admitted into evidence. Chunn v. State, 339 So. 2d
1100, 1102 (Ala. Cr. App. 1976). To be admissible,
the photographic material must be a true and accurate
representation of the subject that it purports to represent.
Mitchell v. State, 450 So. 2d 181, 184 (Ala. Cr. App.
1984). The admission of such evidence lies within the
sound discretion of the trial court. Fletcher v. State, 291
Ala. 67, 277 So. 2d 882, 883 (1973); Donahoo v. State,
505 So. 2d 1067, 1071 (Ala. Cr. App. 1986) (videotape
evidence). Photographs illustrating crime scenes have
been admitted into evidence, as have photographs of
victims and their wounds. E.g., Hill v. State, 516 So.
2d 876 (Ala. Cr. App. 1987). Furthermore, photographs
that show the external wounds of a deceased victim
are admissible even though the evidence is gruesome
and cumulative and relates to undisputed matters. E.g.,
Burton v. State, 521 So. 2d 91 (Ala. Cr. App. 1987).
Finally, photographic evidence, if relevant, is admissible
even if it has a tendency to inflame the minds of the
jurors. Hutto v. State, 465 So. 2d 1211, 1212 (Ala. Cr.
App. 1984).
“Ex parte Siebert, 555 So. 2d 780, 783–84 (Ala. 1989).
“ ‘ “Courts and juries cannot be squeamish about
looking at unpleasant things, objects or circumstances

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

38

Petersen v. State, --- So.3d ---- (2019)

in proceedings to enforce the law and especially if truth
is on trial. The mere fact that an item of evidence is
gruesome or revolting, if it sheds light on, strengthens,
or gives character to other evidence sustaining the issues
in the case, should not exclude it.” ’
*46 “Gwin v. State, 425 So. 2d 500, 508 (Ala. Crim. App.
1982) (quoting Baldwin v. State, 282 Ala. 653, 656, 213
So. 2d 819, 820 (1968) ).”
Thompson, 153 So. 3d at 130.
In the present case, we note that Petersen does not
argue that the 123 “inflammatory” photographs were not
relevant; instead, he argues that they were prejudicial and
constituted “needless presentation of cumulative evidence.”
(Petersen's brief, p. 82.) Based on the legal principles quoted
above, the “inflammatory” and “cumulative” nature of those
photographs does not render them inadmissible and does not
mean that the court abused its discretion in choosing to admit
them at trial. Petersen is not entitled to relief on this claim.

XI.23
Petersen contends that, for two reasons, the circuit court erred
in admitting into evidence State's Exhibits 44-50 and 136,
which contained video footage from the security system at
Teasers showing what happened the night of the shootings.
(Petersen's brief, pp. 88-90.) First, he contends that the proper
predicate for admission of that evidence had not been laid
pursuant to the “silent-witness” theory. Id. Second, he argues
that, after those exhibits were improperly admitted, the court
allowed the State to elicit improper testimony from bartender
William Gaines and disc jockey James Williams about their
opinions of Petersen after watching that video even though, he
says, they had not personally seen him in the club that night.
(Petersen's brief, p. 89.)
Initially, we note that, when Exhibits 44-50 and 136 were first
offered into evidence, defense counsel specifically stated that
he had no objection to their admission. (R. 2917 and 4291.)
Thus, we review their admission into evidence only for plain
error. See Rule 45A, Ala. R. App. P.
Once again,
“ ‘[t]he question of admissibility of evidence is generally
left to the discretion of the trial court, and the trial court's
determination on that question will not be reversed except

upon a clear showing of abuse of discretion.’ Ex parte
Loggins, 771 So. 2d 1093, 1103 (Ala. 2000). ‘A trial court
has wide discretion in determining whether to exclude
or to admit evidence, and the trial court's determination
on the admissibility of evidence will not be reversed in
the absence of an abuse of that discretion.’ Woodward
v. State, 123 So. 3d 989, 1014 (Ala. Crim. App. 2011).
Additionally, ‘[t]rial courts are vested with considerable
discretion in determining whether evidence is relevant, and
such a determination will not be reversed absent plain error
or an abuse of discretion.’ Hayes v. State, 717 So. 2d 30,
36 (Ala. Crim. App. 1997).”
Floyd, ––– So. 3d at ––––. With regard to the admissibility
of videotape recordings, like security camera footage, the
Alabama Supreme Court has previously stated:
“Traditionally, courts and commentators analyzing the
issue of the admissibility of sound recordings, photographs,
motion pictures, videotape recordings, maps, and diagrams
have treated all these items in the same manner. See
3 James H. Chadbourn, Wigmore on Evidence, § 790
(1970 & Supp.1991); 2 John W. Strong, McCormick on
Evidence § 214 (1992); William A. Schroeder, et al.,
Alabama Evidence, § 11–3 (1987 & Supp. 1988); F.M.
English, Annotation, Admissibility of Sound Recordings in
Evidence, 58 A.L.R.2d 1024 (1958); and see, International
UAW–CIO v. Russell, 264 Ala. 456, 470, 88 So. 2d
175, 186 (1956) (discussing the ‘pictorial communication’
theory as applied to motion pictures); National States Ins.
Co. v. Jones, 393 So. 2d 1361, 1366 (Ala. 1980) (discussing
tape recordings); and C.P. Robbins & Associates v.
Stevens, 53 Ala. App. 432, 437, 301 So. 2d 196, 200–01
(1974) (discussing tape recordings). In fact, in National
States Insurance, this Court stated, ‘A tape recording of a
pertinent event is analogous to a photograph of a scene.
A recording preserves the situation as it took place just as
a photograph preserves the scene as it existed at a given
point.’ 393 So. 2d at 1367.
*47 “There are two theories upon which photographs,
motion pictures, videotapes, sound recordings, and the
like are analyzed for admission into evidence: the
‘pictorial communication’ or ‘pictorial testimony’ theory
and the ‘silent witness’ theory. Wigmore, supra, § 790;
McCormick, supra, § 214; and Schroeder, supra § 11–3.
The ‘pictorial communication’ theory is that a photograph,
etc., is merely a graphic portrayal or static expression
of what a qualified and competent witness sensed at the
time in question. Wigmore, supra, § 790, and McCormick,
supra, § 214. The ‘silent witness’ theory is that a

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

39

Petersen v. State, --- So.3d ---- (2019)

photograph, etc., is admissible, even in the absence of
an observing or sensing witness, because the process or
mechanism by which the photograph, etc., is made ensures
reliability and trustworthiness. In essence, the process
or mechanism substitutes for the witness's senses, and
because the process or mechanism is explained before
the photograph, etc., is admitted, the trust placed in its
truthfulness comes from the proposition that, had a witness
been there, the witness would have sensed what the
photograph, etc., records. Wigmore, supra, § 790, and
McCormick, supra, § 214.
“A reasonable reading of Voudrie [v. State, 387 So. 2d 248
(Ala. Cr. App. 1980) ], Carraway [v. State, 583 So. 2d 993
(Ala. Crim. App. 1991) ], Molina [v. State, 533 So. 2d
701 (Ala. Crim. App. 1988) ], and the more recent caselaw
of the Court of Criminal Appeals leads us to conclude
that the Court of Criminal Appeals is of the opinion that
the ‘pictorial communication’ and ‘silent witness’ theories
are mutually exclusive theories, rather than alternative
theories. The proper foundation required for admission
into evidence of a sound recording or other medium by
which a scene or event is recorded (e.g., a photograph,
motion picture, videotape, etc.) depends upon the particular
circumstances. If there is no qualified and competent
witness who can testify that the sound recording or other
medium accurately and reliably represents what he or she
sensed at the time in question, then the ‘silent witness’
foundation must be laid. Under the ‘silent witness’ theory,
a witness must explain how the process or mechanism that
created the item works and how the process or mechanism
ensures reliability. When the ‘silent witness’ theory is used,
the party seeking to have the sound recording or other
medium admitted into evidence must meet the seven-prong
Voudrie test.
“....
“On the other hand, when a qualified and competent
witness can testify that the sound recording or other
medium accurately and reliably represents what the witness
sensed at the time in question, then the foundation required
is that for the ‘pictorial communication’ theory. Under this
theory, the party offering the item must present sufficient
evidence to meet the ‘reliable representation’ standard, that
is, the witness must testify that the witness has sufficient
personal knowledge of the scene or events pictured or the
sounds recorded and that the item offered accurately and
reliably represents the actual scene or sounds.”

Ex parte Fuller, 620 So. 2d 675, 677–79 (Ala. 1993)(footnote
omitted).
In the present case, the State laid a proper predicate
for admitting the videotape-security footage in question
under the “pictorial communication” theory. The record on
appeal indicates that, during Petersen's capital-murder trial,
Teasers co-owner Bruce Middleton testified that the club
has multiple cameras throughout its facility and that the
system was working properly on August 9, 2012. (R. 2005.)
Bartender William Gaines and disc jockey James Williams
confirmed this during their testimony. (R. 1373, 1804, 1929.)
Importantly, Middleton, Gaines, and Williams all testified
that they had witnessed Petersen enter Teasers with a gun
that night and heard gunshots and confirmed that the security
footage in the State's exhibits accurately reflected what they
had witnessed. (R. 1184, 1374-75, 1807, 1850-51, 1853-54,
1868-69, 1871, 1879-80, 1944, 1949-50, and 2049.)
In addition to the testimony from those witnesses, the State
also offered the testimony of Investigator Adam Zeh. He
stated that, when he arrived at the scene, he noticed that
there were cameras in the club and that they were set to
record to a DVR system that stored video data. (R. 2916.) He
noted that the system's date and time stamps were “off” by
approximately one day and four hours. (R. 2913.) Inv. Zeh
further testified that the system was “outdated” and that, to
avoid the risk of losing any potential footage, police recorded
portions from the footage with police camera equipment.
(R. 2912-13.) He verified that he had watched the original
footage, which was introduced and admitted as State's Exhibit
136, and that those portions were accurate recordings from
the original footage that was offered and admitted as State's
Exhibits 44-50. (R. 2913-14, 2916.)
*48 In light of the testimony described above, it is clear that
the State offered testimony from witnesses with “sufficient
personal knowledge of the scene or events pictured or the
sounds recorded and that the item[s] offered accurately and
reliably represents the actual scene or sounds.” Fuller, 620
So. 2d at 678. Therefore, the State laid a proper predicate
for admitting the videotape security footage in Exhibits 44-50
and 136 under the “pictorial communication” theory. Thus,
Petersen is not entitled to relief on this claim.
Petersen also argues that, after improperly admitting that
testimony, the circuit court then allowed the State to elicit
improper testimony from Gaines and Williams concerning
their opinions of Petersen after watching that video when,

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

40

Petersen v. State, --- So.3d ---- (2019)

he says, they had not personally seen him in the club that
night. (Petersen's brief, p. 89.) After reviewing, in context,
the testimony cited by Petersen in his brief, we conclude that
the record refutes his claim. In their testimony Gaines and
Williams not only reiterated what they personally witnessed
on the night of the shooting, but they also confirmed that their
observations were adequately represented in the securitycamera footage. Thus, Petersen is not entitled to relief on this
claim.

XII.24
Petersen argues that the State erroneously introduced “several
exhibits showing [him] in shackles and jail clothing, including
photographs that depict a shirtless Mr. Petersen in handcuffs
following his arrest, and two videos” showing him in an
orange jumpsuit and leg irons with his hands shackled to a
waist belt. (Petersen's brief, p. 90.) According to Petersen,
those images “ ‘suggest[ ] to the jury that the justice system
itself sees a “need to separate a defendant from the community
at large.” ’ ” (Petersen's brief, p. 90, quoting Deck v. Missouri,
544 U.S. 622, 630-31 (2005) and Brown v. State, 982 So.
2d 565, 594 (Ala. Crim. App. 2006).) As a result, Petersen
contends that his rights to “due process, a fair trial, and a
reliable sentence as provided by the Fifth, Sixth, Eighth, and
Fourteenth Amendments to the United States Constitution
and Alabama law” have been violated. (Petersen's brief, p.
91.) Petersen did not raise this argument at trial; thus, it will
be reviewed for plain error. Rule 45A, Ala. R. App. P.
This Court has previously stated:
“Shackling or handcuffing a defendant during trial tends
to negate the presumption of innocence and is generally
prohibited absent special circumstances. Holbrook v.
Flynn, 475 U.S. 560, 106 S. Ct. 1340, 89 L.Ed. 2d 525
(1986). ‘However, we have not extended the violation
of the presumption of innocence to the viewing of the
defendant on a videotape while he is in handcuffs.’ Doster
v. State, 72 So.3d 50 (Ala. Crim. App. 2010).”
Hosch v. State, 155 So. 3d 1048, 1120 (Ala. Crim. App.
2013). Here the circuit court did not commit error--plain or
otherwise--in admitting the photographs and videos at issue.
Petersen is not entitled to relief on this claim.

XIII.25

Petersen contends that the admission of forensic psychologist
Dr. Doug McKeown's testimony and mental-health evaluation
of Petersen during the State's rebuttal constitutes plain
error. (Petersen's brief, pp. 13-24.) Petersen also challenges
references to Dr. McKeown's report by the State in its
opening and closing arguments, arguing that those references
constituted plain error. According to Petersen, allowing Dr.
McKeown to testify to statements Petersen made during his
mental-health evaluation after he had been told that those
statements would not be used as evidence against him violated
his rights to “due process, a fair trial, and a reliable sentencing
determination under the Fifth, Sixth, Eighth, and Fourteenth
Amendments to the United States Constitution and Alabama
law.” (Petersen's brief, p. 24.) Because Petersen did not object
to Dr. McKeown's testimony at trial or to any references to
that testimony in the State's opening and closing arguments,
we review this claim for plain error. See Rule 45A, Ala. R.
App. P.
*49 At trial, Petersen pursued a defense of not guilty by
reason of mental disease or defect, and he offered expert
testimony from Dr. Mark Cunningham in support of his
defenses of intoxication and insanity. Thus, Petersen placed
his mental state at issue. During the State's rebuttal, Dr.
McKeown testified concerning his mental-health evaluation
of Petersen that took place on October 23, 2012. When asked
about whether Petersen was suffering from any mental disease
or defect that would have hindered his ability to know what
he was doing at the time of the crime, Dr. McKeown stated:
“No ... other than what influence may have occurred
from what type of substances he may have taken. He
acknowledged that he had had six drinks that night.”
(R. 4246.) He further stated:
“But there was no indication he was suffering from a severe
mental disease or defect that would have impaired his
ability to understand the wrongfulness of his act.”
Id. When asked if Petersen had indicated that he was under
the influence of any intoxicating substances that would have
hindered his ability to understand the nature of his actions,
Dr. McKeown stated that he had not. (R. 4247.) He further
testified that, based on his evaluation of Petersen, he believed
that Petersen possessed “reasonable decision making skills
and the ability to interact with defense counsel.” (R. 4250.)
The State then asked Dr. McKeown if he had viewed the
security footage of the shooting at Teasers and he replied that
he had. Dr. McKeown testified that Petersen had indicated to
him that he “shot victims” and that he knew that he had done

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

41

Petersen v. State, --- So.3d ---- (2019)

something wrong and that he needed to get away. (R. 4253,
4254.)

has nothing to do with this test or his assessment, and I
would object.

In Brownfield v. State, 44 So. 3d 1 (Ala. Crim. App. 2007),
aff'd, 44 So. 3d 43 (Ala. 2009), this Court was faced with
a similar scenario. Like Petersen, the defendant pursued a
defense of not guilty by reason of mental disease or defect;
specifically, Brownfield argued “that the murders were the
result of Brownfield's addiction to methamphetamine.” 44 So.
3d at 28.

“ ‘....

“At the conclusion of the defense's case, the State called Dr.
Clinger as a rebuttal witness. Dr. Clinger testified without
objection that she had examined Brownfield to determine
his sanity at the time of the offenses; she stated that she
gathered information from the district attorney's office and
from defense counsel and had met with Brownfield twice
for a total of approximately four or five hours. When asked
what information she used to diagnose Brownfield, defense
counsel objected and requested a sidebar, at which time
a bench conference was held off the record. Upon the
conclusion of that bench conference, Dr. Clinger testified
without objection that her goal was to evaluate Brownfield
and to assess his treatment needs, if any. She stated
that she performed a diagnostic clinical interview and
administered an IQ test; she testified without objection
as to her conclusions regarding his intellectual status and
mental ability. Dr. Clinger testified that Brownfield was
able to recall and repeat information to her, including
arithmetic problems she posed to him, his educational
background, and his work history. The following exchange
then occurred:
“ ‘[Prosecutor]: All right; did he have any memory at all
as to his activities on December 23, 24 and 25?
“ ‘[Dr. Clinger]: He was able to provide me with an
account of what he was doing during most of that time.
“ ‘[Prosecutor]: All right; was he able to recall getting
into a verbal dispute with his sister on the 23rd?

“ ‘(JURY NOT PRESENT.)
“ ‘THE COURT: All right; do you want to state your
objection?
“ ‘[Defense counsel]: Well, Judge, what I'm concerned
about is the very front page of the forensic evaluation
report prepared by Dr. Clinger, she says, and I will just
read it, “Ben Brownfield was also informed that these
results may be used in court proceedings either through
testimony of the examiner and/or the written report to
assist reaching decisions regarding his competency to
stand trial and his mental state at the time of the alleged
offense but that none of the information could be used
as evidence against him concerning his guilt on any
charge.” Now, my objection is that this questioning, and
where I believe the assistant district attorney was going
with that is to get into the facts of what Mr. Brownfield
has described to Dr. Melissa Clinger. And just because
the court gives some kind of limiting instruction at
some point that they are not to consider any of this in
their determination of guilt[, it] is still highly prejudicial
and will violate his rights, Your Honor--his due process
rights because he was told that none of this could be used,
and none of this information could be used as evidence
against him. And this is a way to circumvent that by
getting into the details of what he told her.
“ ‘THE COURT: Well, he has raised the issue of insanity
at the time of the alleged offense, and the law is very
clear that any statements that he gives to the psychologist
would be admissible on that issue.
“ ‘[Defense counsel]: Well, there is no issue of insanity,
and we withdraw any claim that he was insane. And we
will put that on the record.

*50 “ ‘[Dr. Clinger]: Well, it was something about--

“ ‘[Prosecutor]: Judge, we would consider that to be
untimely made, and they've already introduced evidence
from their expert on his inability to recall the details. And
if it's not admissible on his mental state at the time, it
certainly is to impeach Dr. Lacy's testimony about him
having no memory whatsoever of these events.

“ ‘[Defense counsel]: Judge, I object again. That goes to
the very issue that I was informing you about. And that

“ ‘[Defense counsel]: We are not arguing that he was
legally insane. That's the term that I'm talking about,

“ ‘[Dr. Clinger]: Yes.
“ ‘[Prosecutor]: And what details was he able to provide
regarding that?

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

42

Petersen v. State, --- So.3d ---- (2019)

legal insanity. And nothing that we have put on or
attempted to argue goes to legal insanity.
“ ‘[Prosecutor]: Well, Your Honor, that was one of the
questions that we asked before we got started if he
was maintaining that plea and [defense counsel] stated
clearly, yes, [he] was.
“ ‘[Defense counsel]: Well, we have not put on any
evidence to that effect.
“ ‘[Prosecutor]: And in fact I think he requested an
instruction to that effect.
“ ‘[Defense counsel]: Well, that doesn't mean that we're
going that route.
“ ‘THE COURT: Well, I asked specifically so that this
issue could be addressed at the very beginning, and you
told me that you definitely intended to pursue that plea
of not guilty by reason of mental disease or defect. And
you put on your psychiatrist.
*51 “ ‘[Defense counsel]: Well, Your Honor, we said
that we were not contesting his sanity at trial or his
competency at trial. And that's what I recall telling the
court that that was not going to be an issue.
“ ‘THE COURT: Right, because that issue had already
been decided by the court because it had not been made
an issue previously and there had been no request for
a hearing on the issue of whether he was competent to
stand trial.
“ ‘[Defense counsel]: Well, our position now is that we're
not arguing any insanity.
“ ‘THE COURT: Well, I think it's too late. I think the
door has been opened because there's been questions
asked of your psychiatrist regarding that plea. So I'm
going to permit her to testify. But any statements that
he made to you, you can relate, you know, if they had
a bearing on your assessment of his mental state at the
time of the alleged offense. Otherwise, they should not
be admissible in this hearing. Do you understand?
“ ‘[Dr. Clinger]: Well, Your Honor, I didn't ask if he did
it or not, and he didn't tell me if he did it or not.
“ ‘THE COURT: All right; so that should take care of
that.

“ ‘[Defense counsel]: Well, Judge, is the court saying that
we asked our witnesses questions concerning whether
the defendant was legally insane?
“ ‘THE COURT: I'm saying that questions were asked
and at no time was there an objection made to those
questions. And I know the psychiatrist was asked if he
was suffering from a mental disease or defect, and-“ ‘[Defense counsel]: Yes, that was asked.
“ ‘THE COURT: Right, and there was no objection made
as if you had withdrawn that plea.
“ ‘[Defense counsel]: Okay, I see the court's point.
“THE COURT: All right; let's recess for lunch.’
“(R. 1959–63.)
“Dr. Clinger then testified that Brownfield informed
her that he was unhappy with his sister because on
December 23, 2001, he had given her some money that
she was supposed to have used to obtain drugs. Dr.
Clinger testified with regard to the events of December
24 that Brownfield recalled taking a shower at Farmer's
residence and riding around with his friend Nick Logan
and that he told Farmer what he had done. As for
Brownfield's recollection of the events on December 25,
Dr. Clinger testified that Brownfield told her that he
remembered the officers advising him of his Miranda
rights. According to Dr. Clinger, she saw no indication
that Brownfield suffered from a severe mental disease or
defect ‘ever or during the time of the alleged offense.’ (R.
1965.) She stated that she ‘thought [Brownfield] had
no significant impairment as far as mental illness or
cognitive deficits or problems in thinking that would have
interfered with his ability to appreciate the wrongfulness
of his acts and the consequences.’ (R. 1966.) On crossexamination, Dr. Clinger was questioned extensively
about false memories. She was further questioned about
Brownfield's assertions to her that he had ingested Xanax
and crystal methamphetamine at times prior to the murders
and the possibility that those narcotics may have affected
his memory.”
Brownfield, 44 So. 3d at 29–32.
In rejecting Brownfield's claim that the admission of the
report constituted reversible error, the Alabama Supreme
Court stated:

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

43

Petersen v. State, --- So.3d ---- (2019)

“Rule 11.2(b), Ala. R. Crim. P., governs the admissibility
of testimony about statements made by a defendant during
a mental examination. Rule 11.2(b)(2), provides:
*52 “ ‘(2) The results of mental examinations made
pursuant to subsection (a)(2) of this rule [providing
for examination into the defendant's mental condition
at the time of the offense] and the results of similar
examinations regarding the defendant's mental condition
at the time of the offense conducted pursuant to Rule
11.4 shall be admissible in evidence on the issue of the
defendant's mental condition at the time of the offense
only if the defendant has not subsequently withdrawn
his or her plea of not guilty by reason of mental
disease or defect. Whether the examination is conducted
with or without the defendant's consent, no statement
made by the defendant during the course of any
examination, no testimony by an examining psychiatrist
or psychologist based upon such a statement, and no
other evidence directly derived from the defendant's
statement shall be admitted against the defendant in
any criminal proceeding, except on an issue respecting
mental condition on which the defendant has testified.’
“(Emphasis added.)
“The plain language of Rule 11.2(b)(2) unequivocally
forbids the admission of statements made by a defendant
or evidence derived from the defendant's statements during
a pretrial mental examination unless the defendant testifies
about his or her mental condition. Consequently, because
Brownfield did not testify at his trial, applying the
plain language of Rule 11.2(b)(2), we must conclude
that error occurred in the admission of Dr. Clinger's
testimony concerning statements Brownfield made during
the mental examinations. Although it was proper to
admit into evidence Dr. Clinger's testimony regarding
her opinion about Brownfield's mental condition at the
time of the offenses, the admission of her testimony
regarding statements made by Brownfield during the
mental examinations was error.
“The inquiry, however, does not end here. This Court must
determine whether it ‘appear[s] that the error complained
of has probably injuriously affected [Brownfield's]
substantial rights.’ Rule 45, Ala. R. App. P., provides:
“ ‘No judgment may be reversed or set aside, nor new
trial granted in any civil or criminal case on the ground
of misdirection of the jury, the giving or refusal of

special charges or the improper admission or rejection
of evidence, nor for error as to any matter of pleading
or procedure, unless in the opinion of the court to which
the appeal is taken or application is made, after an
examination of the entire cause, it should appear that
the error complained of has probably injuriously affected
substantial rights of the parties.’
“The Court of Criminal Appeals has further stated with
regard to the application of the harmless-error rule:
“ ‘ “ ‘After finding error, an appellate court may still
affirm a conviction on the ground that the error was
harmless, if indeed it was.’ Guthrie v. State, 616 So.
2d 914, 931 (Ala. Crim. App. 1993), citing Chapman
v. California, 386 U.S. 18, 87 S. Ct. 824, 17 L.Ed. 2d
705 (1967). ‘The harmless error rule applies in capital
cases.’ Knotts v. State, 686 So. 2d 431, 469 (Ala. Crim.
App. 1995), opinion after remand, 686 So. 2d 484 (Ala.
Crim. App. 1995), aff'd, 686 So. 2d 486 (Ala. 1996),
cert. denied, 520 U.S. 1199, 117 S. Ct. 1559, 137 L.Ed.
2d 706 (1997), citing Ex parte Whisenhant, 482 So. 2d
1241 (Ala. 1983). ‘In order for a constitutional error
to be deemed harmless under Chapman, the state must
prove beyond a reasonable doubt that the error did not
contribute to the verdict. In order for the error to be
deemed harmless under Rule 45, the state must establish
that the error did not injuriously affect the appellant's
substantial rights.’ Coral v. State, 628 So. 2d 954, 973
(Ala. Crim. App. 1992), opinion after remand, 628 So.
2d 988 (Ala. Crim. App. 1992), aff'd, 628 So. 2d 1004
(Ala. 1993), cert. denied, 511 U.S. 1012, 114 S. Ct.
1387, 128 L.Ed. 2d 61 (1994). ‘The purpose of the
harmless error rule is to avoid setting aside a conviction
or sentence for small errors or defects that have little,
if any, likelihood of changing the result of the trial or
sentencing.’ Davis v. State, 718 So. 2d 1148, 1164 (Ala.
Crim. App. 199[5] ), aff'd, 718 So. 2d 1166 (Ala. 1998),
cert. denied, 525 U.S. 1179, 119 S. Ct. 1117, 143 L.Ed.
2d 112 (1999).”
*53 “ ‘McNabb v. State, 887 So. 2d 929, 976–77 (Ala.
Crim. App. 2001).’
“Sale v. State, 8 So. 3d 330, 347 (Ala. Crim. App.
2008). See also Ex parte Brown, 11 So. 3d 933 (Ala.
2008) (holding that the alleged improper admission of
evidence in a capital trial was harmless); Cothren v.
State, 705 So. 2d 849 (Ala. Crim. App. 1997) (holding
that the improper admission of the defendant's coerced

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

44

Petersen v. State, --- So.3d ---- (2019)

confession was harmless in light of the overwhelming
evidence establishing that the defendant committed the
capital offense).
“In this case, a review of the record establishes that the
admission of Dr. Clinger's testimony was harmless; the
improperly admitted evidence could not have probably
injuriously affected Brownfield's substantial rights. The
admission of testimony regarding Brownfield's statements
concerning his education and work experience is harmless
because those statements are not relevant to whether
Brownfield committed the offense or to his mental
condition at the time of the offense. Consequently,
testimony concerning those statements could not have
probably injuriously affected Brownfield's substantial
rights. Likewise, Dr. Clinger's testimony regarding
Brownfield's recollection of the events on December
23, 24, and 25, 2001, could not have probably
injuriously affected Brownfield's substantial rights because
statements Brownfield made to law-enforcement officers
on December 25 and 26, 2001, had been previously
admitted into evidence and established with greater detail
what Brownfield recalled regarding the events leading up
to and following the murders....
“ ‘....
“Brownfield's statement establishes in detail his
recollection of the events surrounding the murders; the
statements made to Dr. Clinger some seven months after the
murders are general and cursory. Therefore, Dr. Clinger's
testimony with regard to statements made by Brownfield
about his activities on the days surrounding the murders,
in light of the previously admitted detailed statement
Brownfield made to the police, could not have probably
injuriously affected Brownfield's substantial rights.
“Finally, the evidence of Brownfield's guilt as to the capital
offenses was overwhelming. The evidence indicated that
during the week of December 24, 2001, Brownfield had
been using crystal methamphetamine and on the evening
of December 24 had consumed several Xanax tablets.
After taking the tablets, he became angry at his sister,
Brenda McCutchin, who was sleeping in her bed with
her grandson, Joshua Hodges. Brownfield entered the
room and beat both Brenda and Joshua with a claw
hammer. He then left Brenda's house and traveled in her
car to Latham McCutchin's house. He entered Latham's
house, and a struggle ensued. Brownfield struck Latham
with his fists and the hammer. Brownfield also stabbed

Latham in the heart and cut his throat with a knife. When
Brownfield left Latham's house, he took Latham's wallet.
The evidence further indicated that Brownfield admitted to
his ex-girlfriend, Tammy Farmer, that he had killed Brenda,
Joshua, and Latham. The results of DNA testing of blood
found on Brownfield's shoes indicated that the blood was
Latham's. Because the evidence was sufficient to prove
beyond a reasonable doubt that Brownfield committed the
capital offenses, the error in the admission of Dr. Clinger's
testimony was harmless.”
*54 44 So. 3d 43, 47–50 (Ala. 2009).
In the present case, Dr. McKeown's testimony concerning the
results of Petersen's competency evaluation was error. See Ex
parte Brownfield, supra. But the admission of that testimony
was harmless because it did not prejudice Petersen. See id.
See also Lockhart v. State, 163 So. 3d 1088, 1108 (Ala. Crim.
App. 2013) (“[T]his court has recognized that, even in capital
cases, the harmless-error rule applies to contentions that Rule
11.2 was violated.”). As the State points out in its brief on
appeal,
“First, statements Petersen provided about hypothetical
situations or matters unrelated to the shooting were
not relevant to whether he committed the offense....
Cf. Brownfield, 44 So. 3d at 45, 47-49. Moreover, Dr.
Cunningham testified on direct about hypotheticals Dr.
McKeown asked Petersen and offered his opinion of Dr.
McKeown's findings.... Second, statements about the crime
and his medical history were previously admitted into
evidence through Petersen's statements to police, as well as
through Dr. Cunningham's testimony.... Cf. Brownfield, 44
So. 3d at 48-49; Thompson, 153 So. 3d at 147.”
(State's brief, pp. 15-16 (citations omitted).) We agree
with the State's analysis in this regard. Petersen's case
is similar to the factual scenario in Brownfield most
notably in that the challenged statements included only
information cumulative to statements by Petersen that had
been previously admitted.26 Moreover, as in Brownfield, “the
evidence of [Petersen's] guilt as to the capital offenses was
overwhelming.”27 44 So. 3d at 50.
The error complained of did not probably injuriously affect
Petersen's substantial rights, and, because the evidence was
sufficient to prove beyond a reasonable doubt that Petersen
committed the capital offenses, any error was harmless. See
Brownfield, 44 So. 3d at 50.

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

45

Petersen v. State, --- So.3d ---- (2019)

(R. 4397-98) (emphasis added).
XIV.28

This Court has previously stated:

Next, Petersen argues that certain comments by the prosecutor
during his rebuttal closing argument at the guilt phase
improperly interjected the issue of punishment into the
guilt phase. (Petersen's brief, p. 84.) Specifically, Petersen
contends that the prosecutor's reference to his prior statements
to law-enforcement officers that he should be killed for
what he had done “shifted the focus of the jury's attention
from the central question of whether the State had proved
its case beyond a reasonable doubt and to the issue of
punishment.” Id. (internal quotation marks and citations
omitted). According to Petersen, the prosecutor's “improper
reliance upon [his] request for death as a basis for a finding
of guilt violated [his] rights to a jury trial, due process, a fair
trial, equal protection, and a reliable sentence under the Fifth,
Sixth, Eighth, and Fourteenth Amendments to the United
States Constitution and Alabama law.” (Petersen's brief, p.
85.) Petersen did not object to the prosecutor's statements in
the circuit court below; thus, we consider this issue only for
plain error. See Rule 45A, Ala. R. App. P.
*55 During his rebuttal arguments in the guilt phase of
Petersen's capital-murder trial, District Attorney Douglas A.
Valeska made the following statements concerning Petersen's
prior statements to law enforcement that he should be put to
death for what he had done:
“I'm not supposed to talk about it, but since [defense
counsel] talked about it, kill him. Kill him. He needs
killing. You know it from the statement. Read the
statement, people, what he says. I did it. I need killing.”
(R. 4387.)
“Here's what it amounts to. It's real simple. He confesses to
everything in his statements. These are the victims. This is
what he did. And let's talk about Scotty Russell, once again,
his injuries. One, two, three, four, five, six, seven, eight,
nine, ten. Ten for ten. Didn't miss a person.
“Is that somebody that's so intoxicated that they don't know
what they're doing, they can hit their target ten times,
they can escape, try and run away, and then they say, ‘I
remember aiming. I remember shooting. I remember that,’
in his own statements?
“I did it. I need to be put -- and he says killed, lethal
injection. Not me. It's ‘cause they said something, the only
reason I'm talking about that, you know, once again.”

“It is well settled that ‘[a] prosecutor has the right to
“reply in kind” to statements made by defense counsel
in the defense's closing argument.’ Newton v. State, 78
So. 3d 458, 478 (Ala. Crim. App. 2009) (citations and
quotations omitted). ‘ “When the door is opened by defense
counsel's argument, it swings wide, and a number of areas
barred to prosecutorial comment will suddenly be subject
to reply.” ’ Davis v. State, 494 So. 2d 851, 855 (Ala. Crim.
App. 1986) (quoting DeFoor, Prosecutorial Misconduct
in Closing Argument, 7 Nova L.J. 443, 469–70 (1982–
83) ). Further, a prosecutor's rebuttal argument is ‘viewed
as having been made in the heat of the debate, and such
a remark is usually valued by the jury at its true worth
and not expected to become a factor in the formulation of
the verdict.’ McGowan v. State, 990 So. 2d 931, 974 (Ala.
Crim. App. 2003).”
Vanpelt v. State, 74 So. 3d 32, 82 (Ala. Crim. App.
2009). In reiterating Petersen's statements during his rebuttal
closing argument, the prosecutor noted that he was doing
so because they were previously referenced by Petersen's
defense counsel. The prosecutor's statements were, in fact,
a permissible “reply-in-kind” to the defense's references to
Petersen's statements, and Petersen is not entitled to relief on
this claim.

XV.29
Petersen argues that the circuit court erred by denying his
defense counsel's request to instruct the jury on provocation
manslaughter. (Petersen's brief, p. 93.) According to
Petersen, because there is “undisputed evidence” that the
shootings followed a physical confrontation between him
and employees at Teasers, the court should have given that
instruction. Id. Its failure to do so, Petersen says, violated his
rights to “due process, a fair trial, and a reliable sentencing
determination as guaranteed by the Fifth, Sixth, Eighth, and
Fourteenth Amendments to the United States Constitution
and Alabama law.” (Petersen's brief, pp. 93-94.)
*56 The standard of review for jury instructions is abuse
of discretion. See Chambers v. State, 181 So. 3d 429, 443
(Ala. Crim. App. 2015). “It has long been the law in Alabama
that a [circuit] court has broad discretion in formulating
jury instructions, provided those instructions are accurate

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

46

Petersen v. State, --- So.3d ---- (2019)

reflections of the law and facts of the case.” Barrett v. State, 33
So. 3d 1287, 1288 (Ala. Crim. App. 2009) (citing Culpepper
v. State, 827 So. 2d 883, 885 (Ala. Crim. App. 2001) ). This
Court has stated:
“ ‘ “ ‘A person accused of the greater offense has
a right to have the court charge on lesser included
offenses when there is a reasonable theory from the
evidence supporting those lesser included offenses.’
MacEwan v. State, 701 So. 2d 66, 69 (Ala. Crim.
App. 1997). An accused has the right to have the
jury charged on ‘ “any material hypothesis which the
evidence in his favor tends to establish.” ’ Ex parte
Stork, 475 So. 2d 623, 624 (Ala. 1985). ‘[E]very
accused is entitled to have charges given, which
would not be misleading, which correctly state the
law of his case, and which are supported by any
evidence, however[ ] weak, insufficient, or doubtful
in credibility,’ Ex parte Chavers, 361 So. 2d 1106,
1107 (Ala. 1978), ‘even if the evidence supporting
the charge is offered by the State.’ Ex parte Myers,
699 So. 2d 1285, 1290–91 (Ala. 1997), cert. denied,
522 U.S. 1054, 118 S. Ct. 706, 139 L.Ed. 2d 648
(1998). However, ‘[t]he court shall not charge the jury
with respect to an included offense unless there is a
rational basis for a verdict convicting the defendant of
the included offense.’ § 13A–1–9(b), Ala. Code 1975.
‘The basis of a charge on a lesser-included offense
must be derived from the evidence presented at trial
and cannot be based on speculation or conjecture.’
Broadnax v. State, 825 So. 2d 134, 200 (Ala. Crim.
App. 2000), aff'd, 825 So. 2d 233 (Ala. 2001), cert.
denied, 536 U.S. 964, 122 S. Ct. 2675, 153 L.Ed. 2d
847 (2002). ‘ “A court may properly refuse to charge
on a lesser included offense only when (1) it is clear
to the judicial mind that there is no evidence tending
to bring the offense within the definition of the lesser
offense, or (2) the requested charge would have a
tendency to mislead or confuse the jury.” ’ Williams v.
State, 675 So. 2d 537, 540–41 (Ala. Crim. App. 1996),
quoting Anderson v. State, 507 So. 2d 580, 582 (Ala.
Crim. App. 1987).”
“ ‘Clark v. State, 896 So. 2d 584, 641 (Ala. Crim. App.
2000)(opinion on return to remand).’
“Harbin v. State, 14 So. 3d 898, 909 (Ala. Crim. App.
2008).”
Fuller v. State, 231 So. 3d 1207, 1217 (Ala. Crim. App. 2015).

Section 13A-6-3(a), Ala. Code 1975, governs manslaughter.
It provides, in pertinent part:
“A person commits the crime of manslaughter if:
“....
“(2) He causes the death of another person under
circumstances that would constitute murder under
Section 13A–6–2[, Ala. Code 1975]; except, that he
causes the death due to a sudden heat of passion
caused by provocation recognized by law, and before a
reasonable time for the passion to cool and for reason to
reassert itself.”
In Spencer v. State, 201 So. 3d 573 (Ala. Crim. App. 2015),
this Court stated:
“ ‘Alabama courts have, in fact, recognized three
legal provocations sufficient to reduce murder to
manslaughter: (1) when the accused witnesses his or her
spouse in the act of adultery; (2) when the accused is
assaulted or faced with an imminent assault on himself;
and (3) when the accused witnesses an assault on a
family member or close relative.’
*57 “Rogers v. State, 819 So. 2d 643, 662 (Ala. Crim.
App. 2001).
“In discussing what constitutes ‘imminent assault’ in
regard to provocation manslaughter, this Court has stated:
“ ‘ “ ‘ “Mere words, no matter how insulting, never
reduce a homicide to manslaughter. Manslaughter is the
unlawful killing of a human being without malice; that
is, the unpremeditated result of passion--heated blood-caused by a sudden, sufficient provocation. And such
provocation can, in no case, be less than an assault, either
actually committed, or menaced under such pending
circumstances as reasonable to convince the mind that
the accused has cause for believing, and did believe,
he would be presently assaulted, and that he struck, not
in consequence of a previously formed design, general
or special, but in consequence of the passion suddenly
aroused by the blow given, or apparently about to be
given.” ...’ Reeves v. State, 186 Ala. 14, 65 So. 160, 161
[ (1914) ].” Easley v. State, 246 Ala. 359, at 362, 20
So. 2d 519, 522 (Ala. 1944). Thus, the mere appearance
of imminent assault may be sufficient to arouse heat of
passion.’

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

47

Petersen v. State, --- So.3d ---- (2019)

“Cox v. State, 500 So. 2d 1296, 1298 (Ala. Crim. App.
1986). ‘What constitutes legal provocation is left to the trial
judge's interpretation.’ Gray v. State, 574 So. 2d 1010, 1011
(Ala. Crim. App. 1990) (citing Shultz v. State, 480 So. 2d
73, 76(Ala. Crim. App. 1985) ).”
Spencer, 201 So.3d at 596-97. “In addition, provocation has
been defined as that treatment by another which arouses anger
or passion, which produces in the minds of persons ordinarily
constituted the highest degree of exasperation, rage, anger,
sudden resentment, or terror.” Fuller, 231 So. 3d at 1218
(internal quotation marks and citations omitted).

the commission of a burglary. (Petersen's brief, pp. 54-58.)
Finally, he argues that the court erred when it instructed the
jury on manslaughter as the lesser-included offense of capital
murder of two or more persons. Id. These arguments are being
raised for the first time on appeal; thus, they will be reviewed
for plain error. See Rule 45A, Ala. R. App. P.
This Court has recently stated:
“ ‘ “ ‘In setting out the standard for plain error review
of jury instructions, the court in United States v.
Chandler, 996 F.2d 1073, 1085, 1097 (11th Cir. 1993),
cited Boyde v. California, 494 U.S. 370, 380, 110 S.
Ct. 1190, 108 L.Ed. 2d 316 (1990), for the proposition
that “an error occurs only when there is a reasonable
likelihood that the jury applied the instruction in an
improper manner.” Williams v. State, 710 So. 2d 1276,
1306 (Ala. Crim. App. 1996), aff'd, 710 So. 2d 1350
(Ala. 1997).’ ”

In the present case, both witness testimony and security
footage from Teasers showed that Bruce Middleton and Joe
Glow flanked Petersen and held him by his forearms as they
escorted him out of the club on the night of the shootings.
(R. 1204, 1207-08, 1333, 1712, 1828, 1856, 2036-39; State's
Exh. 45, 48-49.) At one point, Petersen stiffened his body and
dropped to make himself dead weight. (R. 2039.) Eubanks
lifted Petersen's feet in an effort to clear the carpeting and
doorway as they took Petersen out of the club. (R. 1208, 1333,
2039-40.) Once they were outside, Petersen was immediately
released and he fell on his backside. (R. 1204, 1207-08, 1333,
1712, 1828, 1856, 2036-39.)
At trial, Petersen argued that he was entitled to a provocation
manslaughter instruction because Middleton, Glow, and
Eubanks “assaulted” him as he was being escorted out of
Teasers. Following a long discussion on this issue, the circuit
court denied Petersen's request for that instruction after
finding that none of the evidence presented at trial indicated
that Petersen had been assaulted or that he had acted in the
heat of passion. (R. 4307-23.) Based on the circumstances
described above, the circuit court did not err in refusing the
instruction. Thus, Petersen is not entitled to relief on this
claim.

“ ‘Broadnax v. State, 825 So. 2d 134, 196 (Ala. Crim.
App. 2000), quoting Pilley v. State, 789 So. 2d 870, 882–
83 (Ala. Crim. App. 1998)[overruled on other grounds,
789 So. 2d 888 (Ala. 2000) ]. Moreover, “[w]hen
reviewing a trial court's jury instructions, we must view
them as a whole, not in bits and pieces, and as a
reasonable juror would have interpreted them. Ingram v.
State, 779 So. 2d 1225 (Ala. Crim. App. 1999).” Johnson
v. State, 820 So. 2d 842, 874 (Ala. Crim. App. 2000).’
“Snyder v. State, 893 So. 2d 488, 548 (Ala. Crim. App.
2003). See also Maples v. State, 758 So. 2d 1, 65 (Ala.
Crim. App.), aff'd, 758 So. 2d 81 (Ala. 1999).”
Henderson v. State, 248 So. 3d 992, 1005 (Ala. Crim. App.
2017). With these legal principles in mind, we now address
Petersen's arguments on appeal.

A.
XVI.30
*58 Next, Petersen argues that the circuit court erred by
improperly instructing the jury on intoxication and lesserincluded offenses. (Petersen's brief, pp. 51-58.) Specifically
he argues that the court's instruction on intoxication
erroneously shifted the burden of proof from the State to
him. (Petersen's brief, pp. 52-54.) He further argues that the
court erred when it instructed the jury that no lesser-included
offense was available for capital murder committed during

First, Petersen argues that the court's instruction on voluntary
and involuntary intoxication “directed the jury to first decide
whether [he] established that he was intoxicated, when in
fact he only had to inject the issue.” (Petersen's brief, p. 53.)
According to Petersen, the State had the “burden of proving
beyond a reasonable doubt that [he] was neither voluntarily
or involuntarily intoxicated in order to convict him of capital
murder,” but the court's instruction shifted that burden to him.
Id.

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

48

Petersen v. State, --- So.3d ---- (2019)

As best we can discern, in his brief Petersen challenges the
following excerpts from the circuit court's jury instructions:
“[THE COURT:] So, you need to look--I would suggest
you look, first, was the defendant voluntarily intoxicated.
Okay? We're all adults. And I'm not commenting on
the evidence. The mere fact that someone may drink
something alcoholic or take a medication or illegal drug
does not automatically mean the person is intoxicated. We
all understand that as adults. So, that's going to be your
first issue to look at. If you determine that he was not
intoxicated, voluntarily intoxicated, you don't need to look
any more at this issue.”
(R. 4415.)
“[THE COURT:] So, the first thing you would need to look
at--it's just like the voluntary intoxication on this point.
First, was he involuntarily intoxicated. Okay? Just because
there's some substance in your system doesn't mean you're
intoxicated. So, you need to reach that threshold issue
first.”
(R. 4422.)
“[THE COURT:] A person may become involuntarily
intoxicated by introducing into his body any substance or
substances which impair or disturb his mental or physical
capabilities in any of the following ways. These are ors, not
ands. There's three. There's three ways our law recognizes
that a person may become involuntarily intoxicated. And
this really goes to the involuntary issue.
*59 “First, either inadvertently, as by accident, or without
knowing the nature or tendencies of the substance. Or, a
second way, as a result of being deceived or tricked into
doing so by fraud, artifice or guile. Or, three--there's a third
way. And these are not exclusive. It can be any one or a
combination. As a result of being forced to do so himself
or of the substance being forcibly introduced into his body
without his consent.
“So, first, determine is he intoxicated. If not, you don't even
need to reach any further issues.”
(R. 4423.)
“[THE COURT:] So, on the issue of involuntary
intoxication, you should look at, is the defendant
involuntarily intoxicated. It's just to summarize. If yes,
was it to a degree that the defendant--that the defendant
could not either appreciate the criminality of his conduct
or conform his conduct to the requirements of law. If the

answer is yes, you would return not guilty verdicts. There
are no lesser included offenses.”
(R. 4426.) The State argues on appeal, however, that the
circuit court “explicitly instructed the jury throughout its
charge on intoxication that the State carried the burden of
proof and repeatedly instructed the jury that it was the State's
burden to establish that Petersen was not intoxicated.” (State's
brief, p. 32.) We agree with the State.
The record on appeal indicates that the circuit court gave the
following instructions to the jury concerning intoxication:
“[THE COURT:] All right. Let's start looking at some of
the defenses that have been raised. Voluntary intoxication.
We're going to look at voluntary and involuntary
intoxication.
“First, voluntary. That's just what it means. Our law
states that voluntary intoxication is not a defense to
any criminal charge. However, evidence of intoxication,
whether voluntary or involuntary, shall be considered
whenever it is relevant to negate an element of the offense
charged. In this case, the element is intent.
“So, voluntary intoxication is not typically what you would
think of as a defense, like self-defense. Rather, it's a specific
commentary on that issue of intent. Okay. The State must
always prove specific criminal intent in these charges. So, if
a person is voluntarily intoxicated, even though that's not a
defense, but if you find it was at a degree that it negated the
defendant's ability to form specific intent, that is a failure of
an element of a charge. That is a failure to prove an element
beyond a reasonable doubt.
“So, voluntary intoxication is intoxication caused by
substances--it can be alcohol, drugs, medication or other
substances or any combination of those--that the defendant
knowingly introduces into his body, the tendency of which
is to cause intoxication he knows or ought to know.
“The burden of proof is on the State to prove all elements
of an offense, including intent beyond a reasonable doubt.
So, the defense does not have to prove to you that he was
voluntarily intoxicated to a degree that it negated his intent.
Rather, the State must prove to you beyond a reasonable
doubt the defendant was not voluntarily intoxicated to a
degree that it negated intent. Okay.
“The defendant carries no burden of proof. Rather, when
the issue is raised, the State must prove the defendant's
criminal intent beyond a reasonable doubt, which would

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

49

Petersen v. State, --- So.3d ---- (2019)

include that the defendant was not voluntarily intoxicated
to a degree that criminal intent is negated.
“Voluntary intoxication sufficient or to a degree that
negates criminal intent will not result in a not guilty verdict.
Rather, it will reduce an offense, when appropriate, to a
reckless mental state offense.
*60 “So, that's going to be--start our lesser included
offenses. It will reduce the charge if you find that the
State has not proven to you beyond a reasonable doubt
the element of intent. And that could include whether
or not they've proven to you beyond a reasonable doubt
that he was not voluntarily intoxicated to a degree that
it negated intent. It could reduce the charges to lesser
included offenses.

the defendant did not lack capacity due to involuntary
intoxication.”
(R. 4424-25.)
In reviewing the above instructions as a whole, it is clear to
this Court that the circuit court explicitly instructed the jury
throughout its charges on intoxication that the State carried
the burden of proof. The court also repeatedly told the jury
that it was the State's burden to establish that Petersen was
not intoxicated. “[A]n appellate court presume[s] that the jury
follows the trial court's instructions unless there is evidence
to the contrary.” Thompson v. State, 153 So. 3d 84, 158
(Ala. Crim. App. 2012) (internal quotation marks and citation
omitted). Thus, Petersen's argument is meritless, and he is not
entitled to relief.

“So, you need to look--I would suggest you look, first,
was the defendant voluntarily intoxicated. Okay? We're all
adults. And I'm not commenting on the evidence. The mere
fact that someone may drink something alcoholic or take a
medication or illegal drug does not automatically mean the
person is intoxicated. We all understand that as adults. So,
that's going to be your first issue to look at. If you determine
that he was not intoxicated, voluntarily intoxicated, you
don't need to look any more at this issue.

Petersen also briefly argues that the jury's note to the
court during deliberations was evidence that the court's
instruction shifted the burden of proof. (Petersen's brief, p.
53.) Specifically, he claims that the following statement from
the jury indicates that the instruction shifted the burden:
“There is no defense from intoxication or insanity.” (C. 1976;
R. 4462.) We note, however, that the record indicates that this
is merely an excerpt from that note. The note, in its entirety,
stated:

“But, if he was, the second inquiry would be, was it,
the voluntary intoxication, sufficient or to a degree that
it negated his criminal intent. So, then, if your answer is
no to that, then you need to move on to the other issues
that we're discussing. You don't need to look at this issue
any further. But, if you find that it was sufficient to negate
criminal intent, then you need to look at the lesser included
offenses.”
(R. 4412-16.)

“We have unanimous agreement on attempted murder
and capital murder, all counts. There is no defense from
intoxication or insanity. One jury member feels a need for
reassurance that we have not overlooked any issue.”
*61 (C. 1976.) Contrary to Petersen's assertion here, the note
does not reflect that the jury had difficulty with the court's
instruction or that it used that instruction to shift the burden
from the State to the defendant on the intoxication defense.
No plain error occurred with the challenged instruction, and
Petersen is not entitled to relief.

“[THE COURT:] Again, the burden is not on the defense
to prove this or disprove it. Rather, it's on the State to prove
to you beyond a reasonable doubt that he was not suffering
from involuntary intoxication, or that if he was, that he was
nonetheless able to appreciate the crimina--appreciate the
criminality of his conduct and to conform his conduct to
the requirements of law.”
(R. 4422.)
“[THE COURT:] When a person--excuse me. When a
defense of involuntary intoxication is raised by a defendant,
in addition to the elements of the crime, the burden of proof
remains on the State to prove beyond a reasonable doubt

B.
Second, Petersen argues that, because there was evidence of
intoxication, the trial court was required to instruct the jury on
lesser-included offenses for every count charged. (Petersen's
brief, p. 54.) According to Petersen, the circuit court instead
issued improper instructions that were “wrong as a matter of
law and did not permit consideration of the lesser included
offenses for the offenses charged.” Id. Petersen points to two
specific instances in which he says this occurred.

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

50

Petersen v. State, --- So.3d ---- (2019)

under this, because burglary is a specific intent crime
without any reckless version as a lesser.”
(R. 4445-47.)

1.
First, he contends that, when the court instructed the jury
on the counts charging murder made capital because it was
committed during a burglary, it erroneously “instructed the
jury that there was no lesser included offense for capital
murder during the course of a burglary.” (Petersen's brief, p.
54.) According to Petersen, contrary to the court's instruction,
“there are lesser included offenses for capital murder in the
course of a burglary, including reckless manslaughter and
criminal trespass.” (Petersen's brief, p. 55.) Petersen contends
that the court's failure to give instructions on those lesserincluded offenses was plain error. Id.
The record on appeal indicates that the court gave the
following instructions with regard to the capital murderburglary charges in the indictment:
“There are no lesser-included offenses for capital murder
during a burglary in the second degree, because there
is no reckless way to commit burglary in the second
degree. There is a reckless way to commit homicide. That's
manslaughter. But there is no reckless way to commit a
burglary in the second degree.”
(R. 4417.) The court also gave the following instructions:
“Now, then, the capital murder during the commission
of a burglary in the second degree, those charges read
identically. The law is the same on all of them. The
distinction is there is one count for each of the alleged
victims. So, I'm not going to read you all three of these,
okay, because they're all three identical. But, again, they
need to stand on their own merits or lack thereof, as well.
And, again, on these, I've put the victims' names up by the
case numbers at the top, so that you and I will both know,
in the event you split verdicts, what the verdicts are.
“So, we've got Cameron Paul Eubanks on one set of verdict
forms. Tiffany Paige Grissett on one set of verdict forms,
and then Thomas B. Robins on the others. So, if you
believe, on any or all or a combination of these individuals,
that the offense of capital murder during the commission
of burglary in the second degree has been proven beyond
a reasonable doubt, and there is no applicable defense
to it, your verdict would read, we, the jury, find the
defendant, Ryan Clark Petersen, guilty of capital murder
during burglary in the second degree as charged in the
indictment. Remember, there's no lesser included offenses

This Court has recently stated:
“ ‘ “A person accused of the greater offense has a right
to have the court charge on lesser included offenses when
there is a reasonable theory from the evidence supporting
those lesser included offenses.” MacEwan v. State, 701 So.
2d 66, 69 (Ala. Crim. App. 1997). An accused has the
right to have the jury charged on “ ‘any material hypothesis
which the evidence in his favor tends to establish.’ ” Ex
parte Stork, 475 So. 2d 623, 624 (Ala. 1985). “[E]very
accused is entitled to have charges given, which would not
be misleading, which correctly state the law of his case, and
which are supported by any evidence, however[ ] weak,
insufficient, or doubtful in credibility,” Ex parte Chavers,
361 So. 2d 1106, 1107 (Ala. 1978), “even if the evidence
supporting the charge is offered by the State.” Ex parte
Myers, 699 So. 2d 1285, 1290–91 (Ala. 1997), cert. denied,
522 U.S. 1054, 118 S. Ct. 706, 139 L.Ed. 2d 648 (1998).
However, “[t]he court shall not charge the jury with respect
to an included offense unless there is a rational basis for a
verdict convicting the defendant of the included offense.”
§ 13A–1–9(b), Ala. Code 1975. “The basis of a charge on a
lesser-included offense must be derived from the evidence
presented at trial and cannot be based on speculation or
conjecture.” Broadnax v. State, 825 So. 2d 134, 200 (Ala.
Crim. App. 2000), aff'd, 825 So. 2d 233 (Ala. 2001), cert.
denied, 536 U.S. 964, 122 S. Ct. 2675, 153 L.Ed. 2d 847
(2002). “ ‘A court may properly refuse to charge on a
lesser-included offense only when (1) it is clear to the
judicial mind that there is no evidence tending to bring the
offense within the definition of the lesser offense, or (2)
the requested charge would have a tendency to mislead or
confuse the jury.’ ” Williams v. State, 675 So. 2d 537, 540–
41 (Ala. Crim. App. 1996), quoting Anderson v. State, 507
So. 2d 580, 582 (Ala. Crim. App. 1987).’
*62 “Clark v. State, 896 So. 2d 584, 641 (Ala. Crim. App.
2003).”
Floyd, ––– So. 3d at ––––. Thus, we must determine
whether, under the circumstances of this case, there exists a
“rational basis for a verdict convicting” Petersen of reckless
manslaughter or criminal trespassing as a lesser-included
offense of capital murder.
In the present case, the evidence adduced at trial established
that Petersen killed Cameron Eubanks, Tiffany Grissett, and

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

51

Petersen v. State, --- So.3d ---- (2019)

Thomas Robins. Additionally, the evidence showed that
Petersen unlawfully entered Teasers and that he intentionally
and unlawfully shot those victims with his own handgun,
which ultimately led to their deaths. Based on this evidence,
there was no rational basis for convicting Petersen of the
lesser-included offense of reckless manslaughter or criminal
trespass, and a charge on those offenses would have served
only to confuse or mislead the jury.
Additionally, this Court has previously stated that where,
as here, the acts resulting in death are specifically directed
to one or more particular persons, a reckless-murder charge
is not applicable. See, e.g., Walker v. State, 523 So. 2d
528, 538 (Ala. Crim. App. 1988). The evidence adduced
at trial established that Petersen targeted the victims in
this case. Specifically, the evidence showed that Petersen
targeted Cameron Eubanks because Eubanks worked as the
doorperson that night at the club and had assisted Bruce
Middleton and Joe Glow in escorting Petersen out of Teasers
and that Petersen was angry that they had “disrespected”
him. (R. 1164, 1204, 1208, 1333, 2265.) Next, the evidence
showed that Petersen targeted Tiffany Grissett when he went
into the club, saw Grissett, and stated, “All right bitch. Now
it's your turn,” and then followed her into the women's
restroom where he shot her. (R. 1731, 2106, 2110, 2450.)
Finally, the evidence established that Petersen likely targeted
and killed his third and final victim, Thomas “Rocky” Robins
because he resembled Bruce Middleton. (R. 2067, 2051,
2112-13.) Because the above evidence indicates that Petersen
targeted the victims and that his actions were directed toward
those he believed were involved in removing him from the
nightclub, there was nothing to support a charge of reckless
murder as a lesser-included offense. See Gavin v. State, 891
So. 2d 907, 979 (Ala. Crim. App. 2003). Thus, Petersen is not
entitled to relief on this claim.

2.
Second, Petersen asserts that the circuit court erroneously
instructed the jury to consider manslaughter as a lesserincluded offense of the charge of murder made capital because
two or more persons were murdered by one act or pursuant
to one scheme or course of conduct, see § 13A-5-40(a)(10),
Ala. Code 1975. (Petersen's brief, pp. 54-55.) According to
Petersen, manslaughter is not a lesser-included offense for
that capital offense and, thus, reversible error occurred. Id.

Before releasing the jury for deliberations, the circuit court
gave the following instruction with regard to the charge of
murder made capital because two or more persons were
murdered by one act, scheme, or course of conduct, see §
13A-5-40(a)(10), Ala. Code 1975:
*63 “For the murder charge of capital murder of two or
more persons, that lesser included offense would be the
crime of manslaughter. The crime of manslaughter.
“If you find that the intoxication does negate criminal
intent, you would have to find him not guilty. There are
no lesser included offenses for capital murder during a
burglary in the second degree, because there is no reckless
way to commit burglary in the second degree. There is a
reckless way to commit homicide. That's manslaughter. But
there is no reckless way to commit a burglary in the second
degree. So, he would be acquitted of those charges. But
you could consider the manslaughter on the multiple people
killed charge.”
(R. 4416-17.)
In the present case, Petersen was charged with capital murder
under § 13A-5-40(a)(10), Ala. Code 1975, which reads as
follows:
“(10) Murder wherein two or more persons are murdered
by the defendant by one act or pursuant to one scheme or
course of conduct;”
With regard to “murder,” as that word is used in Alabama's
capital-murder statute, § 13A-5-40(b), Ala. Code 1975,
provides as follows:
“Except as specifically provided to the contrary in the
last part of subdivision (a)(13) of this section, the terms
‘murder’ and ‘murder by the defendant’ as used in this
section to define capital offenses mean murder as defined
in Section 13A-6-2(a)(1), but not as defined in Section
13A-6-2(a)(2) and (3). Subject to the provisions of Section
13A-5-41, murder as defined in Section 13A-6-2(a)(2) and
(3), as well as murder as defined in Section 13A-6-2(a)
(1), may be a lesser included offense of the capital offenses
defined in subsection (a) of this section.”
A defendant is guilty of manslaughter when “[h]e recklessly
causes the death of another person[.]” § 13A-6-3(a)(1), Ala.
Code 1975. Finally, § 13A-5-41, Ala. Code 1975, provides as
follows:
“Subject to the provisions of Section 13A-1-9(b), the jury
may find a defendant indicted for a crime defined in
Section 13A-5-40(a) not guilty of the capital offense but

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

52

Petersen v. State, --- So.3d ---- (2019)

guilty of a lesser included offense or offenses. Lesser
included offenses shall be defined as provided in Section
13A-1-9(a), and when there is a rational basis for such a
verdict, include but are not limited to, murder as defined in
Section 13A-6-2(a), and the accompanying other felony, if
any, in the provision of Section 13A-5-40(a) upon which
the indictment is based.”
Petersen cites Stoves v. State, 238 So. 3d 681, 686 (Ala. Crim.
App. 2017), in support of his argument here. The State notes,
and we agree, that his reliance on that case is misplaced. As
the State notes, in Stoves this Court reversed the defendant's
manslaughter conviction on the ground that it violated the
Double Jeopardy Clause because Stoves “was also convicted
of five separate counts of felony murder pertaining” to the
same victims. Stoves, 238 So. 3d at 688. This Court did not
hold in Stoves that manslaughter cannot be a lesser-included
offense of the capital murder of two or more persons.
The State argues that manslaughter can be considered a
lesser-included offense of capital murder of two or more
persons because the manslaughter statute requires the killing
of only one victim. (State's brief, p. 38.) The State contends,
therefore, that the circuit court properly instructed the jury on
manslaughter as a lesser-included offense. We need not decide
that issue here because, even if the circuit court was incorrect
in instructing the jury on that offense, any such error was
harmless in this case. Rule 45, Ala. R. App. P., the harmlesserror rule, provides:
*64 “No judgment may be reversed or set aside, nor new
trial granted in any civil or criminal case on the ground of
misdirection of the jury, ... nor for error as to any matter
of pleading or procedure, unless in the opinion of the court
to which the appeal is taken or application is made, after
an examination of the entire cause, it should appear that
the error complained of has probably injuriously affected
substantial rights of the parties.”
Here, the jury-verdict form indicates that Petersen was found
guilty of murder made capital because two or more persons
were murdered by one act or pursuant to one scheme or
course of conduct, see § 13A-5-40(a)(10), Ala. Code 1975,
“as charged in the indictment.” (C. 49, 488.) Although the
jury could have considered manslaughter as a lesser-included
offense as instructed by the circuit court, it rejected that option
and, instead, found Petersen guilty of the greater-charged
offense. Thus, any error in the circuit court's instructions as
to lesser-included offenses was harmless, and Petersen is not
entitled to relief.

XVII.31
Petersen contends that the State engaged in prosecutorial
misconduct by, he says, misstating the law and misleading
the jury during his capital-murder trial in four instances.
(Petersen's brief, p. 91-93.) Petersen did not object to any of
these alleged instances of prosecutorial misconduct at trial;
thus, we review these claims for plain error. See Rule 45A,
Ala. R. App. P.
It is well settled that “ ‘[t]o constitute error a prosecutor's
argument must have ‘so infected the trial with unfairness as
to make the resulting [verdict] a denial of due process.’ ”
Hutcherson v. State, 243 So. 3d 855, 869 (Ala. Crim. App.
2017) (quoting Darden v. Wainwright, 477 U.S. 168, 181, 106
S. Ct. 2464, 91 L.Ed. 2d 144 (1986) ).
“ ‘Questions of the propriety of argument of counsel are
largely within the trial court's discretion, McCullough v.
State, 357 So. 2d 397, 399 (Ala. Cr. App. 1978), and
that court is given broad discretion in determining what is
permissible argument. Hurst v. State, 397 So. 2d 203, 208
(Ala. Cr. App.), cert. denied, 397 So. 2d 208 (Ala. 1981).
Moreover, this Court has stated that it will not reverse
unless there has been an abuse of discretion. Miller v. State,
431 So. 2d 586, 591 (Ala. Cr. App. 1983).
“ ‘....
“ ‘... In reviewing allegedly improper prosecutorial
comments, conduct, and questioning of witnesses, the task
of this Court is to consider their impact in the context of
the particular trial, and not to view the allegedly improper
acts in the abstract. Whitlow v. State, 509 So. 2d 252, 256
(Ala. Cr. App. 1987); Wysinger v. State, 448 So. 2d 435,
438 (Ala. Cr. App. 1983); Carpenter v. State, 404 So. 2d 89,
97 (Ala. Cr. App. 1980), cert. denied, 404 So. 2d 100 (Ala.
1981). Moreover, this Court has also held that statements of
counsel in argument to the jury must be viewed as delivered
in the heat of debate; such statements are usually valued
at their true worth and are not expected to become factors
in the formulation of the verdict. Orr v. State, 462 So. 2d
1013, 1016 (Ala. Cr. App. 1984); Sanders v. State, 426 So.
2d 497, 509 (Ala. Cr. App. 1982).’ ”
Ivery v. State, 686 So. 2d 495, 504 (Ala. Crim. App. 1996)
(quoting Bankhead v. State, 585 So. 2d 97, 105-07 (Ala.
Crim. App. 1989) ). “A prosecutor may argue in closing any
evidence that was presented at trial. He may also present his
impressions from the evidence. He may [even] argue every

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

53

Petersen v. State, --- So.3d ---- (2019)

matter of legitimate inference and may examine, collate, sift,
and treat the evidence in his own way.” Williams v. State, 627
So. 2d 994, 995 (Ala. Crim. App. 1992). Finally, a prosecutor
may comment on the lack of defense evidence, ask the jury to
draw inferences from the evidence presented, and comment
on the strength of the State's case. McWhorter v. State, 781
So. 2d 257, 321 (Ala. Crim. App. 1999). With these legal
principles in mind, we address each of the incidents of alleged
prosecutorial misconduct identified by Petersen.
*65 First, Petersen contends that, during the guilt phase of
his capital-murder trial, prosecutor Douglas Valeska made
an erroneous statement of law during his opening statement
when he said:
“You'll hear his history from the time he was young, when
he first started drinking alcohol, ‘til he goes through the
school system. And what you'll hear, that Ryan Clark
Petersen has some issues. Because, remember, he's not
guilty by mental disease or defect.
“Well, the law is it's severe. Not just the mental disease
or defect. And bipolar, which I expect the evidence that
he has, is not a severe mental disease or defect that would
prevent him from knowing the difference from right or
wrong or appreciating the criminality of his actions that
night at Teasers.”
(Petersen's brief, p. 91, quoting R. 1029-30.) Petersen further
contends that District Attorney Valeska made an additional
erroneous statement of law in his closing statement during the
guilt phase of his capital-murder trial when he said:
“Dr. McKeown's report. What did he tell you? Let me read
what Dr. McKeown--you'll have this report. Remember I
introduced it into evidence? You remember.
“It says, ‘While the mental health issues are reportedly in
existence and he is currently taking medications consistent
with a mood disorder for bipolar, there is not an indication
during the time frame in question his behavior, his thinking,
his judgment or his decision making was impaired as to the
extent that he would have lacked the ability to appreciate
the nature and quality of his actions and behavior during
the time frame to a severe mental disease or defect.’ ”
(Petersen's brief, p. 91, citing R. 4376-77.) According to
Petersen, both of those statements misstate the law concerning
mental illnesses in Alabama because, he says, under Alabama
law, bipolar disorder can provide a basis for an insanity
defense. (Petersen's brief, p. 91, citing Sasser v. State, 387 So.

2d 237, 239-40 (Ala. Crim. App. 1980), and Russell v. State,
45 So. 3d 779, 787 (Ala. Crim. App. 2010).)
Contrary to Petersen's argument here, the statements made
by District Attorney Valeska during his opening and closing
statements were not improper. A prosecutor can present his
own impressions that he develops based on the evidence, see
Williams v. State, 627 So. 2d 994, 995 (Ala. Crim. App.
1992), and Petersen's claim fails to demonstrate how these
statements “so infected the trial with unfairness as to make
the resulting [verdict] a denial of due process.” Hutcherson,
243 So. 3d at 869.
Second, Petersen argues that the prosecutor misled and
confused the jury when, during his opening statement,
he made the following comments concerning the jury's
determination of Petersen's level of intoxication on the night
of the shootings:
“And there will be some evidence they say, yeah, he
was drunk, yeah, he had speech slurred, yeah, whatever.
Okay. Well, what's your terminology of drunk? But, let
me jump to what Judge Mendheim--I expect the evidence
to be voluntary intoxication, once again, negate murder to
manslaughter. Excuse the expression. It ain't a drink or two.
You have to consume enough that you can't form an intent
in any way. Basically, you've got to be in what? A drunken
stupor.”
*66 (R. 1054.) He further argues that the prosecutor's
repeated use of the phrase “drunken stupor” when asking
witnesses to gauge the level of Petersen's intoxication on
the night of the shootings confused and misled the jury.
(Petersen's brief, p. 92, citing R. 1191, 1393, 1460, 1727,
1831, 2003, 2006, 2083, and 2091.) Specifically, Petersen
contends that using that terminology erroneously led the jury
to believe that Alabama law requires an intoxication defense
to rise to the level of a “drunken stupor” in order to negate
intent and result in an acquittal. Id.
After reviewing these questions in the context of the record,
we disagree with Petersen's argument. If anything, those
statements and questions were formulated based on District
Attorney Valeska's own permissible impressions that he
developed based on the evidence. See Williams v. State, 627
So. 2d 994, 995 (Ala. Crim. App. 1992). Moreover, the record
indicates that the circuit court told the jury that statements
or questions made by the prosecution were not evidence and
even gave the following instruction concerning intoxication:

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

54

Petersen v. State, --- So.3d ---- (2019)

“Intoxication includes a disturbance of mental or physical
capacities resulting from the introduction of any substance
or substances into the body. Intoxication, whether
voluntary or involuntary, does not constitute a mental
disease or defect or insanity. That's a separate defense.”
(R. 4425.) “[A]n appellate court presumes that the jury
follows the trial court's instructions unless there is evidence
to the contrary.” Thompson, 153 So. 3d at 158 (internal
quotations and citation omitted). It is presumed that the
jury applied the correct standard regarding intoxication in
rendering its verdict, and, thus, it cannot be said that the
prosecutor's use of that phrase “so infected the trial with
unfairness as to make the resulting [verdict] a denial of due
process.” Hutcherson, 243 So. 3d at 869.
Third, Petersen argues that the prosecutor “improperly
invoked differences between [his] appearance at trial and [his]
appearance at the time of the shooting and arrest as evidence
of guilt, ... violating his right to remain silent.” (Petersen's
brief, p. 92.) Petersen's argument here fails to satisfy the
requirements of Rule 28(a)(10), Ala. R. App. P.
This rule requires that an argument contain “the contentions
of the appellant/petitioner with respect to the issues presented,
and the reasons therefor, with citations to the cases, statutes,
other authorities, and parts of the record relied on.” Rule 28(a)
(10), Ala. R. App. P. “When an appellant fails to cite any
authority for an argument on a particular issue, this Court may
affirm the judgment as to that issue, for it is neither this Court's
duty nor its function to perform an appellant's legal research.”
City of Birmingham v. Business Realty Inv. Co., 722 So. 2d
747, 752 (Ala. 1998).
Petersen's argument here is nothing more than a
bare allegation. He fails to present any legal analysis
demonstrating how the prosecutor's statements constitute
plain error. Thus, he has failed to satisfy his duty to provide
this Court with a sufficient argument under Rule 28(a)(10),
Ala. R. App. P.
Moreover, even if he had complied with the requirements of
Rule 28(a)(10), Ala. R. App. P., nothing in the record before
us indicates that the prosecutor's comments “so infected the
trial with unfairness as to make the resulting [verdict] a denial
of due process.” Hutcherson, 243 So. 3d at 869 (internal
quotations marks and citation omitted). Thus, no plain error
exists that would entitle Petersen to relief on this claim.

*67 Finally, Petersen argues that, during voir dire, the
prosecutor repeatedly told the jury that it need not consider
evidence of mitigating circumstances in rendering its verdict.
(Petersen's brief, p. 92, citing R. 434, 436-37.) The record on
appeal, however, contradicts Petersen's argument.
During voir dire, the prosecutor made the following
statements to the jury with regard to its consideration of
mitigating evidence:
“[T]he jury has the right, and they have to--you have to-you not may--you have to consider any mitigation the
defense puts on. Once again, I say, you know, you just can't
not consider it. You have to listen to it and hear it. But it
doesn't mean you have to accept it. It just says you have to
listen. Okay?
“....
“But you have to listen to what they put on. But just because
they put it on does not mean that you have to accept it. They
can put on mitigating factors, and it's the State's job and
responsibility to disprove them by a preponderance.”
(R. 434, 436-37.) Based on the excerpts quoted above, it is
clear that the prosecution did not tell the jury it could not
consider any evidence of mitigating circumstances offered by
the defense. It cannot be said that the prosecutor's statements
during voir dire “so infected the trial with unfairness as
to make the resulting [verdict] a denial of due process.”
Hutcherson, 243 So. 3d at 869.
Petersen has failed to demonstrate how any of the incidents
discussed above constituted prosecutorial misconduct. Thus,
he is not entitled to relief on this claim.

XVIII.32
Petersen contends that the circuit court erred in failing to
grant his motion for a judgment of acquittal. (Petersen's
brief, p. 94.) Specifically, he argues that the State failed
to prove that he killed Cameron Eubanks “during” the
commission of a second-degree burglary offense as required
by § 13A-5-40(a)(4), Ala. Code 1975, as charged in the
indictment against Petersen. Id. As a result, Petersen contends
that his rights to due process, a fair trial, and a reliable
sentencing determination as guaranteed by the Fifth, Sixth,
Eighth, and Fourteenth Amendments to the United States
Constitution and Alabama law were violated. Id.

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

55

Petersen v. State, --- So.3d ---- (2019)

Generally, “[w]e review a trial court's denial of a motion for
a judgment of acquittal by determining whether there existed
legal evidence before the jury at the time the motion was made
from which the jury, by fair inference, could have found the
defendant guilty beyond a reasonable doubt.” Mims v. State,
816 So. 2d 509, 512 (Ala. Crim. App. 2001). It is well settled:
“ ‘In determining the sufficiency of the evidence to sustain
the conviction, this Court must accept as true the evidence
introduced by the State, accord the State all legitimate
inferences therefrom, and consider the evidence in the light
most favorable to the prosecution.’ Faircloth v. State, 471
So. 2d 485, 489 (Ala. Cr. App. 1984), affirmed, Ex parte
Faircloth, [471] So. 2d 493 (Ala. 1985).
“ ‘....
“ ‘ “The role of appellate courts is not to say what the
facts are. Our role, ... is to judge whether the evidence
is legally sufficient to allow submission of an issue
for decision to the jury.” Ex parte Bankston, 358 So.
2d 1040, 1042 (Ala. 1978). An appellate court may
interfere with the jury's verdict only where it reaches
“a clear conclusion that the finding and judgment are
wrong.” Kelly v. State, 273 Ala. 240, 244, 139 So. 2d 326
(1962).... A verdict on conflicting evidence is conclusive
on appeal. Roberson v. State, 162 Ala. 30, 50 So. 345
(1909). “[W]here there is ample evidence offered by the
state to support a verdict, it should not be overturned
even though the evidence offered by the defendant is
in sharp conflict therewith and presents a substantial
defense.” Fuller v. State, 269 Ala. 312, 333, 113 So. 2d
153 (1959), cert. denied, Fuller v. Alabama, 361 U.S.
936, 80 S. Ct. 380, 4 L.Ed. 2d 358 (1960).’ Granger
[v. State], 473 So. 2d [1137,] 1139 [ (Ala. Crim. App.
1985) ].”
*68 White v. State, 546 So. 2d 1014, 1017 (Ala. Crim. App.
1989).
Petersen was convicted of, among other things, the murder
of Cameron Eubanks, made capital because it was committed
during the commission of a second-degree burglary, see §
13A-5-40(a)(4), Ala. Code 1975. The statute governing that
capital offense provides that the following is a capital offense:
“Murder by the defendant during a burglary in the first
or second degree or an attempt thereof committed by the
defendant.” Alabama law provides that a person commits
second-degree burglary when he

“knowingly enters or remains unlawfully in a building
with intent to commit theft or a felony therein and, if in
effecting entry or while in the building or in immediate
flight therefrom, the person or another participant in the
crime:
“....
“(3) In effecting entry, is armed with a deadly weapon
or dangerous instrument or, while in the building
or in immediate flight from the building, uses or
threatens the immediate use of a deadly weapon or
dangerous instrument against another person. The use
of or threatened use of a deadly weapon or dangerous
instrument does not include the mere acquisition of
a deadly weapon or dangerous instrument during the
burglary.”
§ 13A-7-6(a)(3), Ala. Code 1975.
Petersen argues that the evidence presented by the State
during his capital-murder trial failed to demonstrate that there
was an “entry” because Eubanks was shot and killed while
he was outside Teasers. This Court has previously stated,
however:
“ ‘The common law defined the crime of burglary far more
narrowly than its statutory successor does. Common-law
burglary required a breaking and entering of the dwelling
of another in the nighttime with the intent to commit
a felony. Wayne R. LaFave and Austin W. Scott, Jr.,
Substantive Criminal Law § 8.13 (1986). When Alabama
adopted its current burglary statute, as part of the Alabama
Criminal Code, by Act No. 607, Reg. Session, Ala. Acts
1977, the legislature expanded the crime of burglary
beyond its common-law boundaries, by eliminating most
of the common-law requirements. The requirement of a
“breaking” was one requirement deleted. Perry v. State, 407
So. 2d 183 (Ala. Crim. App. 1981). The State is no longer
required to prove that the defendant broke and entered
the premises. Instead, the strictures of that element have
been replaced with the general requirement of a trespass
on premises through an unlawful entry or an unlawful
remaining.’ ”
Cooper v. State, 912 So. 2d 1150, 1155 (Ala. Crim. App.
2005) (quoting Davis v. State, 737 So. 2d 480, 482-83 (Ala.
1999)(emphasis added) ).
The evidence presented by the State at trial established that,
on the night of the shooting, Petersen was escorted out of

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

56

Petersen v. State, --- So.3d ---- (2019)

Teasers by Cameron Eubanks after the co-owner of the club,
Bruce Middleton, told him to leave. After he was escorted out,
Petersen went to his truck and got his gun. As he approached
the club with his gun, he saw Eubanks walking back into
the club. Petersen approached Eubanks and shot him multiple
times. After being shot, Eubanks “fell in the doorway just
outside the door.” (R. 1491.) Because Petersen had already
been told to leave the club, the fact that he was still on the
property and returned to the entrance of the club was sufficient
to show that he was “unlawfully remaining” on the property
when he killed Eubanks.
*69 Based on the evidence presented above, it is clear
that the State provided sufficient evidence from which the
jury could reasonably and fairly infer that Petersen caused
Eubanks's death after shooting Eubanks while Petersen
remained unlawfully on the premises. Thus, the evidence
presented by the State was sufficient to establish a prima facie
case of capital murder during the commission of a seconddegree burglary and was sufficient for the jury to find Petersen
guilty of that offense beyond a reasonable doubt. Accordingly,
Petersen's motion for a judgment of acquittal was properly
denied.

Penalty-Phase Issues
XIX.33
Petersen argues that the circuit court “erroneously refused to
find as a statutory mitigating circumstance that [his] ability
to appreciate the criminality of his conduct or conform it to
the law was impaired.” (Petersen's brief, p. 76.) Specifically,
Petersen argues that there was “voluminous evidence”
supporting a finding of this mitigating circumstance. Id.
According to Petersen, despite this evidence, the circuit court
“refused” to find that that statutory mitigating circumstance
existed because the jury rejected Petersen's defenses during
the guilt phase. Id. As a result, Petersen says that his Fifth,
Sixth, Eighth, and Fourteenth Amendment rights under the
United States Constitution and Alabama law were violated.
(Petersen's brief, p. 77.)
This Court recently addressed a similar argument and stated:
“Section 13A–5–45(g), Ala. Code 1975, provides that,
‘[w]hen the factual existence of an offered mitigating
circumstance is in dispute, the defendant shall have the
burden of interjecting the issue, but once it is interjected

the state shall have the burden of disproving the factual
existence of that circumstance by a preponderance of the
evidence.’ The United States Supreme Court in Lockett v.
Ohio, 438 U.S. 586, 98 S. Ct. 2954, 57 L.Ed. 2d 973 (1978),
held that a circuit court must consider all evidence offered
in mitigation when determining a capital defendant's
sentence. However, a defendant's proffer of evidence in
support of a mitigating circumstance does not require
the trial court to find that the mitigating circumstance
exists. Rather, the trial court, after considering all proffered
mitigating evidence, has the discretion to determine
whether a particular mitigating circumstance has been
proven. E.g., Carroll v. State, 215 So. 3d 1135 (Ala. Crim.
App. 2015); Albarran v. State, 96 So.3d 131, 213 (Ala.
Crim. App. 2011).”
Largin v. State, 233 So. 3d 374, 424 (Ala. Crim. App. 2015).
During the penalty phase of his capital-murder trial, Petersen
offered the following statutory mitigating circumstances into
evidence: (1) that he had no significant history of prior
criminal activity; (2) that, at trial, evidence was presented
suggesting that he was suffering from extreme mental or
emotional disturbance at the time of the offense; (3) that
his capacity to appreciate the criminality of his conduct
or to conform his conduct to the requirements of law was
substantially impaired because of diagnosed mental illnesses
together with the mixture of psychotropic drugs and alcohol;
and (4) that he was 22 years old at the time of the offense.
(R. 5094-95, see §§ 13A–5–51(1), (2), (6), and (7), Ala. Code
1975.) He also offered the following nonstatutory mitigating
circumstances into evidence: (1) that, despite having been
involuntarily committed to the Department of Mental Health
before purchasing the firearm, Petersen was permitted to
purchase the firearm used in the shooting; (2) that, despite
Petersen having been involuntarily committed, the Coffee
County Sheriff's office negligently issued a concealed-carry
permit to Petersen, which allowed him to legally carry the
gun used in the shooting; and (3) that South Central Alabama
Mental Health Center offered testimony in direct conflict
with Petersen's psychiatrist, who recommended long-term
commitment to the state hospital. (R. 4536-41.)
*70 Contrary to Petersen's argument, the circuit court
considered the above mitigating evidence. In its sentencing
order, the court stated the following:
“The court gives great weight to the mitigating
circumstances regarding Petersen's mental health
conditions, treatment and lack of treatment. The court
finds that the defendant's mental health condition at
the time of the murders, as well as ingestion of

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

57

Petersen v. State, --- So.3d ---- (2019)

alcohol and [dextromethorphan] coupled with his sudden
cessation of his prescribed mental health medications
supports mitigation. While these facts constitute mitigating
circumstances in sentencing, they are insufficient in weight
to outweigh the aggravating circumstances. Despite his
mental health condition and substances in his system, as
well as his sudden cessation of his psychotropic medication
at the time of the murders, Petersen was fully aware of
his actions and he possessed the criminal intent to kill
many people. The jury rejected his insanity defense and
intoxication defenses.
“The court also gives weight as mitigating circumstances
to Petersen's age and his life history prior to the murders.
Petersen's father committed suicide while Petersen was a
young boy. Petersen's mother had a series of unsuitable
men in the home that had a negative influence on Petersen.
In addition, as [a] mitigating circumstance, the court gives
weight to the fact Petersen has no significant criminal
history prior to the murders.
“The court considers all of the mitigating circumstances
found to exist, as well as all facts from trial and sentencing
that may be considered as evidence of mitigating
circumstances. Clark v. State, 896 So. 2d 584 (Ala. Crim.
App. 2000) (“Although the trial court did not list and
make findings as to the existence or nonexistence of each
nonstatutory mitigating circumstance offered by Clark, as
noted above, such a listing is not required, and the trial
court's not making such findings only indicates that the trial
court found the offered evidence not to be mitigating, not
that the trial court did not consider the evidence.”).
“The defense submitted to the court for consideration as
mitigating circumstances, which the court has considered,
the judgment of the Coffee County probate court rejecting
long-term commitment of Petersen to the State of
Alabama for mental health treatment, as well as Coffee
County sheriff's department issuing Petersen a concealed
carry pistol permit shortly before the murders. After
consideration, the court declines to give any weight to
these actions as mitigating circumstances supportive of
a life imprisonment without parole sentence. The lawful
action by an Alabama sheriff to issue a concealed carry
pistol permit cannot mitigate punishment for a person who
subsequently commits a crime. For instance, if a jury finds
a person ‘not guilty’ and the person later commits a crime
deserving death or imprisonment that person cannot seek
mitigation of punishment by arguing that if the jury had
convicted him and he was sentenced to prison earlier he

should receive [a] less severe sanction now for his new
crime. Another example is if a person is convicted but
an appellate court's judgment cannot serve as mitigation.
If the probate court's judgment under the facts of this
case is a mitigating circumstance entitled to weight, it
would be the same as this court recognizing that judicial
judgments, whether judge or jury or appellate, must take
into consideration when entering a judgment whether a
party before it may later commit a capital crime. Such
a recognition would impair honest and unbiased judicial
decision making. Further, neither factually or legally may
court judgments, actions of legislative bodies, or functions
of government officers operate as guarantors as factual
mitigation of punishment for the new crime. Accordingly,
the court declines to give any weight to these requests as
mitigation.
*71 “....
“Nonetheless, this Court's decision is based only upon the
finding that the aggravating circumstances outweighed the
mitigating circumstances.”
(C. 551-53.)
In light of the excerpts from the circuit court's order quoted
above, we find that, although Petersen proffered evidence in
support of the mitigating circumstances he presented during
the penalty phase of his capital-murder trial and the trial
court considered that evidence, it assigned that evidence no
weight. The court acted within its discretion when it found
that the aggravating circumstances presented by the state
substantially outweighed the mitigating circumstances. See
Phillips v. State, [Ms. CR-12-0197, Dec. 18, 2015] ––– So.
3d ––––, –––– (Ala. Crim. App. 2015). Thus, Petersen is not
entitled to relief on this claim.

XX.34
Petersen contends that the circuit court's limiting instruction
on hearsay evidence addressing his level of intoxication on
the night of the offense precluded the jury from considering
that evidence for mitigation purposes. (Petersen's brief, p. 77.)
Specifically, according to Petersen, the court's instructions
that evidence of his intoxication could not be used to
“impeach testimony from the guilt phase” or to “contest”
the finding of guilt effectively precluded consideration of
the evidence altogether and, therefore, conflict with “clear
state and federal law establishing that ‘in capital cases, the

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

58

Petersen v. State, --- So.3d ---- (2019)

sentencing body may not be precluded from considering
any relevant mitigating evidence.’ ” (Petersen's brief, p. 78
(quoting Roberts v. State, 735 So. 2d 1244. 1265 (Ala. Crim.
App. 1997) and Eddings v. Oklahoma, 455 U.S. 104, 113-14
(1982) ).) He further contends that, because it was his burden
to prove that mitigating circumstances existed during the
penalty phase of his capital-murder trial, he should have been
permitted to discuss his level of intoxication on the night of
the offense. (Petersen's brief, pp. 78-79.) Petersen did not
raise this claim below; thus, it is subject to plain-error review.
See Rule 45A, Ala. R. App. P.

evidentiary part of this phase, that the State is unable to
prove that it is factually inaccurate by a preponderance of
the evidence, then it is a mitigating circumstance that you
must consider. But, again, I'm not commenting or telling
you what weight to give the circumstance. But it will be
submitted to you with that understanding. Okay.”
(R. 4546-48.) When the defense continued to argue about the
statements made by law-enforcement officers during the guilt
phase of Petersen's capital-murder trial concerning Petersen's
level of intoxication, the State objected again. (R. 4548.) The
circuit court then gave the following instruction:

The record reveals that, during his opening statement
at the penalty phase of Petersen's capital-murder trial,
Petersen's defense counsel stated that testimony given by lawenforcement officials during the guilt phase of Petersen's trial
was false and counsel noted that he had newspaper articles
containing statements indicating that Petersen was intoxicated
at the time of his arrest. (R. 4543-46.) The State objected
to the statements from those articles concerning Petersen's
intoxication that night on the basis that those statements
constituted inadmissible hearsay. (R. 4544-45.)

“Again, make sure I'm clear. It's not admitted for them
to attempt to impeach testimony from the guilt phase of
the trial. It can't be used for that purpose. You've already
determined by lawful evidence that this Court admitted
beyond a reasonable doubt the defendant is guilty. That
cannot be contested by either side any further. That has
been determined.

Following a discussion outside of the presence of the jury,
the circuit court gave the jury the following instruction with
regard to its consideration of that evidence:
“Ladies and gentlemen. I'll let--I'll allow the defense to
submit to you as a mitigating circumstance an issue that
was purportedly reported in some news outlets shortly after
this offense, [re]porting that the sheriff's office believed
that it was--there was alcohol involved in some way. The
report will speak for itself. That is hearsay. The State,
during the guilt phase, through some of its officers, denied
the accuracy of those news reports.
“In the--in this phase, for mitigating circumstances,
hearsay is permissible for a jury to consider not for an
aggravating circumstance, but they can for a mitigating
circumstance. So, that's what it's offered for.
*72 “But, again, I want to remind you that the State does
have the right to contest the factual validity of this report
or these reports. But the burden of proof will be on them
to disprove that it's factually accurate by a preponderance
of the evidence.
“If you conclude by a preponderance of the evidence that
it's factually inaccurate, then you cannot consider it as a
mitigating circumstance. But if you find, during the actual

“The only purpose it can be used for is a mitigating
circumstance to justify a sentence of life without parole as
opposed to the death sentence. It would not be properly
considered as impeachment of other witness[es'] testimony
at trial.”
(R. 4548-49.)
Petersen contends that the above-quoted instruction
erroneously prevented the jury from considering his level of
intoxication as a potential mitigating circumstance during the
penalty phase. We disagree.
Section 13A–5–45(g), Ala. Code 1975, provides:
“The defendant shall be allowed to offer any mitigating
circumstance defined in Sections 13A–5–51 and 13A–5–
52. When the factual existence of an offered mitigating
circumstance is in dispute, the defendant shall have the
burden of interjecting the issue, but once it is interjected
the state shall have the burden of disproving the factual
existence of that circumstance by a preponderance of the
evidence.”
Additionally,
“in Lockett v. Ohio, 438 U.S. 586, 604, 98 S. Ct. 2954,
57 L.Ed. 2d 973 (1978), the United States Supreme Court
held ‘that the Eighth and Fourteenth Amendments require
that the sentencer, in all but the rarest kind of capital case,
not be precluded from considering as a mitigating factor,
any aspect of a defendant's character or record and any of

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

59

Petersen v. State, --- So.3d ---- (2019)

the circumstances of the offense that the defendant proffers
as a basis for a sentence less than death.’ Additionally, in
Ex parte Smith, [Ms. 1010267, March 14, 2003] ––– So.2d
–––– (Ala. 2003), the Alabama Supreme Court, discussed
mitigating circumstances in the context of a capital case as
follows:
“ ‘To determine the appropriate sentence, the sentencer
must engage in a “broad inquiry into all relevant mitigating
evidence to allow an individualized determination.”
Buchanan v. Angelone, 522 U.S. 269, 276, 118 S. Ct.
757, 139 L.Ed. 2d 702 (1998). Alabama's sentencing
scheme broadly allows the accused to present evidence
in mitigation. Jacobs v. State, 361 So. 2d 640, 652–
53 (Ala. 1978). See 13A–5–45(g), Ala. Code 1975
(“the defendant shall be allowed to offer any mitigating
circumstance defined in Sections 13A–5–51 and 13A–5–
52”). “[E]vidence about the defendant's background and
character is relevant because of the belief, long held by
this society, that defendants who commit criminal acts
that are attributable to a disadvantaged background, or to
emotional and mental problems, may be less culpable than
defendants who have no such excuse.” California v. Brown,
479 U.S. 538, 545, 107 S. Ct. 837, 93 L.Ed. 2d 934 (1987)
(O'Connor, J., concurring specially).’ ”
*73 Osgood v. State, [Ms. CR-13-1416, Oct. 21, 2016] –––
So. 3d –––– (Ala. Crim. App. 2016).

spectrum disorder, a personality disorder, and schizophrenia
render him less culpable than a defendant who does not have
a mental illness. Id. He did not present this argument to the
circuit court; thus, it is subject to plain-error review. See Rule
45A, Ala. R. App. P.
This Court has previously addressed very similar arguments
and stated:
“Under constitutional guidelines, in order to be exempt
from the imposition of the death penalty, a defendant must
meet the definition of mentally retarded, see Ex parte
Perkins, 851 So. 2d 453 (Ala. 2002); Atkins v. Virginia, 536
U.S. 304, 122 S. Ct. 2242, 153 L.Ed. 2d 335 (2002), or the
definition of legal insanity. § 15–16–24, Ala. Code 1975.
Moreover, Alabama's system of weighing the aggravating
circumstances and the mitigating circumstances in order
to determine whether life imprisonment without parole or
death is the appropriate sentence in a case has been held
not to be unconstitutional; thus, if the mitigating evidence
concerning a defendant's mental health is determined to
outweigh the aggravating evidence, the defendant could not
be sentenced to death. § 13A–5–46(e)[, Ala. Code 1975];
§ 13A–5–48[, Ala. Code 1975].”
Dotch v. State, 67 So. 3d 936, 1006 (Ala. Crim. App. 2010).

XXI.35

In the present case, the jury at the guilt phase rejected
Petersen's defense of not guilty by reason of mental disease
or defect. Thereafter, when determining sentencing, the jury
considered evidence concerning the following mitigating
circumstances: (1) that Petersen had no significant history
of prior criminal activity; (2) that, at trial, evidence was
presented suggesting that Petersen was suffering from
extreme mental or emotional disturbance at the time of
the offense; (3) that Petersen's capacity to appreciate the
criminality of his conduct or to conform his conduct to
the requirements of the law was substantially impaired
because of diagnosed mental illnesses together with the
mixture of psychotropic drugs and alcohol; and (4) that
Petersen was 22 years old at the time of the offense.
(R. 5094-95, see §§ 13A–5–51(1), (2), (6), and (7),
Ala. Code 1975.) The jury also considered evidence
of the nonstatutory mitigating circumstance concerning

Petersen argues that his death sentence violates the Eighth
Amendment to the United States Constitution because,
he says, he is mentally ill. (Petersen's brief, pp. 94-95.)
Specifically, Petersen argues that his death sentence is
unconstitutional because, he says, his diagnoses of, among
other things, bipolar disorder with psychotic features, autism-

Petersen's mental health and history.36 The jury determined
that this evidence was outweighed by the aggravating
circumstances. The circuit court, in sentencing Petersen,
gave weight to both the statutory and nonstatutory
mitigating circumstances concerning Petersen's mentalhealth conditions, treatment, and lack of treatment but found

As demonstrated by the excerpts from the record quoted
above, the circuit court's instruction to the jury regarding
evidence of Petersen's intoxication instructed the jury that
it could not consider that evidence only for impeachment
purposes. It did not prevent the jury from considering that
evidence at all for mitigation purposes. It is well settled that “
‘[t]he jury is presumed to follow the instructions given by the
trial court.’ ” Mitchell v. State, 84 So. 3d 968, 983 (Ala. Crim.
App. 2010) (quoting Frazier v. State, 758 So. 2d 577, 604
(Ala. Crim. App. 1999) ). Thus, Petersen's claim is without
merit and he is not entitled to relief.

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

60

Petersen v. State, --- So.3d ---- (2019)

that “the aggravating circumstances substantially outweighs
the mitigating circumstances.” (C. 553.) Specifically, the
court found that “[d]espite his mental health condition and
substances in his system, as well as his sudden cessation of his
psychotropic medication at the time of the murders, Petersen
was fully aware of his actions and he possessed the criminal
intent to kill many people.” Id.
*74 Under the circumstances discussed above, Petersen was
properly sentenced to death, and this Court will not extend or
expand the constitutional prohibitions against the application
of the death penalty in this case based on the argument being
raised here. See Dotch, 67 So. 3d at 1006. Thus, Petersen is
not entitled to relief on this claim.

XXII.37
Petersen also asserts that the circuit court erred when
it “double counted” elements of his capital offenses
as aggravating circumstances. (Petersen's brief, p. 95.)
According to Petersen, “this arbitrarily renders defendants
convicted of certain capital offenses automatically subject
to the death penalty at the end of the guilt phase whereas
others cannot be sentenced to death without additional jury
findings, in violation of the Eighth Amendment.” (Petersen's
brief, p. 96.) Thus, Petersen contends that “his rights to a jury
trial, due process, equal protection, a fair trial, an impartial
jury, and a reliable sentencing, as guaranteed by the Fifth,
Sixth, Eighth, and Fourteenth Amendments to the United
States Constitution and Alabama law” have been violated. Id.
Petersen raises this issue for the first time on appeal; therefore,
it is reviewed for plain-error only. See Rule 45A, Ala. R. App.
P.
The Alabama Supreme Court has previously recognized that,
“ ‘when a defendant is found guilty of a capital
offense, “any aggravating circumstance which the verdict
convicting the defendant establishes was proven beyond
a reasonable doubt at trial shall be considered as proven
beyond a reasonable doubt for purposes of the sentencing
hearing.” Ala. Code 1975, § 13A–5–45(e); see also Ala.
Code 1975, § 13A–5–50 (“The fact that a particular capital
offense as defined in Section 13A–5–40(a) necessarily
includes one or more aggravating circumstances as
specified in Section 13A–5–49 shall not be construed to
preclude the finding and consideration of that relevant
circumstance or circumstances in determining sentence.”).

This is known as “double-counting” or “overlap,” and
Alabama courts “have repeatedly upheld death sentences
where the only aggravating circumstance supporting the
death sentence overlaps with an element of the capital
offense.” Ex parte Trawick, 698 So. 2d 162, 178 (Ala.
1997); see also Coral v. State, 628 So. 2d 954, 965 (Ala.
Crim. App. 1992).’ ”
Ex parte Bohannon, 222 So. 3d 525, 529 (Ala. 2016)
(quoting Ex parte Waldrop, 859 So. 2d 1181, 1187-88 (Ala.
2002) ). Here, Petersen was convicted of capital offenses
that had corresponding aggravating circumstances. Those
offenses were murder made capital because the murder was
“committed during the commission of a burglary,” see §
13A-5-40(a)(4), Ala. Code 1975, which has a corresponding
aggravating circumstance found in § 13A-5-49(4), Ala. Code
1975, and murder made capital because it involved “two or
more persons by one act or pursuant to one scheme or course
of conduct,” see § 13A-5-40(a)(10), Ala. Code 1975, which
has a corresponding aggravating circumstance found in §
13A-5-49(9), Ala. Code 1975. Thus, Petersen is not entitled
to relief on this claim.

XXIII.38
Petersen contends that “the use here of the shooting deaths
themselves as the intended underlying felony for burglary
in a charge of capital murder, [see] § 13A-5-40(a)(4), [Ala.
Code 1975], does not ‘genuinely narrow’ the class of persons
eligible for the death penalty.” (Petersen's brief, pp. 96-97.)
Therefore, Petersen argues that his rights under the Fifth,
Sixth, Eighth, and Fourteenth Amendments to the United
States Constitution and Alabama law have been violated.
(Petersen's brief, p. 97.) Once again, this argument was not
raised at the trial level and will thus be reviewed for plain
error. See Rule 45A, Ala. R. App. P.
*75 In Floyd, ––– So. 3d at ––––, this Court addressed a
nearly identical argument. We stated:
“In Shaw v. State, 207 So. 3d 79 (Ala. Crim. App. 2014),
this Court rejected an identical argument:
“ ‘Shaw next argues that his two convictions for the
capital offense of murder during the course of a burglary
were improper because, he says, the State improperly
relied on the murder of each victim as the underlying
offense to establish the burglary. Specifically, Shaw
argues that use of the murder itself to elevate the crime

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

61

Petersen v. State, --- So.3d ---- (2019)

to capital murder “violates the requirement that capital
murder statutes ‘genuinely narrow’ the class of persons
eligible for the death penalty.” (Shaw's brief, p. 91.)

plain error, in Petersen being charged with and convicted of
murdering Cameron Eubanks, Tiffany Grissett, and Thomas
Robins during the course of a burglary.

“ ‘....
“ ‘This Court has previously considered and rejected this
argument. In Hyde v. State, 778 So. 2d 199 (Ala. Crim.
App. 1998), we stated:
“ ‘ “[Hyde] erroneously argues that the trial court erred
in allowing the murder to be elevated to capital murder
based on the same facts that constituted the murder itself.
Because the State showed that the appellant committed
the murder during a burglary of Whitten's house, the
murder was properly elevated to, and the appellant was
properly convicted of, the capital offense of burglary/
murder. See § 13A–5–40(a)(4), Ala. Code 1975.”
“ ‘778 So. 2d at 213. In Whitehead v. State, 777 So. 2d 781
(Ala. Crim. App. 1999), this Court held:
“ ‘ “Whitehead contends that ‘the use of the murder
itself to elevate the murder to capital murder violates
the requirement that capital murder statutes “genuinely
narrow” the class of persons eligible for the death
penalty.’ (Whitehead's brief to this court, p. 20.) This
same argument was raised on appeal by Whitehead's
codefendant Hyde and was rejected by this court. See
Hyde [v. State], [ 778 So. 2d 199 (Ala. Crim. App. 1998)
]. Likewise, we reject Whitehead's argument. Whitten's
murder was elevated to capital murder because it was
committed during the course of a burglary and because
the victim was a witness, not because of the murder
itself. See § 13A–5–40(a)(4), Ala. Code 1975. Because
the State sufficiently proved the elements of burglary,
Whitehead was properly convicted of the capital offense
of murder during a burglary.”
“ ‘777 So. 2d at 839. Here, the murders were elevated
to capital murders because they were committed during
the course of a burglary and not because of the murders
themselves. See Whitehead, supra. Shaw was properly
charged and convicted of murdering Doris Gilbert and
Robert Gilbert during the course of a burglary.’
“207 So.3d at 109.”
Like the murders in Floyd and Shaw, the murder in this case
was elevated to capital murder, not because of the murder
itself, but because the murder was committed during the
course of a burglary. Therefore, we find no error, much less

XXIV.
Petersen next contends that the circuit court erred when, he
says, it “improperly instructed the jury it could not consider
sympathy or mercy” in rendering its verdict during the
penalty phase of his capital-murder trial. (Petersen's brief, pp.
97-98.) As a result, Petersen contends that his rights to “due
process, a fair trial, and a reliable sentencing determination
as guaranteed by the Fifth, Sixth, Eighth, and Fourteenth
Amendments to the United States Constitution and Alabama
law” have been violated. Id. Because Petersen did not raise
this argument in the circuit court, it is subject to plain-error
review. See Rule 45A, Ala. R. App. P.
*76 According to Petersen, the following penalty-phase
instruction given by the circuit court was erroneous:
“You must consider all of the evidence in this trial without
bias, prejudice or sympathy for either side. You must be
equally just to both sides. Your verdict must not be based
on suspicion, speculation or conjecture.”
(R. 4500.) This argument has been addressed and rejected by
this Court, and the circuit court's instructions on passion and
prejudice have routinely been upheld as proper. See Wilson v.
State, 142 So. 3d 732, 797 (Ala. Crim. App. 2010); Vanpelt
v. State, 74 So. 3d 32, 93 (Ala. Crim. App. 2009); Barber
v. State, 952 So. 2d 393, 450–53 (Ala. Crim. App. 2005);
Whisenhant v. State, 482 So. 2d 1225, 1235–36 (Ala. Crim.
App. 1982); see also Jefferson v. State, 473 So. 2d 1100,
1103 (Ala. Crim. App. 1984) (failure to instruct jury to avoid
any influence of passion, prejudice or other arbitrary factor
required remand for new sentencing hearing). Petersen has
not offered this Court any compelling reason to revisit these
cases. Therefore, he has not shown that the circuit court's
instruction was erroneous, and he is not entitled to relief on
this claim.

XXV.
Petersen contends that both the circuit court and the
prosecutor repeatedly misinformed the jury that its verdict
was merely advisory, thereby leading the jury, he says,
“ ‘to believe that the responsibility for determining the

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

62

Petersen v. State, --- So.3d ---- (2019)

appropriateness of the defendant's death rests elsewhere.’
” (Petersen's brief, p. 98 (quoting Caldwell v. Mississippi,
472 U.S. 320 (1985) ).) According to Petersen, this conduct
violated his rights to due process, equal protection, a fair trial,
and a reliable sentencing under the Fifth, Sixth, Eighth, and
Fourteenth Amendments to the United States Constitution
and Alabama law. (Petersen's brief, p. 98.) This argument was
not raised at the trial level and will be reviewed only for plain
error. See Rule 45A, Ala. R. App. P.
In Caldwell v. Mississippi, supra, the United States Supreme
Court held that “[i]t is constitutionally impermissible to rest a
death sentence on a determination made by a sentencer who
has been led to believe that the responsibility for determining
the appropriateness of the defendant's death rests elsewhere.”
472 U.S. at 328. This Court, however, has previously held:
“ ‘a trial court does not diminish the jury's role by stating
that its verdict in the penalty phase is a recommendation
or an advisory verdict. Taylor v. State, 666 So. 2d 36 (Ala.
Cr. App. 1994), on remand, 666 So. 2d 71 (Ala. Cr. App.
1994), aff'd, 666 So. 2d 73 (Ala. 1995), cert. denied, 516
U.S. 1120, 116 S. Ct. 928, 133 L.Ed. 2d 856 (1996); Burton
v. State, 651 So. 2d 641 (Ala. Cr. App. 1993), aff'd, 651
So. 2d 659 (Ala. 1994), cert. denied, 514 U.S. 1115, 115
S. Ct. 1973, 131 L.Ed. 2d 862 (1995); White v. State, 587
So. 2d 1218 (Ala. Cr. App. 1990), aff'd, 587 So. 2d 1236
(Ala. 1991), cert. denied, 502 U.S. 1076, 112 S. Ct. 979,
117 L.Ed. 2d 142 (1992).’ ”
Doster v. State, 72 So. 3d 50, 104 (Ala. Crim. App. 2010)
(quoting Smith v. State, 795 So. 2d 788, 837 (Ala. Crim. App.
2000) ).
*77 On appeal, Petersen cites a few excerpts from the trial
transcript that, he says, demonstrate the instances in which
the circuit court impermissibly diminished the role of the
jury during that time by referring to the jury's verdict as an
“advisory verdict.” (Petersen's brief, p. 98.) In one excerpt,
the circuit court refers to the jury's role in rendering a verdict
as follows:
“[THE COURT:] But again, in Alabama, after a defendant
is convicted of a capital offense, the law requires the jury
to make a recommendation to me, the court, whether the
defendant should receive[ ] the death penalty or a life
without parole sentence.”
(R. 4485.) In the remaining excerpts cited by Petersen,
the court explained to the jury its role in determining and
weighing the aggravating and mitigating circumstances in
Petersen's case and stated that, under Alabama law, the jury

would make its sentencing recommendation to the court based
on those circumstances. (R. 4485, 4487, 4490, 4498-99, 4522,
5086.) At no point did either the court or the prosecution
expressly refer to the jury's verdict as “advisory.”
Contrary to Petersen's claim, those instructions and
statements do not “impermissibly convey to the jury that
the responsibility for determining the appropriateness of the
defendant's death rests elsewhere.” Doster, 72 So. 3d at 104.
Instead, the instructions accurately explain the respective
functions of the judge and jury. Thus, Petersen's claim is
without merit.

XXVI.
Petersen argues that his death sentence is unconstitutional
because, he says, it was imposed following an advisory,
nonunanimous jury verdict. (Petersen's brief, pp. 98-99.)
Petersen further argues that his death sentence violates the
legal principles in Ring v. Arizona, 536 U.S. 584 (2002), and
Hurst v. Florida, 577 U.S. ––––, 136 S. Ct. 616, 193 L.Ed. 2d
504 (2016), because, he says, the jury in his case did not find
“unanimously beyond a reasonable doubt (1) the existence
of all statutory aggravating circumstances on which the
sentence is premised and (2) those aggravating circumstances
outweigh the mitigating circumstances,” which he claims is
required by those cases. (Petersen's brief, p. 99.) Petersen
contends that, as a result, his death sentence violated his right
to a “jury trial, due process, a fair trial, equal protection,
and a reliable sentence under the Fifth, Sixth, Eighth, and
Fourteenth Amendments to the United States Constitution
and Alabama law.” Id.
In State v. Billups, 223 So. 3d 954 (Ala. Crim. App. 2016), this
Court addressed the constitutionality of Alabama's capitalpunishment scheme in light of Hurst and, in doing so, rejected
the arguments Petersen raises on appeal. Specifically, in
Billups we summarized Hurst as follows:
“In Hurst, the United States Supreme Court held Florida's
capital - sentencing scheme unconstitutional. The Court
noted that ‘[t]he analysis the Ring [v. Arizona, 536 U.S.
584 (2002),] Court applied to Arizona's sentencing scheme
applies equally to Florida's.’ Hurst, 577 U.S. at ––––, 136
S. Ct. at 621–22. Florida's capital-sentencing scheme as it
then existed was similar to Arizona's in that the maximum
sentence authorized by a jury verdict finding a defendant
guilty of first-degree murder was life imprisonment

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

63

Petersen v. State, --- So.3d ---- (2019)

without the possibility of parole; the defendant became
eligible for the death penalty only if the trial court
found the existence of an aggravating circumstance and
found that there were insufficient mitigating circumstances
to outweigh the aggravating circumstances. Although
Florida's procedure, unlike Arizona's, included an advisory
verdict by a jury recommending a sentence, the Court
found this distinction ‘immaterial' because a Florida jury
‘ “does not make specific factual findings with regard to
the existence of mitigating or aggravating circumstances
and its recommendation is not binding on the trial judge[;
therefore, a] Florida trial court no more has the assistance
of a jury's findings of fact with respect to sentencing issues
than does a trial judge in Arizona.” ’ Hurst, 577 U.S. at
––––, 136 S. Ct. at 622 (quoting Walton[ v. Arizona], 497
U.S. [639] at 648, 110 S. Ct. 3047 [ (1990) ] ). The Court
reiterated that ‘any fact that “expose[s] the defendant to
a greater punishment than that authorized by the jury's
guilty verdict” ... must be submitted to a jury,’ Hurst, 577
U.S. at ––––, 136 S. Ct. at 621 (emphasis added), and
concluded that Florida's procedure was unconstitutional
because ‘the Florida sentencing statute does not make a
defendant eligible for death until “findings by the court
that such person shall be punished by death,” ’ Hurst, 577
U.S. at ––––, 136 S. Ct. at 622 (quoting former Fla. Stat.
§ 785.082(1)(a) ); ‘[t]he trial court alone must find “the
facts ... [t]hat sufficient aggravating circumstances exist”
and “[t]hat there are insufficient mitigating circumstances
to outweigh the aggravating circumstances.” ’ Hurst, 577
U.S. at ––––, 136 S. Ct. at 622 (quoting former Fla. Stat. §
921.141(3).) As in Ring, in which the Court overruled its
previous decision in Walton upholding Arizona's capitalsentencing scheme, the Court in Hurst overruled its
previous decisions in Hildwin v. Florida, 490 U.S. 638,
109 S. Ct. 2055, 104 L.Ed. 2d 728 (1989), and Spaziano
v. Florida, 468 U.S. 447, 104 S. Ct. 3154, 82 L.Ed. 2d
340 (1984), upholding as constitutional Florida's capitalsentencing scheme to the extent ‘they allow a sentencing
judge to find an aggravating circumstance, independent of
a jury's factfinding, that is necessary for imposition of the
death penalty.’ Hurst, 577 U.S. at ––––, 136 S. Ct. at 624
(emphasis added).”
*78 223 So. 3d at 961-62 (footnote omitted). We further
explained:
“Hurst did not ... hold unconstitutional the broad overall
structure of Florida's capital-sentencing scheme--a hybrid
scheme beginning with a bifurcated capital trial during
which the jury first determines whether the defendant
is guilty of the capital offense and then recommends

a sentence, followed by the trial court making the
ultimate decision as to the appropriate sentence. Rather,
the Court held that Florida's capital-sentencing scheme
was unconstitutional to the extent that it specifically
conditioned a capital defendant's eligibility for the death
penalty on findings made by the trial court and not on
findings made by the jury, which contravened the holding
in Ring. The Court emphasized several times in its opinion
that Florida's capital-sentencing statutes did not make a
capital defendant eligible for the death penalty until the
trial court made certain findings. See Former Fla. Stat. §
775.082(1)(a) (2010) (‘[A] person who has been convicted
of a capital felony shall be punished by death’ only ‘if
the proceeding held to determine sentence according to the
procedure set forth in s. 921.141 results in findings by the
court that such person shall be punished by death, otherwise
such person shall be punished by life imprisonment and
shall be ineligible for parole.’ (emphasis added) ). And
the Court held only that ‘Florida's sentencing scheme,
which required the judge alone to find the existence of an
aggravating circumstance, is therefore unconstitutional.’
Hurst, 577 U.S. at ––––, 136 S. Ct. at 624.
“The Court in Hurst did nothing more than apply its
previous holdings in Apprendi [v. New Jersey, 530 U.S.
466 (2000),] and Ring to Florida's capital-sentencing
scheme. The Court did not announce a new rule of
constitutional law, nor did it expand its holdings in
Apprendi and Ring. As the State correctly argues, ‘Hurst
did not add anything of substance to Ring.’ (Petitions, p.
6.) The Alabama Supreme Court has repeatedly construed
Alabama's capital-sentencing scheme as constitutional
under Ring. See, e.g., Ex parte Waldrop, 859 So. 2d
1181 (Ala. 2002); Ex parte Hodges, 856 So. 2d 936 (Ala.
2003); Ex parte Martin, 931 So. 2d 759 (Ala. 2004); Ex
parte McNabb, 887 So. 2d 998 (Ala. 2004); and Ex parte
McGriff, 908 So. 2d 1024 (Ala. 2004)....”
223 So. 3d at 962-63.
Thereafter, this Court analyzed Alabama's capital-sentencing
scheme and summarized Hurst's impact on it as follows:
“In sum, under Alabama's capital-sentencing scheme, a
capital defendant is not eligible for the death penalty
unless the jury unanimously finds beyond a reasonable
doubt, either during the guilt phase or during the penalty
phase of the trial, that at least one of the aggravating
circumstances in § 13A–5–49 exists. Unlike both Arizona
and Florida, which conditioned a first-degree-murder
defendant's eligibility for the death penalty on a finding

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

64

Petersen v. State, --- So.3d ---- (2019)

by the trial court that an aggravating circumstance existed,
Alabama law conditions a capital defendant's eligibility
for the death penalty on a finding by the jury that at least
one aggravating circumstance exists. If the jury does not
unanimously find the existence of at least one aggravating
circumstance, the trial court is foreclosed from sentencing
a capital defendant to death. If the jury unanimously
finds that at least one aggravating circumstance does
exist, then the trial court must proceed to determine the
appropriate sentence. Although the trial court in Alabama
must also make findings of fact regarding the existence or
nonexistence of aggravating circumstances, the trial court's
findings are not the findings that render a capital defendant
eligible for the death penalty, as was the case in Ring
and Hurst. Under Alabama law, only a jury's finding that
an aggravating circumstance exists will expose a capital
defendant to the death penalty.
*79 “Alabama's capital-sentencing scheme, unlike the
schemes held unconstitutional in Ring and Hurst, does
not ‘allow a sentencing judge to find an aggravating
circumstance, independent of a jury's factfinding, that is
necessary for imposition of the death penalty.’ Hurst, 577
U.S. at ––––, 136 S. Ct. at 624; accord Ring, 536 U.S. at
609, 122 S. Ct. 2428. Because in Alabama it is the jury,
not the trial court, that makes the critical finding necessary
for imposition of the death penalty, Alabama's capitalsentencing scheme is constitutional under Apprendi, Ring,
and Hurst.”
223 So. 3d at 970.
Here, as explained above, the jury found Petersen guilty
of the following capital offenses: (1) one count of murder
made capital because two or more persons were murdered
by one act, scheme, or course of conduct, see § 13A-5-40(a)
(10), Ala. Code 1975, and (2) three counts of murder made
capital because three people were killed during the course
of a burglary, see § 13A-5-40(a)(4) Ala. Code 1975. Those
capital offenses have their own corresponding aggravating
circumstances, which can be found in sections 13A-5-49(9)
and (4), Ala. Code 1975.
As we explained in State v. Billups:
“ ‘Many capital offenses listed in Ala. Code 1975, §
13A–5–40, include conduct that clearly corresponds to
certain aggravating circumstances found in § 13A–5–49.’
Ex parte Waldrop, 859 So. 2d at 1188. As noted above, ‘any
aggravating circumstance which the verdict convicting the
defendant establishes was proven beyond a reasonable

doubt at trial shall be considered as proven beyond a
reasonable doubt for purposes of the sentence hearing.’ §
13A–5–45(e). When the capital offense itself includes as
an element one of the aggravating circumstances in § 13A–
5–49 (often referred to as ‘overlap’), the jury will make
the finding that an aggravating circumstance necessary
for imposition of the death penalty exists during the guilt
phase of the trial. In those cases, the maximum sentence
a defendant convicted of a capital offense may receive
based on the jury's guilty verdict alone is death, and
Apprendi, Ring, and Hurst are satisfied because the jury's
guilt-phase verdict necessarily includes the finding of an
aggravating circumstance necessary for imposition of the
death penalty.”
223 So. 3d at 967. The record indicates that, in addition to
the two aggravating circumstances discussed above, the jury
also found that the State had established another aggravating
circumstance beyond a reasonable doubt--that Petersen had
created a greater risk of death to many persons, see §
13A-5-49(3), Ala. Code 1975.
Thus, in this case, the jury's guilt-phase verdict established
that the aggravating circumstances were proven beyond a
reasonable doubt, and the maximum sentence that Petersen
could have received based on those verdicts was death.
Accordingly, “the jury, not the trial court, ... [made] the critical
finding necessary for imposition of the death penalty,” and
Petersen is not entitled to relief on this claim.

XXVII.
Pursuant to § 13A-5-53, Ala. Code 1975, this Court is
required to address the propriety of Petersen's capital-murder
convictions and death sentence. Petersen was convicted of
one count of murder made capital because two or more
persons were murdered by one act, scheme, or course of
conduct, see § 13A-5-40(a)(10), Ala. Code 1975, three
counts of murder made capital because three people were
killed during the course of a burglary, see § 13A-5-40(a)
(4) Ala. Code 1975, and one count of attempted murder,
see §§ 13A-6-2 and 13A-4-2, Ala. Code 1975. The jury
recommended by a vote of 10 to 2 that Peterson be sentenced
to death on the capital-murder convictions. The circuit court
sentenced Petersen to death for his capital-murder convictions
and to life imprisonment for his attempted-murder conviction.
*80 In sentencing Petersen to death, the circuit court
correctly found that the mitigating circumstances in Petersen's

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

65

Petersen v. State, --- So.3d ---- (2019)

case were substantially outweighed by the aggravating
circumstances. Specifically, the court found the following
aggravating circumstances existed and gave them “great
weight”: (1) that Petersen knowingly created a great risk
of death to many persons; (2) that the capital offense was
committed while the defendant was engaged or was an
accomplice in the commission of, or an attempt to commit
burglary; and (3) that Petersen intentionally caused the death
of two or more persons by one act or pursuant to one
scheme or course of conduct. (C. 546-47, 549.) The court
then considered the statutory mitigating circumstances and
found that several existed.39 (C. 547-48.) Thus, the circuit
court's order shows that it properly weighed the aggravating
circumstances and the mitigating circumstances and that it
correctly sentenced Petersen to death. The record supports the
court's findings.
Additionally, § 13A-5-53(b)(2), Ala. Code 1975, requires
this Court to reweigh the aggravating and mitigating
circumstances in order to determine whether Petersen's
sentence of death is appropriate.
“ ‘Section 13A–5–48, Ala. Code 1975, provides:
“ ‘ “The process described in Sections 13A–5–46(e)
(2), 13A–5–46(e)(3) and Section 13A–5–47(e) of
weighing the aggravating and mitigating circumstances
to determine the sentence shall not be defined to
mean a mere tallying of aggravating and mitigating
circumstances for the purpose of numerical comparison.
Instead, it shall be defined to mean a process by which
circumstances relevant to sentence are marshalled and
considered in an organized fashion for the purpose of
determining whether the proper sentence in view of all
the relevant circumstances in an individual case is life
imprisonment without parole or death.”
“ ‘ “The determination of whether the aggravating
circumstances outweigh the mitigating circumstances is
not a numerical one, but instead involves the gravity of
the aggravation as compared to the mitigation.” Ex parte
Clisby, 456 So. 2d 105, 108–09 (Ala. 1984). “[W]hile the
existence of an aggravating or mitigating circumstance is a
fact susceptible to proof, the relative weight of each is not;
the process of weighing, unlike facts, is not susceptible to
proof by either party.” Lawhorn v. State, 581 So. 2d 1159,
1171 (Ala. Crim. App. 1990).... “The weight to be attached
to the aggravating and the mitigating evidence is strictly
within the discretion of the sentencing authority.” Smith v.
State, 908 So. 2d 273, 298 (Ala. Crim. App. 2000).’

Stanley [v. State], 143 So. 3d [230,] 333 [ (Ala. Crim. App.
2011) ].”
Phillips v. State, [Ms. CR-12-0197, Dec. 18, 2015] –––
So. 3d ––––, –––– (Ala. Crim. App. 2015). As explained
above, the circuit court gave great weight to the aggravating
circumstances it found to exist. We agree with the court's
findings and, after independently weighing the aggravating
circumstances and the mitigating circumstances, this Court
holds that Petersen's death sentence is appropriate.
*81 As required by § 13A—5—53(b)(3), Ala. Code 1975,
this Court must now determine whether Petersen's sentence is
excessive or disproportionate when compared to the penalty
imposed in similar cases. In this case, Petersen was convicted
of one count of murder made capital because two or more
persons were murdered by one act, scheme, or course of
conduct, see § 13A-5-40(a)(10), Ala. Code 1975, and three
counts of murder made capital because three people were
killed during the course of a burglary, see § 13A-5-40(a)(4)
Ala. Code 1975. This Court has previously stated:
“ ‘Similar crimes have been punished by death on
numerous occasions. See, e.g., Pilley v. State, 930 So.
2d 550 (Ala. Crim. App. 2005) (five deaths); Miller v.
State, 913 So.2d 1148 (Ala. Crim. App.), opinion on return
to remand 913 So. 2d at 1154 (Ala. Crim. App. 2004)
(three deaths); Apicella v. State, 809 So. 2d 841 (Ala.
Crim. App. 2000), aff'd, 809 So. 2d 865 (Ala. 2001), cert.
denied, 534 U.S. 1086, 122 S. Ct. 824, 151 L.Ed. 2d
706 (2002) (five deaths); Samra v. State, 771 So.2d 1108
(Ala.Crim.App.1999), aff'd, 771 So.2d 1122 (Ala.), cert.
denied, 531 U.S. 933, 121 S. Ct. 317, 148 L.Ed. 2d 255
(2000) (four deaths); Williams v. State, 710 So. 2d 1276
(Ala. Crim. App. [1996] ), aff'd, 710 So. 2d 1350 (Ala.
1997), cert. denied, 524 U.S. 929, 118 S. Ct. 2325, 141
L.Ed. 2d 699 (1998) (four deaths); Taylor v. State, 666
So. 2d 36 (Ala. Crim. App.), on remand, 666 So. 2d 71
(Ala. Crim. App. 1994), aff'd, 666 So. 2d 73 (Ala. 1995),
cert. denied, 516 U.S. 1120, 116 S. Ct. 928, 133 L.Ed. 2d
856 (1996) (two deaths); Siebert v. State, 555 So. 2d 772
(Ala. Crim. App.), aff'd, 555 So. 2d 780 (Ala. 1989), cert.
denied, 497 U.S. 1032, 110 S. Ct. 3297, 111 L.Ed. 2d 806
(1990) (three deaths); Holladay v. State, 549 So. 2d 122
(Ala. Crim. App. 1988), aff'd, 549 So. 2d 135 (Ala.), cert.
denied, 493 U.S. 1012, 110 S. Ct. 575, 107 L.Ed. 2d 569
(1989) (three deaths); Fortenberry v. State, 545 So. 2d 129
(Ala. Crim. App. 1988), aff'd, 545 So. 2d 145 (Ala. 1989),
cert. denied, 495 U.S. 911, 110 S. Ct. 1937, 109 L.Ed. 2d
300 (1990) (four deaths); Hill v. State, 455 So. 2d 930 (Ala.

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

66

Petersen v. State, --- So.3d ---- (2019)

Crim. App.), aff'd, 455 So. 2d 938 (Ala.), cert. denied, 469
U.S. 1098, 105 S. Ct. 607, 83 L.Ed. 2d 716 (1984) (three
deaths).’
“Stephens v. State, 982 So. 2d 1110, 1147–48 (Ala. Crim.
App. 2005), rev'd on other grounds, Ex parte Stephens, 982
So. 2d 1148 (Ala. 2006). See also Reynolds v. State, 114
So. 3d 61 (Ala. Crim. App. 2010); and Hyde v. State, 13
So. 3d 997 (Ala. Crim. App. 2007).”
Phillips, ––– So. 3d at ––––. We conclude that Petersen's death
sentence is neither excessive nor disproportionate.
Finally, we have searched the entire record for any error that
may have adversely affected Petersen's substantial rights and
have found none. See Rule 45A, Ala. R. App. P.

Conclusion
For the foregoing reasons, the judgment of the circuit court is
due to be affirmed.
AFFIRMED.

Welch and McCool, JJ., concur. Windom, P.J., and Kellum,
J., concur in the result.
All Citations
--- So.3d ----, 2019 WL 181145

Footnotes

1
2

3

4

5
6
7
8
9

10
11
12

On appeal, Petersen does not raise any specific arguments regarding his conviction for attempted murder.
The record in this case was supplemented at least twice in an effort to correctly paginate the transcripts from pretrial
hearings and trial. This Court used the initial record on appeal and the “second corrected record on appeal” to evaluate
Petersen's claims. References to the Clerk's record from the original record on appeal are denoted with “C. ____.”
Citations to the transcripts from Petersen's pretrial hearings and trial, found in the second corrected record on appeal,
are denoted with “R. _____.”
Sections 13A-5-45, 13A-5-46, and 13A-5-47, Ala. Code 1975, were amended, effective April 11, 2017, by Act No.
2017-131, Ala. Acts 2017, to place the final sentencing decision in the hands of the jury. Under those sections as
amended, the jury's sentencing verdict is no longer a recommendation. Act No. 2017-131, however, does not apply
retroactively to Petersen. See § 2, Act No. 2017-131, Ala. Acts 2017, § 13A-5-47.1, Ala. Code 1975.
Those mitigating circumstances found to exist by the circuit court were: (1) that Petersen had no significant history of
prior criminal activity; (2) that the capital offense was committed while the defendant was under the influence of extreme
mental or emotional disturbance; (3) that Petersen's age at the time of the crime was pertinent; (4) that Petersen was
under the influence of alcohol or cough syrup containing DXM or a combination of alcohol and cough syrup containing
DXM at the time of the capital offenses; (5) that Petersen was not being treated for his mental-health condition and he
was in need of mental-health treatment at the time of the capital offenses; (6) that his father committed suicide when he
was young; (7) that Petersen was discharged from the Navy after being found unfit upon the discovery of his mentalhealth issues; and (8) that there was a sudden discontinuation of mental-health and/or psychotropic medications during
a period just before the commission of the capital offenses.
This claim appears as Issue II in Petersen's brief.
Those veniremembers were R.D., J. Bas., R.E., R.G., D.G., A.D., and W.H. (Petersen's brief, p. 29.)
We note that, although Petersen did challenge prospective juror J. Bas., he did so only on the basis that she had indicated
that she had family members who were in law enforcement and had strong views about the death penalty. (R. 898-99.)
Those 10 veniremembers were R.E., J.G., J. Cl., B.B., J. Bas., C.D., G.D., K.C., M.C., and D.G.
The record is unclear as to who sat on Petersen's final jury. Using the 69 juror questionnaires, voir dire transcript, and
the strike list provided to this Court, this Court believes that Petersen's final jury consisted of: C.B. (No. 7), J.B. (No. 11),
N.B. (No. 24), C.C. (No. 30), C. Cr. (No. 46), A.D. (No. 64), S.D. (No. 68), B.E. (No. 74), Z.H. (No. 101), W.H. (No. 102),
J.H. (No. 106), and D.H. (No. 111). We believe the alternates for Petersen's jury were J.B. (No. 21) and T.G. (No. 83).
Our analyses of Petersen's Batson and J.E.B. claims are based on this determination.
This claim appears as Issue III in Petersen's appellate brief.
Those veniremembers were K. Ca. (No. 28), T.M. (No. 107), K. Cr. (No. 47), J. Bar. (No. 4), M.C. (No. 49), J.C. (No.
37), and M.B. (No. 5).
This claim appears as Issue III.B. in Petersen's appellate brief.

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

67

Petersen v. State, --- So.3d ---- (2019)

13
14

15
16
17
18

19
20
21
22
23
24
25
26

27
28
29
30
31
32
33
34
35
36

37
38
39

This claim appears as Issue XIV in Petersen's brief.
The juror questionnaires do not include a question that specifically asked prospective jurors whether they would consider
mitigating evidence before imposing the death penalty. The only question that could be construed as having presented
that type of question was the following: “Please indicate how you feel about the following statement: ‘When it comes
to whether a person should be sentenced to death for intentionally committing a capital murder, their background and/
or the circumstances of the crime do not matter.'” Veniremembers were then asked to indicate whether they agreed or
disagreed with that statement.
In responding to that question, prospective jurors J. Bas., T.B., B. El., and C.G. wrote that they disagreed with that
statement. Prospective jurors C.D., G.D., E.G., J.G., and K.E. all indicated that they agreed with that statement. All
nine veniremembers, however, expressly indicated that they were in favor of the death penalty.
This claim appears as Issue XV in Petersen's brief.
This claim appears as Issue XXIV in Petersen's brief.
This claim appears as Issue VII in Petersen's brief.
As an initial matter, we note that the State argues that this issue should be reviewed under the plain-error standard,
see Rule 45A, Ala. R. App. P., because Petersen is raising this argument for the first time on appeal. (State's brief, p.
51.) The Alabama Supreme Court has recognized, however, that an adverse ruling on a defendant's motion to suppress
statements made to the police, which included his request for a hearing, preserves that issue for review. See, e.g., Ex parte
Jackson, 836 So. 2d 973, 974 (Ala. 2001). In the present case, the circuit court denied Petersen's motion to suppress,
which included a request for a hearing. (C. 389-90.) Thus, this issue has been properly preserved for appellate review.
This claim appears as Issue VI in Petersen's brief.
This claim appears as Issue VIII in Petersen's brief.
This claim appears as Issue XI in Petersen's brief.
This claim appears as Issue XII in Petersen's brief.
This claim appears as Issue XVI in Petersen's brief.
This claim appears as Issue XVII in Petersen's brief.
This claim appears as Issue I in Petersen's brief.
We note that Petersen, unlike the defendant in Brownfield, did not attempt to withdraw his plea of not guilty by reason of
mental disease or defect. That distinction, however, does not make a difference under the facts of Petersen's case. The
challenged evidence in Brownfield was erroneously admitted, not because Brownfield attempted to withdraw his plea of
not guilty by reason of mental disease or defect but because Brownfield, like Petersen, did not testify at his trial. The fact
that Petersen did not attempt to withdraw his plea of not guilty by reason of mental disease or defect does not change
the harmless-error analysis.
Petersen's specific challenges to the sufficiency of the evidence are addressed below.
This claim appears as Issue XIII in Petersen's brief.
This claim appears as Issue XIX in Petersen's brief.
This claim appears as Issue V in Petersen's brief.
This claim appears as Issue XVIII in Petersen's brief.
This claim appears as Issue XX in Petersen's brief.
This claim appears as Issue IX in Petersen's brief.
This claim appears as Issue X in Petersen's brief.
This claim appears as Issue XXI in Petersen's brief.
Those nonstatutory mitigating circumstances included: (1) that, despite having been involuntarily committed to the
Department of Mental Health some months earlier, Petersen was permitted to purchase the firearm used in the shooting;
(2) that Petersen was involuntarily committed but that the Coffee County Sheriff's office negligently issued a concealedcarry permit to Petersen, which allowed him to legally carry the gun used in the shooting; and (3) that South Central
Alabama Mental Health Center offered testimony in direct conflict with Petersen's psychiatrist, who recommended longterm commitment to the state hospital. (R. 4536-41.)
This claim appears as Issue XXII in Petersen's brief on appeal.
This claim appears as Issue XXIII in Petersen's brief.
Those mitigating circumstances the circuit court found to exist were: (1) that Petersen had no significant history of prior
criminal activity; (2) that the capital offense was committed while the defendant was under the influence of extreme mental

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

68

Petersen v. State, --- So.3d ---- (2019)

or emotional disturbance; (3) that Petersen's age at the time of the crime was pertinent; (4) that Petersen was under the
influence of alcohol or cough syrup containing DXM or a combination of alcohol and cough syrup containing DXM at the
time of the capital offense; (5) that Petersen was not being treated for his mental-health condition and was in need of
mental-health treatment at the time of the capital offense; (6) that his father committed suicide when he was young; (7)
that Petersen was discharged from the Navy after being found unfit upon the discovery of his mental-health issues; and
(8) that there was a sudden discontinuation of mental-health and/or psychotropic medications during a period just before
the commission of the capital offenses.

End of Document

© 2021 Thomson Reuters. No claim to original U.S.
Government Works.

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

69

APPENDIX B

C O U R T

O F

C R IM IN A L

S T A T E

O F

A P P E A L S

A L A B A M A

D. Scott Mitchell
Clerk
Gerri Robinson
Assistant Clerk

P. O. Box 301555
Montgomery, AL 36130-1555
(334) 229-0751
Fax (334) 229-0521

March 29, 2019
CR-16-0652

Death Penalty

Ryan Clark Petersen v. State of Alabama (Appeal from Houston Circuit Court: CC12-878;
CC12-879; CC12-880; CC12-881; CC12-882)

NOTICE
You are hereby notified that on March 29, 2019, the following action was taken in the
above referenced cause by the Court of Criminal Appeals:
Application for Rehearing Overruled.

'X

> .

D. Scott Mitchell, Clerk
Court of Criminal Appeals
cc: Hon. Todd Derrick, Circuit Judge

Hon. Carla H. Woodall, Circuit Clerk
James Hubbard, Attorney
Angela Setzer, Attorney
Randall S. Susskind, Attorney
Audrey K. Jordan, Asst. Attorney General

APPENDIX C

IN THE SUPREME COURT OF ALABAMA
March 30, 2020
1180504
Ex parte Ryan Clark Petersen. PETITION FOR WRIT OF CERTIORARI
TO THE COURT OF CRIMINAL APPEALS (In re: Ryan Clark Petersen
v. State of Alabama) (Houston Circuit Court: CC-12-878;
CC-12-879; CC-12-880; CC-12-881; CC-12-882; Criminal Appeals:
CR-16-0652).
ORDER
The Petition for Writ of Certiorari filed by Ryan Clark
Petersen on May 10, 2019, having been submitted to this Court,
IT IS ORDERED that the Petition for Writ of Certiorari is
GRANTED, limited to Issue V presented by the petition. The
parties are also directed to brief and argue the appropriate
standard of review for Batson-type claims raised initially on
appeal, including whether Ex parte Bankhead, 585 So. 2d 112
(Ala. 1991), should be overruled.
The Petitioner may file a brief within fourteen (14) days
from the date of this Order. Thereafter, the Respondent may
file a brief in accordance with subsection (g)(2) of Rule 39.
If the Petitioner or the Respondent chooses not to file a
brief, that party must file a waiver of the right to file the
brief within the time the brief is due under the appellate
rules. See Rule 39(g)(1) and (2), Ala. R. App. P.
The Petitioner may file a reply brief in response to the
Respondent's brief within fourteen (14) days of the filing of
the Respondent's brief, in accordance with subsection (g)(3)
of Rule 39, Ala. R. App. P.
See Rule 39(h), Ala. R. App. P., with regard to oral
argument.

IN THE SUPREME COURT OF ALABAMA
March 30, 2020
PER CURIAM. Parker, C.J., and
Stewart, and Mitchell, JJ., concur.

Bolin,

Shaw,

Bryan,

Wise and Sellers, JJ., dissent.
Mendheim, J., recuses.
Witness my hand this 30rd day of March, 2020.

Clerk, Supreme Court of Alabama
FILED
March 30, 2020
11:42 am
Clerk
Supreme Court of Alabama

cc:
D. Scott Mitchell
R. Todd Derrick
James Hubbard
Angela Setzer
Randall S. Susskind
Steven Marshall
Audrey K. Jordan

APPENDIX D

REL: August 21, 2020

Notice: This opinion is subject to formal revision before publication in the advance
sheets of Southern Reporter. Readers are requested to notify the Reporter of Decisions,
Alabama Appellate Courts, 300 Dexter Avenue, Montgomery, Alabama 36104-3741 ((334) 2290649), of any typographical or other errors, in order that corrections may be made before
the opinion is printed in Southern Reporter.

SUPREME COURT OF ALABAMA
SPECIAL TERM, 2020
____________________
1180504
____________________
Ex parte Ryan Clark Petersen
PETITION FOR WRIT OF CERTIORARI
TO THE COURT OF CRIMINAL APPEALS
(In re: State of Alabama
v.
Ryan Clark Petersen)
(Houston Circuit Court, CC-12-878; CC-12-879; CC-12-880;
CC-12-881; and CC-12-882;
Court of Criminal Appeals, CR-16-0652)

1180504
PER CURIAM.
WRIT QUASHED.
Parker,

C.J.,

NO OPINION.
and

Shaw,

Wise,

Bryan,

Stewart, JJ., concur.
Bolin and Mitchell, JJ., concur specially.
Mendheim, J., recuses himself.

2

Sellers,

and

1180504
MITCHELL, Justice (concurring specially).
I

concur

Nevertheless,

in
I

the

write

decision

to

express

to
my

quash
view

the

that

writ.

Ex

parte

Bankhead, 585 So. 2d 112 (Ala. 1991), and its progeny are due
to be overruled.
In Bankhead, this Court undertook a plain-error review
when the defendant, despite not making an objection at trial,
claimed that the prosecution engaged in race discrimination
when striking the jury.
developed

since

But the review framework that has

Bankhead

for

claims

of

race

and

sex

discrimination in jury selection goes beyond the scope of
plain-error review and is thoroughly unworkable. See Ex parte
Phillips, 287 So. 3d 1179, 1238 (Ala. 2018) (Stuart, C.J.,
joined

by

Main

and

Wise,

JJ.,

concurring

specially

and

explaining that the holding of Bankhead "is problematic for
several reasons" and calling for it to be overruled), and 287
So. 3d at 1255 (Sellers, J., concurring specially and agreeing
with

Chief

Justice

Stuart's

discussion

of

Bankhead).

Additionally, the review framework is not required by the
United

States

Constitution;

in

fact,

multiple

federal

appellate courts have held that defendants have no right to

3

1180504
review of unpreserved claims of race or sex discrimination in
jury selection.

See United States v. Reid, 764 F.3d 528, 533

(6th Cir. 2014); United States v. Brown, 634 F.3d 435, 440
(8th Cir. 2011); United States v. Abou-Kassem, 78 F.3d 161,
167

(5th Cir. 1996).

Moreover, I am not aware of any

provision in the Alabama Constitution that requires the review
framework that this Court has come to apply since Bankhead.
For these reasons, I would be in favor of overruling Bankhead
and its progeny in an appropriate future case.
Bolin, J., concurs.

4

APPENDIX E

IN

T H E

S U P R E M E

C O U R T

O F

A L A B A M A

August 21, 2020
1180504
Ex parte Ryan Clark Petersen. PETITION FOR WRIT OF CERTIORARI TO THE
COURT OF Cr Im INAL APPEALS (In re: State of Alabama v. Ryan Clark Petersen)
(Houston Circuit Court: CC-12-878; CC-12-879; CC-12-880; CC-12-881; CC-12-882; Criminal
Appeals : CR-16-0652).

CERTIFICATE OF JUDGMENT
WHEREAS, the appeal in the above referenced cause has been duly submitted and
considered by the Supreme Court of Alabama and the judgment indicated below was entered
in this cause on August 21,2020:
Writ Quashed. No Opinion. (Special Writing) PER CURIAM - Parker, C.J., and Shaw,
Wise, Bryan, Sellers, and Stewart, JJ., concur. Bolin and Mitchell, JJ., concur specially.
Mendheim, J., recuses himself.
NOW, THEREFORE, pursuant to Rule 41, Ala. R. App. P., IT IS HEREBY ORDERED
that this Court's judgment in this cause is certified on this date. IT IS FURTHER ORDERED
that, unless otherwise ordered by this Court or agreed upon by the parties, the costs of this
cause are hereby taxed as provided by Rule 35, Ala. R. App. P.
I, Julia J. Weller, as Clerk of the Supreme Court of Alabama, do hereby certify that the foregoing is
a full, true, and correct copy of the instrument(s) herewith set out as same appear(s) of record in said
Court.
Witness my hand this 21st day of August, 2020.

Clerk, S uprem e Court of A lab am a

